<html>
<title> - THE STATUS OF NUCLEAR CLAIMS, RELOCATION AND RESETTLEMENT EFFORTS IN THE MARSHALL ISLANDS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
 THE STATUS OF NUCLEAR CLAIMS, RELOCATION AND RESETTLEMENT EFFORTS IN 
                          THE MARSHALL ISLANDS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                      MAY 11, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-26

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
57-451 <l-ar/r-ar>          WASHINGTON : 1999




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
           T.E. Manase Mansur, Republican Professional Staff
                John Lawrence, Democratic Staff Director
          Marie Fabrizio-Howard, Democatic Professional Staff





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held May 11, 1999........................................     1

Statement of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................    35
        Prepared statement of....................................    36
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     2
        Prepared statement of....................................     3
    Underwood, Hon. Robert A., a Delegate in Congress from Guam..    40
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     1

Statement of Witnesses:
    Boyce, Ralph L., Deputy Assistant Secretary of State, East 
      Asian and the Pacific Affairs, Department of State.........     4
        Prepared statement of....................................     6
    Campbell, Kurt M., Deputy Assistant Secretary of Defense for 
      Asian and Pacific Affairs, International Security Affairs..    23
        Prepared statement of....................................    24
    deBrum, Hon. Oscar, Chairman, Nuclear Claims Tribunal........   165
        Prepared statement of....................................   168
        Letter to Banny deBrum...................................   225
    deBrum, Tony A., Minister of Finance, Republic of the 
      Marshall Islands...........................................    81
        Prepared statement of....................................    84
    Hills, Howard L., prepared statement of......................   133
    Maddison, Marie L., Secretary of Foreign Affairs and Trade, 
      Republic of the Marshall Islands...........................    67
        Prepared statement of....................................    70
    Mauro, Dr. John, Sanford Cohen and Associates................   191
        Prepared statement of....................................   193
    Muller, Philip, Minister of Foreign Affairs and Trade, 
      Republic of the Marshall Islands...........................    47
        Prepared statement of....................................    50
    People of Utirik, The, prepared statement of.................   137
    Richardson, Allan C.B., Scientific Consultant to the People 
      of Enewetak................................................   182
        Prepared statement of....................................   185
    Robison, William, prepared statement of......................   146
    Seligman, Paul J., M.D., M.P.H., Deputy Assistant Secretary 
      for Health Studies, Department of Energy...................    25
        Prepared statement of....................................    26
        Letters to Mr. Muller....................................   226
    Stayman, Allen P., Director, Office of Insular Affairs, 
      Department of the Interior.................................    11
        Prepared statement of....................................    13

Additional material supplied:
    Balos, Senator Henchi, Bikini Atoll Representative, Marshall 
      Islands Nitijela, prepared statement of....................   212
    deBrum, Hon. Banny, Ambassador, The Marshall Islands, letter 
      to Mr. Young..............................................214,222
    John, Senator Ismael, Mayor Neptali Peter and Davor Z. Pevec, 
      prepared statement of......................................   110
    Pinho, Kirtley, President, Majuro Chamber of Commerce, letter 
      to President Imata Kabua...................................   221
    RMI Government, response to Mr. Boyce's testimony............   215
    Weisgall, Jonathan M., prepared statement of.................   122


   HEARING ON STATUS OF NUCLEAR CLAIMS, RELOCATION AND RESETTLEMENT 
                    EFFORTS IN THE MARSHALL ISLANDS

                              ----------                              


                         TUESDAY, MAY 11, 1999

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11 a.m. in Room 
1324, Rayburn House Office Building, Hon. Don Young [chairman 
of the Committee] presiding.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. The Committee will come to order. The Committee 
is meeting today to hear testimony on the status of the nuclear 
claims and relocation resettlement in the Marshall Islands 
under rule 4G of the Committee rules. Any oral or opening 
statements in this hearing is limited to the Chairman and the 
Ranking Minority Member. This will allow us to hear from our 
witnesses who have traveled so far. If any other Members have 
statements, they can be included in the hearing record under 
unanimous consent.
    Today the Committee on Resources hearing will be focussed 
on the status of nuclear claims, relocation, and resettlement 
of the four atolls in the Bikini, Enewetak, Rongelap, and 
Utirik and other radiological rehabilitation of the atolls.
    These are complex issues involving scientific research, 
logistic engineering problems, financial and social challenges. 
However, above all else, the most important to the Committee 
are the people of the Marshall Islands who directly or 
indirectly were adversely impacted by the nuclear testing 
inadvertently.
    Congress has oversight responsibility for Federal funds 
designated for the brief settlement and relocation of the 
people of the Marshall Islands who were affected by the United 
States' nuclear testing. Federal funding also provides for 
medical treatment compensation for nuclear-related injuries or 
damages and radiological rehabilitation of certain atolls.
    This funding has been provided by also a series of trust 
funds and problematic assistance. The United States and the 
Marshall Islands have a special relationship based on decades 
of the United Nations trusteeship. Today the U.S. and RMI are 
separate sovereign nations in free association in our Compact 
of Free Association. Significant portions of the compact relate 
to the issues before the Committee today.
    In fact, this Committee held over 30 hearings during the 
consideration of the compact legislation. Many of those 
hearings attempted to identify the extent of the impact the 
U.S. nuclear testing program on the people and property of the 
Marshall Islands.
    Due to the uncertainty of the safety of resettlement in 
certain atolls, Congress included a provision that provided for 
additional scientific tests, agriculture food assistance, and 
the possibility for additional monetary and other assistance in 
the future.
    It was understood that the settlement, relocation, and 
radiological rehabilitation could present unforeseen challenges 
that might warrant additional assistance by the United States. 
Since the enactment of the compact in 1986, Congress has 
provided additional funding for those purposes.
    I want to thank the delegation from the Marshall Islands 
who have traveled to Washington to participate in the 
Committee's hearing and briefing yesterday and the hearing 
today. Your presentations yesterday and today will provide 
valuable information to Congress regarding the status of 
nuclear claims, resettlement, and relocation efforts.
    The independent scientific testimony and administration 
position statements today will also add to the record regarding 
the progress to date of these areas. I also want to thank the 
delegation for the fine hospitality shown to myself and to the 
Committee as we visited out there.
    We are extremely pleased with the visit that we had and it 
was very informative.
    [The information may be found at the end of the hearing.]
    Mr. Young. At this time, I will recognize the gentleman 
from California, the Ranking Member, Mr. Miller.

 STATEMENT OF HON. GEORGE MILLER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you very much, Mr. Chairman; and thank 
you very much for conducting these hearings. In February of 
1994, I conducted a lengthy investigation and held hearings 
because it became known to me that many of the facts 
surrounding the nuclear weapons testing in the Pacific during 
the 1950s had been withheld from Congress, the people of the 
Marshall Islands, and the public.
    Information I received prior to the 1994 hearings strongly 
suggested that many people were affected by the fallout and the 
contamination of their homelands, many more than had been 
previously disclosed. This information caused me to push for 
the release of all pertinent information held by the U.S. 
Department of Energy on the testing program and the magnitude 
of its effects on the inhabitants of the local islands. This 
resulted in thousands of pages of documents being released to 
the honor of my government, and today we are here in part 
because of what have we have learned from those documents.
    I hope the witnesses from the RMI will let us know how that 
process of receiving documents from the Department of Energy is 
going. Title 9 of the subsidiary agreement of section 177 of 
the Compact for Free Association contains language allowing for 
a request to the Congress for the compact renegotiations under 
what is known as a change in circumstances.
    There is a finding that injuries that occurred were not or 
could not reasonably have been identified as of the enactment 
of the compact, that such injuries rendered the provisions of 
the agreement manifestly inadequate. I realize that this is not 
an immediate purpose of today's hearings, but I want those who 
are here today from the administration or from the RMI to know 
that I am very interested in what these newly released 
documents show us about what factions of the Federal Government 
knew and withheld over a decade during the compact 
negotiations.
    This morning we will hear from testimony about how the 
United States-RMI relationship is proceeding specifically with 
regards to nuclear claims tribunal, relocation and resettlement 
issues; and I look forward to hearing from the administration 
on how the program is set up pursuant to the compact are 
working and if they are adequate to meet the needs and the 
goals.
    Similarly, the Committee needs to know from the 
representatives of the Marshall Islands how cleanup and 
resettlement are proceeding from their perspective as well as 
from the comfort level of the U.S. Government studies and data. 
This relationship is a two-way street.
    Much responsibility lies with the United States to 
compensate the people of the Marshall Islands to provide 
adequate health care, rehabilitate lands damaged during the 
testing program. The Republic of the Marshall Islands, however, 
also has responsibilities, as a sovereign government agreed to 
do.
    Our two nations are intertwined and as we go into the next 
millennium, I look forward to that relationship to continue to 
the betterment of both peoples. I welcome both the 
administration to this hearing and to my old friends who have 
traveled a great distance from the Marshall Islands to be here 
today and to share their concerns and their thoughts.
    [The prepared statement of Mr. Miller follows:]

Statement of Hon. George Miller, a Representative in Congress from the 
                          State of California

    In February of 1994 I conducted a lengthy investigation and 
held a hearing because it had become known to me that many 
facts surrounding the nuclear weapons testing in the Pacific 
during the 1950's had been withheld from Congress, the people 
of the Marshall Islands, and the public. This was not, and is 
not, acceptable to me. Prior to that time we had all been told 
that only 267 people were exposed to fallout from the BRAVO 
tests, and that exposure was an accident caused by a last 
minute shift in the wind and failure to anticipate the bomb 
would yield so much power.
    Information I received prior to the '94 hearing strongly 
suggested that many more people were affected by the fallout 
and contamination of their homelands. This information caused 
me to push for the release of all pertinent information held by 
the U.S. Department of Energy on the testing program and the 
magnitude of its effects on the inhabitants of the local 
islands. This has resulted in thousands of pages of documents 
being released to the RMI government. Today we are here, in 
part, because of what has been learned from those documents. I 
hope the witnesses from the RMI will let us know how the 
process of receiving documents from the Department of Energy is 
going.
    Title IX of the susidiary agreement to Section 177 of the 
Compact of Free Association contains language allowing for a 
request to Congress for compact renegotiation under what is 
known as ``changed circumstances'' is there is a finding that 
injuries occurred that ``were not and could not reasonably have 
been identified as of (enactment of the compact) and that such 
injuries rendered the provisions of this Agreement manifestly 
inadequate.'' I realize this is not the immediate purpose of 
today's hearing but I want those here today from the 
Administration and the RMI that I am very interested in what 
these newly released documents show about what factions of the 
Federal Government knew and witheld during over a decade of 
compact negotiation.
    This morning we will hear testimony about how the U.S.-RMI 
relationship is proceeding specifically with regard to the 
Nuclear Claims Tribunal, relocation, and resettlement issues. I 
look forward to hearing from the Administration on how the 
programs set up pursuant to the Compact are working and if they 
are adequate to meet the needs and goals. Similarly, this 
Committee needs to know from the RMI representatives how 
cleanup and resettlement are proceeding from their perspective 
as well as their comfort level with U.S. government studies and 
data.
    This relationship is a two way street--much responsibility 
lies with the United States to compensate the RMI people--to 
provide adequate health care and rehabilitate lands damaged 
during the testing program. The RMI, however, also has 
responsibilities it has, as a sovereign government, agreed to 
do. Our two nations are intertwined and as we go into the next 
millennium I look for this relationship to continue to the 
betterment of both our peoples.
    I welcome my old friends who have traveled a great distance 
from the Marshall Islands to be here with us today and look 
forward to hearing from you.

    Mr. Young. I thank the gentleman. Now we will call the 
first panel up. Mr. Ralph Boyce, Deputy Assistant Secretary of 
State; Mr. Allen Stayman, director of Insular Affairs, Interior 
Department; the Honorable Kurt Campbell, Deputy Assistant 
Secretary, Asian Pacific Affairs; the Honorable Paul Seligman, 
M.D., M.P.H., Deputy Assistant Secretary of Health Services, 
Department of Energy.
    I believe we will go right down the line. Mr. Ralph Boyce 
will be the first to testify. I want to remind our witnesses 
that I would be somewhat lenient, but try to limit your oral 
statements to 5 minutes. You can give as long of a written 
statement that you wish to do so. But in respect to the other 
witnesses, trying to keep it to 5 minutes is necessary. Mr. 
Boyce.

  STATEMENT OF RALPH L. BOYCE, DEPUTY ASSISTANT SECRETARY OF 
 STATE, EAST ASIAN AND THE PACIFIC AFFAIRS, DEPARTMENT OF STATE

    Mr. Boyce. Thank you, Mr. Chairman. I do have a written 
statement which I will submit for the record, and I will try to 
summarize it in under 5 minutes at this time. As Deputy 
Assistant Secretary of State responsible for the freely 
associated states as well as the region of southeast Asia and 
the rest of Oceania, I am pleased to have the opportunity to 
appear before the Committee with my colleagues from Interior, 
Energy and Defense.
    The United States' relationship with the Republic of the 
Marshall Islands, one of the three freely associated states, is 
a unique and important part of our posture in the Pacific, and 
the political relationship itself is defined in the Compact of 
Free Association. The compact established a special 
relationship between the U.S. and the Republic of the Marshall 
Islands that is distinct from other nations.
    In addition to providing U.S. defense for the RMI and 
access to U.S. Federal domestic programs, the compact provides 
just under $1 billion in U.S. funding through the initial 15-
year period of economic assistance. Mr. Chairman, we are 
approaching the 13th anniversary of the compact with the RMI, 
and under the terms of that agreement some elements will be up 
for renegotiation in October.
    We have established an office of the special negotiator in 
the Department of State to be led by my colleague, Allen 
Stayman, to my left here. As we continue preparations for that 
renegotiation, we are reviewing the effectiveness of the 
various U.S. programs and activities and assistance in the RMI.
    While both sides have learned a great deal over the past 13 
years, quite frankly there are some troubling signs regarding 
the commitment of the RMI to some of the goals of the compact. 
In particular, the RMI has what would have to be termed a 
spotty record of reform on the economic side hampered by an 
inefficient public sector, rising unemployment, and declining 
per capita income.
    The government has exhausted its financial holdings and 
borrow- 
ing capacity. The foreign investment climate is, quite frankly, 
not attractive. Controversy surrounds the government's 
management of funds established to provide compensation for 
claims related to the period 1946 to 1958 nuclear testing 
program of the United States.
    There are also complaints that there has been some 
manipulation of the criteria by which claimants are determined 
to be eligible for programs supported by these funds and the 
subscriber base has been inflated quite dramatically.
    Mr. Chairman, unique to the RMI is the U.S. obligation 
regarding the nuclear claims. As you know, the U.S. carried out 
66 nuclear tests at Bikini and Enewetak atolls between 1946 and 
1958. These atolls were evacuated prior to testing.
    However, on February 28, 1954, a thermonuclear device code 
named BRAVO was detonated at the Bikini atoll. The energy yield 
of this experimental device exceeded predictions; and sudden 
wind changes sent the cloud of radioactive debris unexpectedly 
eastward over land rather than over open seas to the north. 
Consequently the populations of Rongelap and Utirik were 
showered with radioactive debris for two to three days before 
being evacuated to the Kwajalein atoll for medical care.
    The United States has accepted full responsibility for the 
health and environmental damage caused by the U.S. nuclear 
testing program under the oft-cited section 177 of the compact. 
The implementation agreement of the compact with the RMI states 
that this is the, quote, ``full settlement of all claims past, 
present, and future,'' unquote, related to nuclear testing and 
at the time that the RMI agreed to the sum of $150 million.
    However, the compact provides that under certain 
circumstances the RMI may submit a request for Congress for its 
consideration by recognizing, of course, that this provision 
does not commit Congress to appropriate funds. So in addition 
to the $150 million that is in the compact settlement, the 
United States has provided about $300 million in various 
compensation, medical care, food supplies, environmental 
cleanup, and funds for resettlement.
    My written testimony contains a more precise breakdown of 
these figures. As I mentioned, the compact allows the RMI to 
submit a request for additional compensation to the U.S. 
Congress if there are changes in circumstances. We have heard 
for some time there may be such a request.
    We have given our assurance to the Marshall Islands 
government that we will do everything that we can to assist 
Congress in considering such a request should it be submitted.
    Regarding the relationship between nuclear issues and the 
renegotiation of the compact, Mr. Chairman, we believe that the 
negotiations should be limited to what the Congress and the 
compact call for.
    Just summarizing the end here, sir, thank you for the 
opportunity to present testimony to this Committee at this 
time, and I will gladly answer any questions that you might 
have after the other witnesses have spoken on behalf of the 
Department of State. Thank you.
    Mr. Young. Thank you, Mr. Boyce. Again, until I rap the 
gavel you don't have to wrap it up. I just meant as sort of a 
reminder, those little lights there. I do thank you.
    Mr. Boyce. That was close to a wrap, Mr. Chairman.
    [The prepared statement of Mr. Boyce follows:]

 Statement of Ralph Boyce, Deputy Assistant Secretary, Bureau of East 
         Asian and Pacific Island Affairs, Department of State

    Thank you Mr. Chairman. I am pleased to have the 
opportunity to appear before the Committee with my colleagues 
from the Departments of Interior, Energy and Defense. I look 
forward to discussing our bilateral relations with the Republic 
of the Marshall Islands, specifically with regards to the 
relocation and resettlement of the inhabitants of the four 
atolls affected by atmospheric nuclear testing, Bikini, 
Enewetak, Rongelap and Utirik. My responsibilities as Deputy 
Assistant Secretary for East Asian and Pacific Affairs include 
the Freely Associated States, specifically the Republic of the 
Marshall Islands. I have not yet had the opportunity to visit 
the Marshall Islands. A trip scheduled for earlier this year 
proved unworkable. However, I hope to include the RMI in my 
travels, certainly before the end of the year.

Background on Our Unique Relationship

    The United States' relationship with the Republic of the 
Marshall Islands, one of three Freely Associated States, is 
unique and one which is an important part of our posture in the 
Pacific. The Freely Associated States (the Republic of the 
Marshall Islands, the Federated States of Micronesia, and the 
Republic of Palau) were formerly part of the Trust Territory of 
the Pacific Islands. These islands were administered by the 
United States after 1947 under a United Nations Strategic 
Mandate. In the 1970s the United States entered into discussion 
with representatives of the various islands on their future-
political status, a process which had different outcomes for 
the four island groupings in the Trust Territory. The RMI chose 
to become a sovereign nation in free association with the 
United States. In June 1983, we reached an agreement with the 
RMI--a Compact of Free Association. Approved and enacted into 
law by Congress in January 1986, and endorsed by the United 
Nations later that year, our Compact with the RMI officially 
went into effect on October 21 of 1986.
    The Compact established a special relationship between the 
United States and the Republic of the Marshall Islands, one 
which differs from that with other nations in several distinct 
ways. Although the RMI is a sovereign power, the U.S. provides 
the people of the RMI access to direct services of over forty 
U.S. Federal domestic programs and to U.S. Government funding 
for budgetary and technical assistance grants at a per capita 
rate greater than U.S. assistance to almost any other foreign 
government. We take responsibility for the security and defense 
of the RMI in return for foreclosure of third country access to 
the Marshall Islands for military purposes--what we have called 
``strategic denial.'' Also, we give RMI citizens the right to 
work and live in the United States as nonimmigrant residents 
within the parameters laid out in the Compacts.

Compact of Free Association to Be Negotiated

    We are approaching the 13th anniversary of our 15-year 
Compact with the RMI and, under the terms of the Compact, some 
elements of the agreement will soon be up for renegotiation. 
Under the terms of the Compact, negotiations should begin in 
October 1999, two years before the 15th anniversary of the 
Compact (October 2001). We are establishing an Office of the 
Special Negotiator to be located in the Department of State 
which will house the interagency team that will conduct these 
negotiations.
    Why did we enter into the Compact in the first place and 
why are we renegotiating it? The U.S. entered into the Compact 
of Free Association, first, because the U.S. was obligated as 
administrator of the U.N. mandated Trust Territories, ``to 
promote the development of the inhabitants of the trust 
territories toward self-government or independence as may be 
appropriate to the particular circumstances of the trust 
territory and its peoples, and the freely expressed wishes of 
the peoples concerned.''
    Second, in the Cold War environment of the mid-1980s, the 
United States was keen to bolster its security posture in the 
Pacific. Within the framework of the Compact, the principle of 
strategic denial guaranteed the U.S. exclusive military access 
to these countries and their surrounding waterways. Third, our 
agreement with the RMI ensured continued access to U.S. Army 
Kwajalein Atoll (USAKA)/Kwajalein Missile Range, and our 
agreement with the Republic of Palau, the last of the Freely 
Associated States to sign a Compact, included the right to 
develop a military base should the U.S. need an alternative to 
the Philippines.
    Kwajalein Missile Range is considered to be a ``national 
asset'' and is currently the premier facility in the world for 
testing Theater Missile Defense. We have invested over $4 
billion in this facility. The lease for Kwajalein Atoll expires 
in 2001. However, our Compact with the RMI provides for 
automatic renewal rights for an additional 15 years if the U.S. 
chooses to do so.
    As we move towards renegotiations, we are reviewing the 
effectiveness of U.S. programs and assistance in the RMI. While 
both sides have learned much over the past 13 years, there are 
troubling signs regarding the commitment of the RMI to the 
goals of the Compact. The RMI has a spotty record of reform, 
hampered by an inefficient public sector, rising unemployment, 
and declining per capita income. The government has exhausted 
its financial holdings and borrowing capacity. The foreign 
investment climate is not an attractive one. Much controversy 
surrounds the government's management of funds established to 
provide compensation for claims related to the 1946-58 U.S. 
Nuclear Testing Program. There are complaints that manipulation 
of the criteria by which claimants are determined eligible for 
programs supported by these funds has led to a huge inflation 
of the subscriber base.

U.S. Responsibilities to the RMI

    Regarding U.S. Government obligations to the RMI, we have 
fulfilled our responsibility under the United Nations mandate 
to prepare the territory for self-governance. The RMI is self-
governing and responsible for its own foreign affairs. We have 
exchanged diplomatic representatives with the RMI and the 
government of the Marshall Islands has done so with other 
nations besides the U.S. The RMI also holds membership in 
international organizations including the U.N., IMF and the 
World Bank, and regional organizations such as the South 
Pacific Forum and the Asian Development Bank.
    Under the original Compact legislation, the United States 
pledged to help each of the three Freely Associated States move 
toward economic self-sufficiency. Our provision of Federal aid 
and services has been partially successful in fostering 
economic self-sufficiency. For many reasons the RMI has made 
slow progress in undertaking the reforms necessary to transform 
its economy. As we move towards negotiations, the Congress and 
the Administration are faced with the challenge of addressing 
past policy failures on both sides in order to improve RMI 
economic performance.

U.S. Obligation for Nuclear Claims

    Unique to the RMI is the U.S. obligation relating to 
nuclear claims. The U.S. carried out 66 underwater and 
atmospheric nuclear tests at Bikini and Enewetak atolls in the 
Marshall Islands between 1946-58. Two atolls, Bikini, at the 
time with a population of 167, and Enewetak, population of 145, 
were evacuated prior to testing. On February 28, 1954, a 
thermonuclear device, code-named Bravo, was detonated at Bikini 
Atoll. The energy yield of this experimental device exceeded 
predictions and sudden wind changes sent the cloud of 
radioactive debris unexpectedly eastward over land rather than 
over open seas to the north. Consequently, the populations of 
Rongelap (86 people) and Utirik (167 people) were showered with 
radioactive debris for two to three days before being evacuated 
to Kwajalein Atoll for medical care.
    In Section 177 of the Compact of Free Association (Public 
Law 99-239 enacted October 1986), the U.S. accepted 
responsibility for compensation owing to citizens of the RMI 
for loss or damage to property or person of RMI citizens 
resulting from the USG nuclear testing program between 1946 and 
1958. The subsidiary agreement implementing this provision of 
the Compact constituted the ``full settlement of all claims, 
past, present and future,'' related to nuclear testing. 
However, the Compact provides that, under certain 
circumstances, the RMI may submit a request for additional 
compensation to the Congress for its consideration, recognizing 
that this provision ``does not commit the Congress of the 
United States to authorize and appropriate funds.'' We have 
heard for some time that the RMI is preparing to submit a 
request for additional compensation to Congress for its 
consideration, and we will cooperate with Congress if, as we 
expect, Congress asks for our views on the request.
    The U.S. has provided over half a billion dollars in 
compensation to the RMI for the U.S. nuclear testing program 
through congressional appropriations and Federal services, such 
as the Department of Energy medical health program and the U.S. 
Department of Agriculture surplus food assistance. Compensation 
and assistance has included:

        --$150 million in 1986 under the Compact to create a Trust Fund 
        for the health care and compensation for nuclear claims for the 
        populations of the four atolls affected by the Nuclear Testing 
        Program--Bikini, Enewetak, Rongelap and Utirik. The government 
        of the Marshall Islands established the trust fund and a 
        Nuclear Claims Tribunal to adjudicate compensation claims. The 
        claims paid have totaled approximately $63 million thus far to 
        some 1,549 individuals.
    In addition to the Trust Fund, the U.S. has provided in 
compensation, support and medical care:

        --For Bikini: $6 million in 1978 and $110 million in 1982 in 
        trust funds for the people of Bikini; $1.4 million in ex gratia 
        payment in 1979, $1.754 million in food commodities from 1979-
        84 through USDA.
        --For Enewetak: $102,000 compensation for removal in 1969; $20 
        million for clean up in 1977, $129 million for clean up 
        activities in 1976, $12.4 million for resettlement in 1977, $20 
        million in agricultural support from 1980-96, $33.895 million 
        in 1989 for the rehabilitation and resettlement of Enewetak, 
        and an additional $10 million for the resettlement of Enjebi, 
        part of the Enewetak atoll.
        --For Rongelap: $11,000 to each Rongelapese exposed to fall out 
        was paid in 1965; $6.42 million added to the Rongelap Compact 
        Trust Fund in 1996.
        --For Utirik: $1,000 to each Utrikese exposed to fall out paid 
        in 1977; $25,000 to each Utirikese who underwent thyroid 
        surgery.
    All four atolls participate in the following programs:

        --$3.8 million in food commodities: from 1988-94 through the 
        U.S. Department of Agriculture to compensate the four-nuclear 
        affected atolls for decreased agricultural capabilities 
        resulting from the nuclear testing program. Present annual 
        funding is $581,000. Continued assistance over the next five 
        years is likely.
        --$80.4 million from 1980-1997 for special medical care and 
        treatment of the inhabitants of the four nuclear-affected 
        atolls, environmental monitoring of the lands and radiological 
        dose assessment monitoring through the Department of Energy for 
        the radiation-exposed populations--originally 253 people--of 
        Rongelap and Utirik. Today the Department of Energy Marshall 
        Islands Medical Program serves 238 people (130 exposed persons 
        and a control group of 107) with the cooperative support of the 
        Departments of Defense and Interior.
        --Two million dollars annually under the ``Four Atoll Health 
        Care Program'' administered by the Department of the Interior 
        for the people of the atolls of Bikini, Enewetak, Rongelap and 
        Utirik who were affected by the consequences of the U.S. 
        nuclear testing program, pursuant to the program described in 
        Public Law 95-134 and Public Law 96-205 and their descendants 
        (and any other persons identified as having been so affected if 
        such identification occurs in the manner described in such 
        public laws).

Additional Compensation Possible

    Although, under the Compact, Section 177 constitutes the full 
settlement of all claims, it also allows the RMI to submit a request 
for additional compensation to the U.S. Congress for its consideration 
if
        (a) loss or damage resulting from the Nuclear Testing Program 
        arises or is discovered which could not reasonably have been 
        identified as of the effective date of the agreement, and
        (b) such injuries render the provisions of the Agreement 
        ``manifestly inadequate.''
    We have given our assurance to the Marshall Islands government that 
the Administration will assist Congress in considering its request 
should it decide to submit a request which meets these criteria.

Resettlement of Marshall Islands Atoll Communities

    The U.S. takes seriously its commitment to resettle and 
rehabilitate those communities injured by the nuclear tests. From a 
legal and humanitarian standpoint, the various agencies tasked with 
this undertaking have carried out their work with commitment.

Enewetak

    The U.S. conducted 43 nuclear tests at Enewetak Atoll between April 
1948 and 1958. In April 1980, Enewetak Atoll was returned to the 
Enewetak and today more than 900 Enewetakese reside there.
    Is it safe to live in Enewetak Atoll? We believe so but that is a 
decision left up to the people of Enewetak to make based on the 
environmental data collected at Enewetak Atoll by the Department of 
Energy monitoring program. This data, coupled with the use of the 
latest dose models and international accepted intervention strategies, 
provide a sound basis upon which the Enewetak people and local 
government councils can make resettlement decisions regarding any 
island in the Enewetak Atoll chain.
    The U.S. conducted clean up operations at Enewetak Atoll from 1977-
80. Radiologically contaminated soil and debris present on many islands 
in the atoll were collected and deposited on Runit Island in a crater 
surrounded by a concrete key-wall and covered with a concrete cap. The 
crater is known as Cactus Crater and the concrete capped nuclear 
container as Runit Dome.
    The National Academy of Science in a 1980 report said the Cactus 
Crater structure and its contents presented no credible health hazard 
to the people of Enewatak, either now or in the future. Subsequent 
monitoring of Runit Dome by the Defense Nuclear Agency and the 
Department of Energy found the dome to be structurally sound. It is the 
consensus of the USG and the people of Enewetak that Runit island 
should remain quarantined indefinitely because of the possible presence 
of plutonium at subsurface levels which might not have been located and 
removed during cleanup. This position stands as a precautionary measure 
despite DOE resuspension studies which show that such a quarantine is 
not necessary.

Rongelap

    Rongelap atoll was showered by nuclear fallout when the U.S. 
detonated Bravo at Bikini Atoll on February 28, 1954. The local 
population (67 persons) was exposed to the fallout for two to three 
days before being evacuated to Kwajalein Atoll by the U.S. Navy. 
Nineteen Rongelapese temporarily residing on Ailingnae also were 
irradiated. The Rongelapese were returned to their island in 1957 where 
they remained until 1985. In 1985, the Rongelapese chose to move their 
community to Mejatto Island in Kwajalein Atoll. Following their 
evacuation to Kwajalein, Congress appropriated funds for the special 
care and treatment of the exposed Rongelap population, which has 
continued to this day under the DOE Marshall Islands Program. The 
Rongelapese are also eligible to receive medical care under the Section 
177 Health Care program for the four affected atoll communities.
    In 1965, the Atomic Energy Commission granted a payment of $11,000 
to each exposed Rongelapese. In addition, each Rongelapese exposed who 
underwent thyroid surgery received $25,000. Under the Compact, Congress 
appropriated $37.5 million to the Rongelap Distribution Authority to be 
held in trust for the people of Rongelap. In addition, Rongalapese may 
request compensation from the Republic of the Marshall Islands Nuclear 
Claims Tribunal for personal injury and property damage claims.
    In 1994, the National Academy of Sciences found that with 
appropriate mitigative measures, the people of Rongelap could return 
and live safely in their homeland. In February 1999 the Department of 
Energy executed a Memo of Understanding with the Rongelap Atoll Local 
Government for an environmental monitoring support plan for Rongelap 
Resettlement Activities. We have proposed a similar memo of 
understanding with the Enewetak/Ujelang Local Government Council.

Utirik

    The 176 persons from Utirik atoll were similarly affected and 
evacuated. However, it was found that they had experienced minimal 
effects from the fall-out and that further examination was not 
necessary. A 1954 Atomic Energy Commission survey team working with the 
High Commission of the Trust Territory decided the Utirikese could 
return to their homeland and would be furnished with food and water 
from outside the area. In May of that year the Utirikese returned. 
Department of Energy carries out environmental radiological monitoring 
of Utirik and health monitoring of the inhabitants. Today 450 people 
reside on Utirik and there is no significant radiation problem on the 
atoll that requires any remediation.

Bikini Atoll

    The U.S. conducted 23 nuclear tests on Bikini Atoll between June 
1946-58. one hundred sixty-seven people were evacuated before the tests 
began. One hundred twenty-five returned between 1972-74. Four years 
later, August 1978, the USG asked the Bikinians to leave due to concern 
that local food consumption was increasing cesium-137 body burdens and 
approaching levels in excess of internationally accepted radiation 
protection guidelines. (At the time, 500 mrem per year per individual 
dose). One hundred forty Bikinians departed.
    There are now about 2,000 Bikinians, 650 living on Majuro, 125 on 
Ebeye, 1,000 on Kili and others in various locations including the U.S. 
The Bikini community held a groundbreaking ceremony on the island 
anticipating their resettlement in March 1997. About 25 have returned 
to Eneu, one of the islands in the Atoll. The Department of Energy's 
funded study by the National Academy of Sciences in 1994 recommends 
interventions but notes that the island can be inhabited again without 
increased risk to residents from residual radionuclides in the soil, if 
certain mitigative measures are taken. An IAEA study published in 1998 
supports this.
    The existing trust fund, now valued at some $110 million, should be 
sufficient for resettlement if the Bikini community decides to employ 
the remediation strategy of applying potassium to land area. However, 
another option, scraping the island, may be more costly.
    The people of the four atolls affected by the nuclear testing in 
the Marshall Islands--Bikini, Enewetak, Rongelap and Utirik--find 
themselves in very different circumstances. In Rongelap, the leaders 
co-signed with Interior Secretary Babbitt their resettlement agreement 
in September 1996 and have since been able to return to Rongelap 
Island. Their restored airfield is in use and public facilities and 
homes have been constructed. Most of the people of Enewetak and Utirik 
have returned to their home islands. The people of Bikini in April 1998 
sought a guarantee from Interior Secretary that the atoll is safe for 
resettlement. The answer is that it is for the people of Bikini to 
decide. Based on a September 1996 draft International Atomic Energy 
Agency Advisory Group report on radiological conditions at Bikini, we 
can say that Bikini Island is ready for permanent habitation as long as 
certain remedial measures are fully implemented.

Conclusion

    We must distinguish the legislated responsibility for the 
resettlement of the peoples of Bikini, Enewetak, Rongelap and Utirik 
Atolls under the jurisdiction of the Department of Interior, from that 
of the general responsibility of the Department of State for the 
conduct of bilateral relations with the Republic of the Marshall 
Islands. Although the agencies have different roles, they must--and 
do--work together closely. The issue of resettlement is a sensitive 
one, especially to the populations of the individual atolls. Individual 
political leaders may take it upon themselves to promote a particular 
position outside of the framework of the RMI government. We remain open 
to all voices on this important matter and do not underestimate our 
responsibility. The U.S. Ambassador to the RMI, Joan Plaisted, has an 
ongoing dialogue with representatives of all of the atolls. Our role is 
to ensure that all of the people of the RMI receive what they are 
entitled to under the Compact without regard to individual or local 
political pressure.
    To that end, the following issues will have to be addressed by the 
U.S. Government in the coming years:

        --Changed circumstances: The U.S. Government will have to 
        assess the circumstances when the RMI submits its request but 
        we do not want to prejudge the outcome. The RMI has not yet 
        submitted a request identifying changed circumstances and, 
        under the Compact, Congress has the lead in considering any 
        such request.
        --Section 177 Management and the Nuclear Claims Commission: 
        Section 177 is mandated for a pool of people who were exposed 
        to radiation and their offspring. The Compact, including its 
        subsidiary agreements, provides the terms for the full 
        settlement of the nuclear' claims, and disbursements should be 
        in accordance with that agreement. To the extent that the RMI 
        considers that changed circumstances justify increasing the 
        number of people who should be receiving compensation, or 
        justify more funding for the Nuclear Claims Commission, those 
        requests should be made to Congress in the process provided for 
        in the Compact.
        --Finally, regarding the relationship between these issues and 
        Compact renegotiation: The Compact negotiations should be 
        limited to what Congress and the Compact called for. Issues 
        involving nuclear claims should remain separate and be dealt 
        with in accordance with the terms of the Compact, including the 
        subsidiary agreement and, if appropriate, through a request to 
        Congress for consideration based on changed circumstances.

    Mr. Young. All right. Very good. Next is Allen Stayman, 
director of the Office of Insular Affairs, Department of 
Interior. Mr. Stayman.

  STATEMENT OF ALLEN P. STAYMAN, DIRECTOR, OFFICE OF INSULAR 
              AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Stayman. Thank you, Mr. Chairman. The keystone of the 
United States policy regarding the nuclear testing program is 
section 177 of the Compact of Free Association. Here the United 
States, ``accepts the responsibility for compensation owing to 
citizens of the Marshall Islands for loss or damage resulting 
from the nuclear testing program.''
    In fulfilling this obligation, the United States provided 
the Marshall Islands with $150 million to create an independent 
nuclear claims fund. Article 2 requires the fund manager to 
disperse fixed amounts for health, medical surveillance, and 
radiological monitoring and to the four atolls as payment for 
claims of injury.
    Section 8 of this article obliges the governments of the 
four atolls to establish individual subtrust funds with all or 
a portion of these proceeds to ``provide perpetual source of 
income,'' for the people of the atolls.
    Article 4 of the subsidiary agreement requires the Marshall 
Islands government to establish a claims tribunal to determine 
awards for further compensation. Although section 177 provides 
for the full and final settlement claims for this payment of 
$150 million, article 9 provides that the Marshall Islands 
government may petition the Congress for additional 
compensation based on changed circumstances. The Marshall 
Islands government has indicated its intent to file such a 
petition, and the administration stands ready to assist the 
Congress in its consideration of such a request.
    In addition to section 177, Congress authorized and funded 
several programs including resettlement programs for Bikini, 
Enjebi, and Rongelap, a USDA surplus food program, the work of 
the Department of Energy, and the Department of the Interior's 
agricultural and food program for Enewetak.
    My colleagues from the Department of Energy will describe 
their program, and I would like to summarize briefly these 
other programs' effect on the four atolls.
    Regarding Bikini, the Congress appropriated $90 million in 
1988 for resettlement which was added to the $20 million 
appropriated in 1985. The legislative history notes that 
``these funds are provided to the Bikinians so that they and 
not the United States government will be responsible for the 
management and the decisions involved in returning to their 
homeland.''
    Representatives of Bikini have sought to know whether the 
United States government backs the 1996 report of the 
International Atomic Energy Agency on Radiological Conditions 
in Bikini. In a 1998 meeting with the Bikini leadership, 
Secretary Babbitt emphasized that the IAEA report was credible, 
reliable, and detailed and that the people of Bikini needed to 
consider the report's findings and then arrive at their own 
decision regarding the process and standards for resettlement.
    Regarding Enewetak, the nuclear testing program heavily 
contaminated the atoll's northern half, and the southern 
islands were mostly covered by concrete for facilities used by 
the testing program. From 1977 to 1980, the United States 
government undertook a cleanup and resettlement program which 
included the atoll's revegetation. Revegetation continues under 
the Department of the Interior funded program.
    For as long as the people of Enewetak need substantial 
amounts of off-island food, there will be a continuing need for 
supplemental Federal support such as provided by the USDA and 
the Department of the Interior programs. The Compact Act also 
established a $7.5 million resettlement trust fund for the 
Enewetak community of Enjebi island.
    Regarding Rongelap, a $45 million agreement to assist the 
people of Rongelap with resettlement was signed in 1996, and in 
1998 the Rongelap government contracted for phase 1 of 
resettlement, which includes establishment of a base camp, the 
construction of essential infrastructure, and completion of 
remediation recommendations of the independent scientific 
management team.
    The people of Utrik have the least significant 
rehabilitation problems and have secured the highest level of 
resettlement among the four atolls. The Congress did not 
provide a separate authorization for a resettlement program. 
Since 1993, the Office of Insular Affairs has reached a $45 
million resettlement agreement with the government of Rongelap, 
regularly approved the budgets of Bikini and Rongelap 
governments, worked with the National Academy of Sciences and 
the Marshall Islands government nationwide radiological study, 
and has met regularly with the representatives from the four 
atolls.
    Together we join our colleagues at Defense, Energy, and 
State in the faithful and active implementation of Federal 
responsibilities under the compact. Thank you.
    Mr. Young. Thank you, Mr. Stayman.
    [The prepared statement of Mr. Stayman follows:]
    [GRAPHIC] [TIFF OMITTED] T6305.001
    
    [GRAPHIC] [TIFF OMITTED] T6305.002
    
    [GRAPHIC] [TIFF OMITTED] T6305.003
    
    [GRAPHIC] [TIFF OMITTED] T6305.004
    
    [GRAPHIC] [TIFF OMITTED] T6305.005
    
    [GRAPHIC] [TIFF OMITTED] T6305.006
    
    [GRAPHIC] [TIFF OMITTED] T6305.007
    
    [GRAPHIC] [TIFF OMITTED] T6305.008
    
    [GRAPHIC] [TIFF OMITTED] T6305.009
    
    [GRAPHIC] [TIFF OMITTED] T6305.010
    
    Mr. Young. Dr. Campbell. You can wake up now. We are ready 
to go.

 STATEMENT OF KURT M. CAMPBELL, DEPUTY ASSISTANT SECRETARY OF 
 DEFENSE FOR ASIAN AND PACIFIC AFFAIRS, INTERNATIONAL SECURITY 
                            AFFAIRS

    Dr. Campbell. Just writing a last note, Mr. Chairman. I 
wanted to have it exactly right.
    Thank you very much, Mr. Chairman, for this opportunity. I, 
too, will submit my testimony for the record and just make a 
couple of general remarks to save time for the panel for 
questions. I think, as you know, Mr. Chairman, and colleagues, 
that the Department of Defense has an absolutely unique role 
and unique responsibilities when it comes to the islands and 
the compact as a whole.
    My testimony itself deals with the nuclear inheritance 
issues, and I will leave you to pursue that further if there is 
interest. I just want to say as we approach the renewal of 
discussions, negotiations about the compact, I believe that it 
is in the strong national security interest of the United 
States to maintain the full range of military access and 
security engagement with the islands.
    It is our view that as we head into a critical period of 
testing and development of critical space systems and other 
aspects of the theater missile defense program, which both 
Congress and the administration feels is in the strong national 
interest of the United States and our key allies, that the role 
of the nations and the island nations will be absolutely 
critical in the next several years.
    I must say that in the last several months and years that 
we have endeavored to do these tests, and when we have required 
more land and more area, that the Marshallese and the 
inhabitants of Kwajalein have been very responsible and very 
responsive when we have needed further area under short-term 
needs.
    Let me make one final point, and then I will end before my 
time is up. I want to speak for a few minutes, if I can, about 
the central air services. Mr. Chairman, Congressman Miller in 
his opening statement made, I think, a very generous point that 
many members of the delegation, particularly from the Marshall 
Islands traveled a great distance to be here today.
    They not only traveled a great distance, they traveled also 
at great cost, and we must have to acknowledge a great 
inconvenience as well. Air lines and air service into the 
Marshall Islands are running now between two and three months 
booked in advance. It is virtually impossible to fly into the 
islands.
    We have been involved at the Department in a lengthy and 
protracted discussion about the conditions, whereby we would be 
able to enlarge the number of stopovers at Johnston Atoll to 
allow greater passenger flow from the islands to Hawaii and to 
onward destinations of the United States. I am here to report 
today, Mr. Chairman and other Members, that we, I think, have 
arrived at some responsible steps that the USI can take on the 
safety side to assure that we will be able to rapidly begin 
discussions with the Marshallese to increase the number of 
flights through and into Johnston Atoll.
    I will just tell you that this has been awhile in coming. I 
want to commend publicly particularly the representative of the 
Marshallese government who have been relentless in their 
pursuit of their own national and legitimate interest in my 
view.
    I hope to be able to begin discussions in the weeks ahead 
to be able to meet the increase in air service that inevitably 
comes in the May, June, and July time frame. We are a bit tardy 
in this, but it is better late than never, Mr. Chairman. With 
that I will conclude.
    Mr. Young. Thank you, Dr. Campbell.
    [The prepared statement of Dr. Campbell follows:]

   Statement of Dr. Kurt M. Campbell, Deputy Assistant Secretary of 
 Defense for Asian and Pacific Affairs, International Security Affairs

    Thank you Mr. Chairman. I am honored to join this 
distinguished assembly of Marshall Island and United States 
Government officials to discuss the status of nuclear claims, 
relocation and resettlement efforts of the governments of the 
four nuclear-affected atolls in the Marshall Islands. My 
responsibilities as Deputy Assistant Secretary of Defense for 
Asian and Pacific Affairs include the Freely Associated States, 
specifically the Republic of the Marshall Islands. While I have 
not visited the Marshall Islands, my staff has, and I have 
worked closely with the Republic of the Marshall Islands 
Embassy here in Washington.

Background on the Defense Relationship

    The Department of Defense has a deep appreciation of the 
current significance and past history of our special 
relationship with the Freely Associated States; the Republic of 
the Marshall Islands, the Federated States of Micronesia, and 
Palau. We cannot, and should not, forget the price we paid in 
liberating these islands from Imperial Japan in World War II 
and the role some of the islands and peoples played in 
developing crucial U.S. defense programs in the 1950s and 
1960s. Our relationship is founded upon the unique role of U.S. 
defense responsibilities to the sovereign nations of the Freely 
Associated States under the terms of the Compact of Free 
Association.
    The Compact and subsequent agreements obligate the United 
States to provide for the defense of the Freely Associated 
States in perpetuity, unless mutually agreed upon to terminate 
the arrangement. We are committed to provide security to these 
nations and their peoples ``as the United States and its 
citizens are defended.'' This level of defense commitment goes 
beyond any other U.S. treaty or alliance. In return for this 
fundamental security guarantee and other DOD obligations, we 
retain the right for certain military uses and access, as well 
as the right to veto access to third countries.
    In the absence of the Compact or the Security and Defense 
Relations Title of the Compact, the Mutual Security Agreement 
still provides for defense obligations, military access, and 
denial of military access by third countries. Although it may 
appear that the termination of the Compact would result in 
little change, it is clearly in the best interests of the U.S. 
to maintain the full range of military access and security 
engagement options the Compact provides. One of the most 
important aspects of the Compact is the foundation it provides 
for our day-to-day working relationship with the people of the 
Freely Associated States.
    In preparation for the upcoming Compact renewal 
negotiations, the Department of Defense has conducted a study 
to determine our defense interests in the Freely Associated 
States for the post-2001 era. This study, which will be 
finalized in mid-1999, has considered many issues of mutual 
concern, such as continued access, current and future threats, 
and roles the Freely Associated States may play in future 
scenarios.
    The overriding defense interest in the negotiations will be 
continued use of the Kwajalein Missile Range and the facilities 
on Kwajalein Atoll. The requirements of our missile defense and 
space surveillance programs combined with the uniqueness of 
Kwajalein's location, infrastructure investment, and real world 
treaty restrictions, make this an issue of the highest 
priority.
    Under the Military Use and Operating Rights Agreement, 
negotiated subsequent to the Compact, the United States retains 
the right to automatically extend the use of Kwajalein for an 
additional fifteen years to 2016. However, the Compact and use 
of Kwajalein are not that easily separated. While the 
agreements may be negotiated separately, proviso's of the 
Compact help provide the basis for the support of the 
Marshallese, who in turn provide not only much of the labor 
force, but also a positive local environment which is critical 
for continued success at Kwajalein.
    If the goal of the Compact is to maintain a unique 
relationship with the Freely Associated States while helping 
them become financially self-sustaining democracies, then a 
renegotiated Compact, in some form, is in the best interests of 
the United States and the Freely Associated States. It will 
help the Freely Associated States continue to work toward their 
national goals, while serving our national defense interests.

Nuclear Claims, Relocation and Resettlement

    As part of the U.S. Government's acceptance of 
responsibility ``for compensation owing to citizens of the 
Marshall Islands . . . for loss or damage . . . resulting from 
the nuclear testing program . . . conducted . . . between June 
30, 1946, and August 18, 1958,'' the Department of Defense 
participated in the clean up of Enewetak Atoll. Contaminated 
matter was deposited in Cactus Crater on Runit Island and the 
Army Corps of Engineers constructed a concrete dome over the 
crater for containment.
    Pursuant to the terms of the Compact of Free Association, 
the Republic of the Marshall Islands bears full responsibility 
for maintaining and monitoring the dome and Runit Island. Any 
issues dealing with Runit dome are best addressed to the 
Department of Energy for technical expertise.
    The Department of Defense has cooperated with the Republic 
of the Marshall Islands' quest for historical data dealing with 
nuclear testing and clean up efforts. Most recently, in the 
fall of 1997, the Embassy of the Republic of the Marshall 
Islands was authorized to communicate directly with the Defense 
Special Weapons Agency as a means to refine requests for both 
classified and unclassified information. To date, this working 
relationship has not been utilized.
    The Department of Defense bears no obligations for matters 
dealing with relocation or resettlement.

    Mr. Young. Dr. Seligman.

 STATEMENT OF PAUL J. SELIGMAN, M.D., M.P.H., DEPUTY ASSISTANT 
       SECRETARY FOR HEALTH STUDIES, DEPARTMENT OF ENERGY

    Dr. Seligman. Thank you. Mr. Chairman, Members of the 
Subcommittee, I am pleased to be here today to discuss the 
Department of Energy's Marshall Islands program. My complete 
statement is provided to the Committee for the record.
    As you know, this program was created in response to 
congressional direction to help the citizens and the leadership 
of the Republic of the Marshall Islands address environmental 
and medical consequences of the U.S. Atmospheric Nuclear 
Weapons Testing Program.
    Our program currently consists of two parts, which I will 
discuss in turn. The Environmental Monitoring Program is 
focussed on helping the peoples of the four northern atolls, 
Bikini, Enewetak, Rongelap, and Utirik, understand how 
radiation has affected their environment; develop ways to 
mitigate contamination and monitor the effectiveness of these 
mitigation strategies especially in resettled communities.
    In addition to the environmental program, we have a special 
medical care program that provides for the identification and 
treatment of radiogenic-related diseases in the peoples of 
Rongelap and Utirik atolls who are exposed from fallout from 
the Castle BRAVO test. The environmental monitoring program 
began in 1972, but since its inception has been conducted by 
the Lawrence Livermore National Laboratory.
    The program is led by Dr. William Robison, who, I 
understand, is in the Marshall Islands today doing sampling and 
will not be part of the panel. This program has sponsored 
detailed environmental monitoring and agriculture research to 
characterize the current radiologic conditions on those four 
northern atolls.
    To date the U.S. Government has expended a total of more 
than $45 million towards this goal. Scientists have collected 
and analyzed more than 48,000 vegetation samples, 8,000 marine 
organism samples, 45,000 soil samples, in addition to numerous 
other animal, water, and aerosol samples.
    Through this work we now have an accurate characterization 
and understanding of the nature and extent of radiation 
contamination in the northern belt atolls. The scientific data 
support a number of scientific and public health conclusions 
and recommendations regarding resettlement and land use in the 
northern atolls.
    The primary conclusions are as follows: first, the Utirik 
people can continue to live on their atoll without concern that 
their health will be affected by radiologic exposure from 
residual contamination from weapons testing.
    Second, the Rongelap people can also choose to resettle 
without concern that their health will be affected by 
radiologic exposure from residual contamination if they do two 
things: one, conduct a limited scrape of surface soils in the 
village areas; and, two, apply potassium fertilizers to areas 
where food is growing. This mitigation technique is called the 
combined option and is the basis for the Rongelap resettlement 
program being implemented today.
    Third, the Bikini people may also choose to resettle 
without concern that their health would be affected by residual 
nuclear radiologic contamination if they, like Rongelap, apply 
the combined option.
    Finally, the Enewetak people who have been resettled on the 
Enewetak atoll since 1980 can continue to live on their atoll 
without concern that their health will be affected by 
radiologic exposure.
    Bioassay and whole-body counting results have independently 
confirmed this conclusion for the Enewetak people. We believe 
our studies have provided timely, relevant, and credible 
environmental data and have undergone extensive and independent 
national and international scientific peer review.
    This work, together with independent environmental reviews 
supported by trust funds to the Department of Interior provide 
a firm foundation from which the Republic of the Marshall 
Islands government and their people can make informed decisions 
about resettlement and land use.
    The environmental sampling and agriculture studies will be 
complete over the next two years. My office stands ready to 
address the needs, concerns, and questions of the RMI and local 
atoll governments regarding radiologic monitoring as 
circumstances evolve.
    We recently signed a memorandum of understanding with 
Rongelap to support monitoring during current resettlement 
activities and stand ready to support similar activities on 
other atolls and islands as needed.
    In conclusion, then, we think our environmental studies 
carried out over the years provide the solid information and 
firm foundation that the people of the government of the 
Marshall Islands need to make informed decisions about how to 
resettle and use their lands.
    I am not going to talk now because my time is limited about 
our medical program, but suffice to say that we have also 
through our medical program provided a program that is 
responsive to the needs of the community by providing 
preventative, innovative health care for the mandated 
population, enhancing delivery capabilities, involving the 
communities in the design of that program, and ensuring our new 
medical program is coordinated with other health agencies to 
leverage assets and improve overall health care service.
    Mr. Chairman, I thank you for this opportunity to share the 
current status of our environmental program, and I would be 
pleased to answer any questions.
    Mr. Young. I thank the gentleman.
    [The prepared statement of Dr. Seligman follows:]

   Statement of Dr. Paul J. Seligman, M.D., M.P.H., Deputy Assistant 
 Secretary for Health Studies, U.S. Department of Energy and Captain, 
              Medical Director, U.S. Public Health Service

    Mr. Chairman and members of the Committee, I am pleased to 
be here to discuss the Department of Energy (DOE) Marshall 
Islands program. As you know, this program was designed and 
created in response to Congressional direction to help the 
citizens of the Republic of the Marshall Islands (RMI) with the 
environmental and medical consequences of the United States 
atmospheric nuclear weapons testing program. I also appreciate 
this opportunity to broaden the dialogue between the U.S. and 
the RMI so that we can better address needs of the local 
communities, consistent with our budget and within the 
framework of our mandate.
    The atmospheric nuclear weapons test code-named ``Castle 
BRAVO'' was conducted at the Bikini atoll in 1954. The test 
inadvertently deposited radioactive fallout on 253 residents of 
the Rongelap and Utrik atolls. Medical care was provided for 
these individuals in the days immediately following the test by 
U.S. Navy physicians. When these physicians moved to Brookhaven 
National Laboratory (BNL) in 1956, the responsibility for 
caring for this group followed them. Medical care under the 
aegis of DOE and its predecessors continued through 1986 and 
the Congressional enactment of Public Law 99-239, Section 
103(h) of the Compact of Free Association Act which mandated 
continuing this special medical program. Additionally, Public 
Laws 95-134 and 96-205 require environmental monitoring to 
characterize the radioactivity remaining at the four atolls of 
Bikini, Enewetak, Rongelap, and Utrik. These monitoring 
programs began in 1972-73 at Enewetak atoll and continue 
through the present.
    Under these laws, DOE continues to provide two distinct 
services to the Republic of the Marshall Islands: environmental 
monitoring and special medical care. The environmental 
monitoring program is focused on helping the peoples of the 
Bikini, Eniwetok, Rongelap, and Utrik atolls understand the 
effect of radiation on their environment, develop methods to 
mitigate contamination, and monitor the effectiveness of 
mitigation strategies especially in resettled communities. The 
special medical care program provides for the identification 
and treatment of radiogenic-related diseases that have occurred 
in the peoples of Rongelap and Utrik atolls that were exposed 
to fallout from the Castle BRAVO weapons test.

DOE Marshall Islands Environmental Monitoring Program

    For 27 years, the environmental monitoring program has been 
conducted for the DOE by its Lawrence Livermore National 
Laboratory (LLNL). The program has sponsored detailed 
environmental monitoring and agricultural research studies to 
characterize current radiological conditions at the Bikini, 
Eniwetok, Rongelap, and Utrik atolls. Since the inception of 
the program in 1972, the U.S. government has expended more than 
$45,000,000 toward this goal.
    The program is led by Dr. William Robison, Scientific 
Director of the Marshall Islands Dose Assessment and 
Radioecology Program at Lawrence Livermore National Laboratory. 
I will defer to him today to describe the detailed scientific 
conclusions of his studies in the environmental area. But I 
would like to summarize the Department's views of his work.
    Dr. Robison and his colleagues from Lawrence Livermore 
National Laboratory have assembled an unprecedented team of 
international scientific experts from around the globe to carry 
out this program. Since this work began, its expressed purpose 
has been to answer the difficult questions about radiation 
contamination in the Marshall Islands. This work has become the 
standard by which dose assessment and radioecology programs are 
measured today.
    The environmental monitoring process conducted by LLNL 
consists of extensive field sample collection and laboratory 
analysis. To date, some 48,147 vegetation samples, 8,741 marine 
organism samples, 25,632 soil/sediment samples, 586 terrestrial 
animal samples, 1,373 water samples, and 61 aerosol samples 
have been collected and analyzed by LLNL. Also, agricultural 
research studies centered on Bikini Island have provided 
important insight into possible mitigation strategies that will 
help reduce the uptake of radionuclides in locally grown food 
products.

Key Scientific Findings

    Through the work of Dr. Robison and his team, we now have 
an accurate characterization and understanding of the nature 
and extent of radiation contamination in the northern belt 
atolls of Bikini, Eniwetok, Rongelap, and Utrik. Dr. Robison's 
work, while not yet complete in several key areas, has produced 
scientific data that support a number of conclusions and 
recommendations. I emphasize to the Committee that these 
recommendations are based solely on the scientific data, and do 
not consider other factors that will ultimately affect 
decisions of the Marshallese peoples.
        <bullet> The Utrik people can choose to live on their atoll 
        without concern that their health will be affected by 
        radiological exposure. A final environmental report for Utrik 
        is scheduled for publication in July 1999.
        <bullet> The Rongelap people could choose to resettle without 
        concern that their health will be affected by radiological 
        exposure if they (1) conducted a limited scrape of surface 
        soils in the village areas and (2) apply potassium fertilizer 
        to areas where food is growing. This mitigation technique, 
        referred to as the combined option, is the basis for the 
        resettlement program being implemented at Rongelap today. We 
        have recently entered into a Memorandum of Understanding with 
        the Rongelap leadership to provide radiological monitoring of 
        the ongoing resettlement activities.
        <bullet> The Bikini people could choose to resettle without 
        concern that their health will be affected by radiological 
        exposure if they, like the Rongelap, (1) scrape the village 
        areas and (2) apply potassium fertilizer to food growing areas.
        <bullet> The Enewetak people have been resettled on Enewetak 
        atoll since 1980. Bioassay and whole body counting results have 
        confirmed that radiation doses on Eniwetok Island, where 
        resettlement has occurred, are at or near world background 
        levels and present no health consequences to the population. If 
        the Enewetak people decide to resettle Enjebi Island, DOE 
        recommends using the combined option as at Rongelap and Bikini 
        atolls for mitigation.

Credibility of the Science

    Since the beginning of the LLNL program, the scientific resultant 
studies have undergone extensive independent scientific peer review.
    In the mid-1980s, Public Law 97-257 (House Report 90-450) directed 
that the Office of Territorial and International Affairs, U.S. 
Department of the Interior establish the Bikini Atoll Rehabilitation 
Committee (BARC). The BARC was to work with the Bikini people to 
determine the feasibility and estimated cost of cleanup of Bikini 
Atoll. An interim report was issued on November 23, 1983 which was 
followed by their March 31, 1986 report. Copies of both reports will be 
provided for the record.
        <bullet> From 1992-1994, DOE funded a study by the National 
        Research Council of the National Academy of Science to evaluate 
        the appropriateness of analytical techniques, ingestion and 
        inhalation models, and proposed remedial actions to support 
        resettlement of the Rongelap atoll. A copy of their report, 
        entitled Radiological Assessments for Resettlement of Rongelap 
        in the Republic of the Marshall Islands, is provided for the 
        record.
        <bullet> In 1994, the Rongelap local government asked a 
        distinguished international panel of experts (known as the 
        Scientific Management Team) to determine compliance with agreed 
        limits for total annual dose-rate on Rongelap Island and 
        actinide contamination of soils on Rongelap islands and 
        neighboring islands. Their report, entitled Summary of First 
        Phase, is provided for the record.
        <bullet> In response to U.S. Congressional hearings in 1989 and 
        1990, a committee of renowned scientists, chaired by Henry I. 
        Kohn, Ph.D., was convened to provide insight and 
        recommendations on potential resettlement of Rongelap atoll. 
        Data from LLNL's environmental monitoring program was reviewed 
        and became the basis for the committee's findings. A copy of 
        their report, entitled Rongelap Reassessment Project Report, is 
        provided for the record.
        <bullet> In 1995, the International Atomic Energy Agency (IAEA) 
        established an IAEA Advisory Group to provide independent 
        review of Bikini atoll environmental data generated by LLNL. 
        The Advisory Group, convened at the request of Bikini Senator 
        Henchi Balos, examined proposed actions to enable Bikini 
        resettlement. A copy of their report, entitled Radiological 
        Conditions at Bikini Atoll: Prospects for Resettlement, is 
        provided for the record.
        <bullet> Since 1995, Dr. Hertwig Paretzke, Director of the 
        Institute for Radiation Protection, Neuherberg, Germany, has 
        consulted with the Bikini people and Dr. Robison to help the 
        people of Bikini better understand the facts about residual 
        radioactivity in the environment and in the foods at Bikini. 
        They have explored numerous options that might best serve 
        resettlement of Bikini.
    I believe that Lawrence Livermore's work has provided timely, 
relevant, and credible environmental data. Environmental data from 
Lawrence Livermore's work, together with the independent environmental 
reviews made possible by trust funds provided through the Department of 
the Interior, provides a firm foundation from which the Republic of the 
Marshall Islands government and their people can make informed 
decisions about resettlement and land use.
    As DOE completes the bulk of the environmental sampling and 
agricultural studies over the next two years, we will continue to 
consult with the RMI and the local atoll governments. We will continue 
our record of being responsive to their questions, concerns, and needs, 
and hope to continue our part in answering scientific questions about 
radiological contamination in the Marshall Islands environment.

The DOE Marshall Islands Special Medical Care Program

    In addition to the environmental monitoring program, the Department 
funds a special medical care program in response to Congressional 
direction. This program provides treatment for radiogenic-related 
diseases for the group of people in the Rongelap and Utrik atolls who 
were exposed to fallout from the Castle BRAVO weapons test. Public Law 
99-239 defines the program as follows:

        . . . the President (either through an appropriate department 
        or agency of the United States or by contract with a United 
        States firm) shall continue to provide special medical care and 
        logistical support thereto to the remaining 174 members of the 
        population of Rongelap and Utrik who were exposed to radiation 
        resulting from the 1954 United States thermonuclear `BRAVO' 
        test, pursuant to Public Laws 95-134 and 96-205. Such medical 
        care and its accompanying logistical support shall total 
        $22,5000,000 over the first 11 years of the Compact.
    The program's primary objective is to provide
    Of the 253 individuals originally exposed to fallout from Castle 
BRAVO, 130 individuals remain. In addition, 109 individuals who were 
residents of the affected atolls but were not directly exposed to the 
BRAVO fallout (being elsewhere at the time of the test) are included in 
the program. Today, 239 people are covered by DOE's special medical 
care program.

Key Program Strategies

    Until June 1998 and for the previous 44 years, medical care has 
been provided to the Rongelap and Utrik beneficiaries of the program by 
a team of U.S. doctors led by Brookhaven National Laboratory (BNL). The 
BNL team visited the Marshall Islands semiannually for medical missions 
lasting four to six weeks. While beneficial, it provided only 
intermittent medical care to the mandated patients and had limited 
prospects of making sustained contributions to either their health or 
public health in general.
    Beginning in 1996, DOE, the RMI government, and the local 
governments of the Rongelap and Utrik atolls began a process to design 
a new medical care program that would be more responsive to the needs 
of the beneficiaries. Representatives from each group were involved at 
each critical juncture of the process, including the design of the new 
program, development of the Request for Applications, and review of the 
applications.
    This effort led to a new program, implemented in August 1998, that 
is run by the Pacific Health Research Institute (PHRI) in Honolulu. 
This multi-faceted program has a number of first year strategies and 
goals that include:

        <bullet> Providing preventative and innovative healthcare for 
        the mandated population to improve their health status,
        <bullet> Enhanced continuity in the delivery of healthcare;
        <bullet> Establishment of a community advisory process for the 
        program;
        <bullet> Delivery of healthcare in a culturally appropriate 
        manner;
        <bullet> Coordination with other health agencies in the RMI to 
        leverage assets and improve overall service
    PHRI clinics are located on Kwajalein Island and in Majuro. Local 
Marshallese physicians and nurse supervisory personnel can see patients 
daily. Complementing the Marshallese physicians and nurses are a number 
of U.S. trained physicians working with Straub Clinic and Hospital, 
Kaiser-Permanente, Wahiawa General Hospital, and the University of 
Hawaii John A. Burns School of Medicine. These individuals rotate 
through the clinics once a month for a two-week period, and assist the 
Marshallese physicians in providing both primary and specialty care to 
the mandated population. PHRI also uses senior family practice 
residents on monthly rotations from the University of Hawaii John A. 
Burns School of Medicine's Department of Family Practice and Community 
Health for additional support and assistance.
    Even though the new DOE/PHRI medical care program is still taking 
root, we feel that it strengthens our ability to carry out the 
Congressional mandate and holds great promise to build a Marshallese 
health care program with potential for long-term self reliance.

Public Involvement/Openness

    DOE has committed itself to be responsive to the questions, 
concerns, and needs of the Marshall Islands people. DOE has worked 
toward this goal by actively listening to the central and local 
governments and their communities, effectively giving them a voice in 
determining the future direction of the Marshall Islands program. DOE 
routinely publishes the results of its scientific environmental work in 
the public domain. DOE is also well underway in honoring its pledge to 
disclose all DOE controlled information and documents related to the 
nuclear weapons testing in the South Pacific previously unavailable to 
the public. Examples of DOE's actions in these regards follow:

        <bullet> DOE maintains a full time presence in Honolulu whose 
        express purpose is to provide day-to-day operations interface 
        with the RMI and local atoll government representatives in the 
        U.S. Embassy in Majuro, M.I.
        <bullet> Since 1990, DOE has engaged the local leadership and 
        community members from Bikini, Eniwetok, Rongelap and Utrik in 
        over 30 community meetings to discuss the results of scientific 
        reports as they were completed. During one such meeting, 
        community representatives expressed their confusion and 
        displeasure over DOE's historical use of the term ``exposed'' 
        when referring to persons other than the mandated population 
        served by the special medical care program. In consultation 
        with the concerned parties, DOE responded in November 1998 with 
        a letter clarifying its use of the term ``exposed'' as it 
        appears on section 103 (h) of the Compact of Free Association.
        <bullet> Since 1993, DOE has hosted an annual meeting between 
        the Department, the RMI central government, and government 
        representatives from Bikini, Eniwetok, Rongelap and Utrik to 
        discuss program strengths and weaknesses and needed corrective 
        actions. For example, at the 1994 annual meeting, the Eniwetok 
        local government requested assistance conducting a radiological 
        survey of Runit dome. DOE conducted the requested survey and 
        presented the results to the Eniwetok representatives. These 
        results were subsequently published in the July 1997 special 
        Marshall Islands edition of the Health Physics Journal.
        <bullet> In October 1998, DOE and representatives from the RMI 
        Government and the Bikini, Eniwetok, Rongelap and Utrik atolls, 
        agreed on an action plan to assist the four communities in 
        their current or future resettlement plans. Coming from that 
        meeting was the framework for the Rongelap/RMI/DOE 
        Environmental Monitoring Memorandum of Understanding, now 
        agreed to and being implemented by the parties to assist in 
        Rongelap resettlement activities.
        <bullet> To date, LLNL has published 37 scientifically peer-
        reviewed reports providing scientific information and 
        conclusions on the radiological environment at the Bikini, 
        Eniwetok, Rongelap and Utrik atolls. Each report was provided 
        to the RMI Government and to each of the affected atoll 
        communities. Copies are available for the record.
        <bullet> In 1997, DOE sponsored a special edition of the Health 
        Physics Journal, entitled Consequences of Nuclear Testing in 
        the Marshall Islands. This publication, a compendium of peer-
        reviewed articles by scientists from around the world who have 
        worked in the Marshall Islands, is the first comprehensive 
        collection of environmental and medical-related information 
        related to the Marshall Islands saga.
        <bullet> In 1996, DOE implemented an aggressive program to make 
        available, through the Department's website, more than 
        1,000,000 document pages concerning nuclear weapons testing in 
        the South Pacific. This electronic medium permits direct access 
        by the RMI and the public to this important information.
        <bullet> In 1997, DOE provided a two-year, $45,000 grant to the 
        RMI Embassy in Washington to enable Marshallese personnel to 
        access data electronically on the internet and to access and 
        use the DOE/Department of Defense Center for Coordination and 
        Information in Las Vegas, Nevada.
    Over the past five years, DOE has provided in hard copy to both the 
RMI Embassy in Washington, D.C. and through the American Embassy in 
Majuro to the RMI Minister of Foreign Affairs and Trade, 77 boxes of 
documents relating to the nuclear testing era.

Conclusions

    DOE believes that LLNL's work is providing timely, relevant, and 
credible environmental data. This information, together with the 
independent environmental reviews made possible by resettlement trust 
funds provided through the Department of the Interior and the 
Nationwide Radiologic Survey conducted independently by the Marshall 
Islands Nuclear Claims Tribunal, provides a firm foundation from which 
the Republic of the Marshall Islands government and their people can 
make informed decisions about resettlement and land use. As DOE 
completes the bulk of the environmental sampling and agricultural 
studies over the next two years, we will continue to consult with the 
RMI and the local atoll governments. We will continue to be responsive 
to their questions, concerns, and needs, and to maintain a presence in 
the Marshall Islands as long as we can contribute to addressing 
scientific questions about radiological contamination in the Marshall 
Islands environment.
    Similarly, DOE's new special medical care program begun last year 
is breathing renewed life into the healthcare system by providing 
preventative and innovative healthcare for the mandated population, 
enhancing healthcare delivery capability, involving the communities, 
and coordinating with other health agencies to leverage assets and 
improve overall healthcare service. Even though the new DOE/PHRI 
medical care program is still taking root, it has already shown that it 
holds great promise to build a Marshallese health care program with 
potential for long-term self reliance.
    DOE's Office of Environment, Safety and Health has administered the 
Marshall Islands Medical Program since 1990. Our office is unique 
within the Department because its staff includes experts in radiation 
safety and public health. We have worked hard to carry out a successful 
and responsive Marshall slands environmental and medical care program 
while balancing our concerns for program efficiency and effectiveness.
    Mr. Chairman, I thank you for this opportunity to share the current 
status and progress of our environmental and medical care programs in 
the Marshall Islands. I would be pleased to answer any questions.

    Mr. Young. I want to thank the panel. Mr. Boyce, you 
stated, or indicated, the State Department will establish an 
office for the special negotiator. When will that begin, and 
how long do you expect that to be in existence, and where it 
will be housed?
    Mr. Boyce. We will have it up and open on June 7, Mr. 
Chairman. As I mentioned, my colleague, Al Stayman, will be the 
special negotiator to be heading up that shop. We expect that 
we will have ten professional staff drawn from the interagency 
working group, and the offices will be physically in the 
Department of State.
    And as far as how long we expect the office to be up, that 
really is going to depend on how the renegotiation goes; but 
with Al at the helm, I anticipate that should be a speedy and 
efficient process.
    Mr. Young. Talking about negotiations, isn't that going to 
put an imposition upon the Marshallese as far as distances, or 
are they going to have to--how is that going to be handled?
    The gentleman from the Defense Department talked about the 
new air traffic. Is that going to take care of that problem? We 
are trying to negotiate from a position period of the State 
Department. I guess, in the first place, I can't quite figure 
out what we are negotiating yet and what position the 
administration will have in this whole program.
    It is going to be an awful big imposition, I think, for the 
people and the government of the Marshall Islands to be flying 
back and forth to Washington, DC. Or will there be a head-
hunter doing the work for them?
    Mr. Stayman. Mr. Chairman, as a matter of fact, we also had 
some informal discussions. We weren't really anticipating a lot 
of meetings in DC or in the Marshall Islands. Perhaps we 
could--Hawaii or the West Coast where it would be mutually 
convenient and inconvenient and share that burden.
    Mr. Young. Okay. Doctor, on the health end of it, other 
than the nuclear, are you studying other aspects of the health 
challenges and the results of some of our relocation and diets 
that have occurred in the Marshall Islands?
    Dr. Seligman. No, we have not.
    Mr. Young. Are there other agencies within our government 
helping the Marshallese in this endeavor?
    Dr. Seligman. Mr. Stayman, do you know the answer to that 
question?
    Mr. Stayman. Not to my knowledge.
    Mr. Young. Does anybody else want to address that issue? 
There are some health problems that have occurred especially, I 
believe, on Enewetak and other areas because of the change in 
diets. Is that a correct statement?
    Mr. Stayman. Yes. I could make a brief comment. One of the 
things that we are seeing in the expansion of the radiological 
health care programs, we believe, is a reaction to the 
generally poor health care available to the general public; 
that there is certainly political pressure and pressure 
personally to get enrolled in these medical programs. In fact, 
there are general public health problems mainly associated with 
diet.
    Mr. Young. I have been out there twice now. I think the 
thing that sort of bothers me the most is the relocation and 
the imposition upon these people was the result of our testing 
64 times nuclear capability.
    Now, a change in the wind was something that was 
unforeseen. Like bombing the Chinese embassy, we used old maps. 
I had to bring that up. But I want the administration and the 
State Department and everybody involved, because this is a 
crucial area, to understand that the problems this small group 
of people are faced with were basically created by ourselves.
    The relocation itself--and now we are talking about they 
can go back and live on the island safely, et cetera, et 
cetera. But unless we help provide things that they have become 
used to, they are not going to relocate. That is something that 
is a natural thing.
    Electricity is crucially important. The ability to have TV 
is crucially important. Things that people become used to are 
just not going to pick up and go back as we think they ought to 
go back to the way they were prior to the testing. I think that 
is part of our responsibility.
    We started this mess under the guise of defending 
ourselves, and I think that we have the responsibility to do 
everything possible to make sure that we encourage, through 
additional attractive medical care, electricity capabilities 
and those type things. Otherwise you are going to have the same 
problem they are faced with right now.
    Mr. Boyce? I see you nodding your head.
    Mr. Boyce. I concur. In fact, I think that you asked 
earlier that you were not quite sure what we were going to be 
negotiating or renegotiating. I think the original intent of 
the compact was not just to provide for the defense of the 
islands and keep the status quo going on forever.
    It was also to provide a substantial transfer of resources 
to provide for the economic development and hopefully the self-
sufficiency of the islands. As we go into the renegotiation, 
obviously we are going to be taking a good close look at the $3 
billion that has been spent over the 12 years so far, how much 
of that was spent intelligently and how much needs to be 
redirected.
    Some of the comments you made about providing the kind of 
infrastructure and facilities that will be conducive to going 
back will be considerations in all of this as well. I very much 
take your point.
    Mr. Young. My time is up. Mr. Miller.
    Dr. Seligman. I just wanted to make a comment, Mr. 
Chairman. I agree with you, Mr. Chairman. I believe strongly 
that the public health and medical problems and needs of the 
Marshall Islands go well beyond those that my office has 
focussed on in a fairly limited fashion which are those related 
to radiologic exposure.
    I think you are right on the mark. There are bigger public 
health and medical needs and problems that should be and need 
to be focussed on in the Marshall Islands that we have not, to 
date, focussed on.
    Mr. Young. Thank you, Doctor. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I might just follow up 
on that point. I was going to start the other way--let me 
follow up on that point. Dr. Seligman, you state really without 
qualification on page 2 of your statement that resettlement or 
choosing to live on these various atolls can be accomplished 
without concern for their health.
    I don't want to put words in your mouth, but that is 
essentially what you are saying there. You go on to say that 
you are--I don't want to use the word comfortable, but with the 
peer review that these studies--the conclusion of these studies 
have drawn and the peer review of those studies. Is that 
accurate?
    Dr. Seligman. That is correct. Without concern that their 
health will be adversely impacted by radiologic exposure.
    Mr. Miller. From time to time I believe it's been raised 
with us, I know; but I don't know if it has been raised with 
you. There was some concern, I think people had a lot of 
confidence in Dr. Robison and the people of Lawrence Lab.
    In the collection of data, there was some question of 
whether or not the people of the Marshall Islands and leaders 
and others were comfortable with the analysis of that. But that 
has all been--they may raise that point when they come up. Do 
you know if that is a controversy still? Is that still an area 
of concern?
    Dr. Seligman. The environmental data have been peer-
reviewed by the International Atomic Energy Agency, the 
National Academy of Sciences and others. To my way of looking 
at it, I think the data are credible, that there is----
    Mr. Miller. Let me ask you this. That is what your 
statement says. But whatever controversy there has been over 
the analysis of that data, has that been put to rest or does 
that continue, from what you know?
    Dr. Seligman. To be honest, I am not sure what the 
controversy is regarding the analysis of the data.
    Mr. Miller. Let me ask you--and maybe the other panel can 
raise the issue--but let me ask you in the context. As far as 
your testimony is concerned, all of the analysis has been 
subjected, on which you base these conclusions, has been 
subjected to what you consider high-quality critical peer 
review. Is that accurate?
    Dr. Seligman. That is correct.
    Mr. Miller. I think the other panelists may raise some 
questions about that. One last point. There was some suggestion 
that they wanted yet another independent analysis of this data. 
Where would you go that would be different than where it has 
been subjected to peer review? How would that be accomplished 
if that was to come about?
    Dr. Seligman. I think there are numerous experts nationally 
and internationally that the Marshallese could turn to to get 
advice. I think you will have people on subsequent panels that 
they have already turned to to get such advice. I think that 
is----
    Mr. Miller. Okay. All right. Now, having gone through a 
base closure, you are now sensitive to the idea of what is 
clean. The people paying for it think one threshold and the 
people getting it are thinking of another threshold generating 
these base closures.
    Are we using the same standards in terms of cleanup of this 
facility as we are for nuclear weapons development sites? Is 
this a different standard out there, or is this the same 
standard that we would use in the United States?
    Dr. Seligman. There are, as I am sure that you are aware, 
multiple standards out there. There is an EPA standard; there 
is an NRC standard; there is a standard that we have used 
previously, the IAEA. Our role, essentially, is to conduct the 
environmental sampling and monitoring, to provide those data to 
the Marshallese, and to let them make a determination as to 
what standard they would like to use in making decisions----
    Mr. Miller. Is that being done in compliance with the EPA 
standard or the DOE's?
    Dr. Seligman. The Department of Energy doesn't have a 
standard. There are other agencies that have standards.
    Mr. Miller. We are learning about a lot of the activities, 
but we will let that go, too.
    Dr. Seligman. Sure. Are you implying that the Department of 
Energy should have----
    Mr. Miller. I want to know when we talk, when we collect 
the data and we do the analysis, are we comparing or subjecting 
the environment of the Marshallese to the same standard that we 
would expect our constituents in the continental United States 
to be subjected to?
    Dr. Seligman. Again, my office doesn't subject the data to 
a particular standard. We simply describe----
    Mr. Miller. Would one of the other panelists tell us? If we 
decided the people in my congressional district have to live 
within EPA standard or DOE standards, have we made that same 
determination about the people in the Marshall Islands?
    Mr. Young. Nobody is saying.
    Dr. Seligman. I think the Marshallese are fair to use 
whatever standard they wish.
    Mr. Miller. No. It is not about what standards they use. It 
is about when you draw the conclusion, and you are taking 
Rongelap and Bikini and Enewetak and elsewhere; and you draw 
these conclusions--I'm asking you based upon what standard was 
used as to what is clean and what is healthy environment--is it 
the same standard that would be used for my constituents or is 
it a different standard? It is not what the Marshallese chose. 
You are giving them advice based upon Dr. Robison's work; is 
that not correct?
    Dr. Seligman. Based upon what we know of the health impacts 
of radiologic contamination, that is correct.
    Mr. Miller. So now I am only asking is what you know based 
upon this--is this based upon standards that we as Members of 
Congress would expect if we were under an EPA cleanup or DOE 
cleanup? Are they the same?
    Dr. Seligman. Or an NIC cleanup? IAEA? I'm not exactly sure 
which standard you are applying.
    Mr. Miller. You know exactly what I'm saying. I am asking 
you whether or not those standards are the same when they are 
used in the cleanup in congressional districts in the States. 
If we use the standards of IAEA or if we use the standards of 
DOE or if we use the standards of the NRC, are those the same 
standards that are being used there? Is it simple now?
    Dr. Seligman. The same standards upon which I used to 
evaluate our data, yes.
    Mr. Miller. They are the same. That is what I have been 
asking you for 5 minutes. Are they parallel standards and are 
they the same? The suggestion has been that, in fact, they are 
not. The higher dosages have been accepted, the higher 
millirems of residual have been accepted than the standards 
that we would use in a similar situation in the United States. 
That is not accurate?
    Dr. Seligman. Of course not.
    Mr. Miller. Okay. Thank you.
    Mr. Young. The gentleman from California, Mr. Doolittle. 
You don't have to ask any questions if you don't want to.
    Mr. Doolittle. I will pass.
    Mr. Young. The gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. Chairman, I 
ask for unanimous consent that my statement be made part of the 
record.
    Mr. Young. Without objection so ordered. That is automatic 
for everybody, so your statements are made----

 STATEMENT OF HON. ENI F.H. FALEOMAVAEGA, A REPRESENTATIVE IN 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, I also want to commend you 
for taking a bipartisan congressional delegation recently to 
visit the Republic of the Marshall Islands. I think it was a 
very important lesson for the Members of this Committee to see 
firsthand what we have been trying to deliberate upon and, 
hopefully, to provide some kind of resolution for this very 
serious problem affecting the health needs of the people of the 
Marshall Islands.
    I want to thank Mr. Boyce for his statement, certainly 
members of the panel, and wish to convey my best regards to 
Assistant Secretary Stanley Roth and Secretary Boyce for moving 
ahead with the negotiations of the Marshall Islands and I'm 
very pleased that our good friend, Mr. Stayman, has now taken 
the helm of this important matter to discuss and to negotiate 
with the Marshall Islands and the compact.
    [The prepared statement of Mr. Faleomavaega follows:]

 Statement of Hon. Eni F.H. Faleomavaega, a Delegate in Congress from 
                    the Territory of American Samoa

    Thank you very much for calling this hearing to review the 
longterm effects of America's nuclear testing legacy on our 
close friends and longtime allies, the good people of the 
Republic of the Marshall Islands. Our great Nations owes an 
immense debt to the Marshallese people for their tremendous 
sacrifices that directly contributed to, and continues to 
contribute to, America's nuclear deterrent and ballistic 
missile defense.
    Today, Mr. Chairman, under your guidance, we examine the 
status of the nuclear claims by our Marshallese friends, and 
the uprooting, relocation and resettlement of their families 
and villages between the atolls and islands of the Republic of 
the Marshall Islands.
    In support of these crucial efforts, Mr. Chairman, I thank 
you deeply for recently leading a Congressional Delegation to 
see first-hand the unresolved problems caused by America's 
nuclear weapons testing program conducted over many years in 
the Marshall Islands.
    For those of us who have been working on this issue for 
quite some time, we know the seriousness and extent of the 
problems, but there just has never been enough attention 
brought to the problem to get it adequately addressed.
    Mr. Chairman, the actions of the United States Government 
have caused the people of the Republic of the Marshall Islands 
immense harm which continues to this day. With tens of 
atmospheric tests of atomic and thermo-nuclear weapons, we have 
made uninhabitable due to nuclear radiation much of these 
people's homelands. We have disrupted their lives by removing 
them from their homelands and in some cases they have yet to 
return out of fear for their physical safety should they 
return.
    With the recent declassification by the Department of 
Energy of previously classified documents, we now know that the 
U.S. Government hasn't always been candid and forthright with 
the people of the Marshall Islands. Because of what some would 
consider callous disregard, and perhaps duplicity, for the 
well-being of the residents of the Marshall Islands, they no 
longer trust our government to do the right thing by them. 
After a preliminary review of the facts, I can understand why 
our Marshallese friends feel this way.
    Throughout this time, the United States Congress has 
provided the Marshalles people their only hope for a just 
settlement, and they are again looking to the Congress to 
provide proper oversight of the efforts within the Departments 
of the Interior, Energy and State to make their homelands safe, 
allowing them to return to their native lands.
    Mr. Chairman, this whole process has taken much too long 
and in this time of expected U.S. budget surpluses from which 
the House of Representatives has ad hoc allocated $12.9 billion 
dollars for Kosovo and defense concerns--we really have no 
excuse for not addressing these serious problems which we have 
caused with the good people of the Marshall Islands.

    Mr. Faleomavaega. I want to ask Dr. Seligman as a follow-up 
of what the gentleman from California was trying to raise here. 
Dr. Seligman, am I pronouncing your name correctly? I have the 
same problem with my name.
    Dr. Seligman. Seligman. Thank you.
    Mr. Faleomavaega. If I were exposed--if I know for a fact 
that I was exposed seriously to nuclear contamination, let us 
say even to this day, and I want the best doctors and the best 
hospital in the world to take care of me, where would I go? For 
a full examination, high tech, the best experts that I could 
find in the world to make sure that they know what the hell 
they are talking about as far as my health is concerned if I 
have been exposed to nuclear contamination.
    Dr. Seligman. I don't think in my mind there is one place 
that I would necessarily have you go to. I think there are many 
centers and many experts within the United States that would 
satisfy that.
    Mr. Faleomavaega. I am leading up to that question, Dr. 
Seligman. You mentioned that Dr. Robison is currently 
conducting a comprehensive environmental and agricultural 
sampling, soils and all of that. His report will not be 
available--within two years maybe it will be completed?
    Dr. Seligman. Our work at Bikini will be completed in two 
years.
    Mr. Faleomavaega. My question, Dr. Seligman, is we are 
doing so much about the substance of the soils, the environment 
of the islands, but what are we doing with the people? Are you 
aware of the fact, sir, that the people in Utirik are the most 
contaminated people that were exposed to a nuclear testing as a 
result of the series of the Castle detonations that we did in 
the 1950s?
    Dr. Seligman. I don't believe that to be correct, sir.
    Mr. Faleomavaega. Then correct me.
    Dr. Seligman. I don't think they were the most heavily 
exposed. I think the people who were closer in Rongelap were 
more heavily exposed than those in Utirik.
    Mr. Faleomavaega. How far is Utirik from Rongelap?
    Dr. Seligman. I would have to rely on some other experts, 
but I believe it is two to three hundred miles.
    Mr. Faleomavaega. How far is Utirik from the nuclear 
testing of the BRAVO test that was conducted in 1954?
    Dr. Seligman. Again, I believe it is a similar distance.
    Mr. Faleomavaega. Were you aware of the fact that after the 
nuclear testing the people of Utirik were taken back again to 
their islands to live there as a difference to the fact that 
the people of Rongelap were taken off of their islands when 
this BRAVO test had taken place?
    Dr. Seligman. I am not particularly familiar with that 
information, no.
    Mr. Faleomavaega. I would like to ask, Dr. Seligman, what 
is the Department of Energy doing in finding some way to 
comprehensively examine the health needs of these, people 
especially those that have been exposed to the testing since 
the 1950s?
    Dr. Seligman. We do have a Marshall Islands medical program 
that has been in existence since 1954 that does provide medical 
care and examinations for those who were exposed to Rongelap 
and Utirik. That program is still ongoing.
    Mr. Faleomavaega. Sir, that doesn't help me, Dr. Seligman. 
I am very, very concerned that we have been doing a lot of 
flip-flops about providing the best medical health care needs 
for these people.
    That is the reason why I asked in my previous question, my 
first question, if I were to take 600 people exposed to nuclear 
testing, as a result of our nuclear testing program, where can 
I go to take these people to be fully examined to see if they 
don't have thyroid cancer, leukemia, and all of these other 
after effects that has happened to these people since we bombed 
these islands in the 19950s? Where would I go today to get more 
conclusive evidence as to their status? Don't you think that 
maybe the Japanese might have better medical care for people 
who have been exposed to nuclear testings?
    Dr. Seligman. You are asking me about the Japanese medical 
care system? I am not in a position to reply to that.
    Mr. Faleomavaega. Mr. Chairman, my time is up. I am sorry I 
will have to pass for the next round.
    Mr. Young. All right. Mr. Udall. I take that back. Mr. 
Gibbons.
    Mr. Gibbons. No questions.
    Mr. Young. Mr. Udall. Either one.
    Mr. Tom Udall. I would like to yield to the gentleman.
    Mr. Faleomavaega. Thank you very much. I thank the 
gentleman for yielding.
    Dr. Seligman, we are just trying to be helpful. If I could 
ask all of the members of the panel, would you agree as a 
consensus that now due to recently exposed evidence of facts 
and materials that have been declassified from the Department 
of Energy that there were more people in the Marshalls that 
were exposed to nuclear contamination than were thought of 
maybe since the 1950s?
    Would you agree that due to the evidence that has now been 
declassified that more people in the Marshalls have been 
exposed to nuclear contamination than were thought of as there 
was before in the 1950s?
    Mr. Stayman. What the new information allows us to do is to 
quantify better the level of contamination. It is fair to say 
that we have a better idea statistically of what the exact 
amounts of radiation were. I believe that is a fair statement.
    Dr. Seligman. I don't think there is any question in terms 
of the number of people that were exposed. Not only were the 
people of the Marshallese exposed, but the fallout from the 
atmospheric testing went worldwide. I would agree with Mr. 
Stayman. It has nothing to do with the numbers of individuals, 
but actually the quantity of exposure.
    Mr. Faleomavaega. It has nothing to do with the number of 
individuals as it is to the quantity of exposure?
    Dr. Seligman. Right. The number of individuals who were 
exposed back then is the same then that we are aware now.
    Mr. Faleomavaega. There were 150 people in Utirik atoll 
that were brought back to their island after the BRAVO test. 
Utirik atoll is approximately the same distance, 100 miles, as 
was Rongelap.
    For the benefit of my colleagues, the BRAVO test was the 
first thermonuclear hydrogen bomb that our country exploded in 
the Marshalls for which hours before our officials knew that 
the winds had shifted.
    And before doing so, we went ahead and exploded this 
hydrogen bomb which is 15 megatons, 1,000 times more powerful 
than the nuclear bombs we dropped in Hiroshima and Nagasaki, 
just to give the benefit of my friends here the extent of how 
serious this problem was.
    And it wasn't just a BRAVO test. It was also the Yankee 
test, others, well over 10,000 megatons. So my question here is 
150 people were brought back to their atoll; they have lived 
there. Now, there are about 500 or 600 of them. My question is 
what is our government doing to provide the best medical 
attention to these people?
    I'm simply asking, Dr. Seligman, do we have a process that 
if I were exposed to nuclear contamination can I go to Tripler? 
Can I go to Stanford? Where do I go to get me the best medical 
knowledge of what is happening to me due to nuclear 
contamination?
    Mr. Stayman. Let me just interrupt a second because I think 
there is a misunderstanding which we need to clarify. Rongelap 
and Utrik are down wind of Bikini, where BRAVO occurred. Utrik 
is about twice as far. I just want to make sure there is an 
understanding there.
    Dr. Seligman. I would be happy to get that information for 
you as to where you could go to get the best possible care. I 
am proud of the program that we have provided for the 
Marshallese in terms of medical monitoring for those that were 
included in that group of citizens from Rongelap and Utirik who 
were exposed most heavily to fallout from Castle BRAVO. We 
changed medical contractors in 1998. We have a new program in 
place.
    Mr. Faleomavaega. Dr. Seligman, if I may, my time--I am 
sorry, but we had a hearing in 1994. There were disagreements 
even among the scientists who were contracted to go there and 
conduct these soil samples as it was in terms of the exposure 
that these people were subjected to. You are telling me that 
you are satisfied with the way that we have been doing these 
examinations?
    Dr. Seligman. The soil samples, yes. I am satisfied.
    Mr. Faleomavaega. What about the examinations of the 
people?
    Dr. Seligman. For our program, yes, I have been satisfied.
    Mr. Stayman. If I could also jump in here, again, Mr. 
Congressman. There may be a bit of confusion about who the 
eligible people are for which program. Dr. Seligman is talking 
about the DOE program, which treats those who were directly 
exposed, not people who moved back.
    As you point out under the terms of the Compact, there was 
a program specifically extended, known as the so-called Four-
Atoll Program. The Compact provides $2 million a year for that 
program.
    Just as a point of clarification. I think that everyone 
would agree--and you raise very good point--it is not 
considered to be a very high-quality program, in part, because 
of the inflation of the enrollment. But clearly it is woefully 
underfunded to meet the need that you pointed out. That is 
certainly one of the things that we are going to have to look 
at very closely in the renegotiation.
    Mr. Faleomavaega. Mr. Stayman, would you look at the 
Department of Energy also as a resource that could be helpful 
to resolve this problem, other than just doing soil samplings 
and testings of the environment?
    Mr. Stayman. Yes.
    Mr. Faleomavaega. I would appreciate if the DOE could also 
be helpful in finding out the status of the health conditions 
of these people who were exposed to the contamination.
    Mr. Young. I thank the gentleman. The gentleman from Guam.

 STATEMENT OF HON. ROBERT A UNDERWOOD, A DELEGATE IN CONGRESS 
                           FROM GUAM

    Mr. Underwood. Thank you, Mr. Chairman. I too want to thank 
you for holding this hearing. I guess we are at some level of 
discomfort, at least I am, in terms of the responses by the 
Department of Energy on this very serious issue.
    One is I want to characterize and hopefully people 
understand that it seems to me that the Department of Energy is 
concerned about the level of responsibility and the 
programmatic responsibility and liability; and the people of 
the Marshalls, of course, are being asked to accept at face 
value some of the statements that are being made and not 
necessarily concerned about the programmatic liability, but are 
actually concerned about their lives.
    When you make that kind of a comparison, it lends to a 
great deal of discomfort and uneasiness and anxiety. What we 
have here is I would consider a real crisis in terms of how 
much confidence there is in some of the statements that are 
coming out of the Department of Energy.
    It seems to me the way to resolve that is to in some 
instances to call for more independent assessment or to have 
some independent assessment going into it. Now, I have talked 
to a lot of people, in particular the people that Mr. 
Faleomavaega were referring to in terms of some of the people 
of Utirik, some who were not directly exposed to it at the time 
of the blast but have been living there ever since.
    It seems to me that they have--that they should come under 
the same kind of program as those that were directly exposed to 
the blast, inasmuch as the people who were not evacuated to the 
same extent that the others were.
    I think what Mr. Miller was trying to get at was the issue 
of the standards is that at that time in the 50s in Utirik we 
are talking about 24,000 millirems of exposure to 
radioactivity. In the 1990s we are still talking about 18. I 
think the EPA standard is 15 millirems.
    We are trying--I am trying to understand what exactly is 
the standard you are using, and is there any objection from the 
Department of Energy to independent risk assessment for the 
people of these four affected atolls in terms of their health?
    [The information follows:]
    Dr. Seligman. We would encourage that assessment.
    Mr. Underwood. And you will be willing to participate in 
that independent risk----
    Dr. Seligman. I don't know how we would participate in an 
independent one, other than opening up our files and making 
sure that all of the data that we have are available for anyone 
to look at at any time.
    Mr. Underwood. I get a different story sometimes from 
representatives of the Marshalls. I get the feeling that there 
has not been full disclosure by the Department regarding 
radiation exposure.
    Dr. Seligman. We have provided 77 boxes, millions of pages 
of materials to the Marshallese. If there are still materials 
that have not been made available or still classified, we would 
like to know about them and we will work to see that they are 
declassified.
    Mr. Underwood. So this is a full commitment of the 
Department of Energy to open up their files for this purpose?
    Dr. Seligman. Absolutely.
    Mr. Underwood. On the issue, Dr. Campbell, I know that this 
is not directly pertinent to the work here, but you mentioned 
the role of Kwajalein in the renegotiations of the compact. And 
by the way, I want to congratulate Mr. Stayman for having that 
position. I expect that the negotiations, even though I have 
the fullest confidence in Mr. Stayman, I think they will go the 
full term of the expectation.
    Could you characterize for the Committee how important 
Kwajalein is?
    Dr. Campbell. Congressman, you and I have discussed this on 
several occasions in the past, and I just want to underscore 
again, 2 years ago we did a full assessment of the full uses of 
Kwajalein in all aspects of our space program, our satellite 
program. And now, most importantly, as we go into intensive R&D 
on both TMD systems and potentially in the future on BMD 
systems, I have got to say that we view these facilities as 
absolutely critical.
    And in our ongoing activities on the island, I must say 
that we have had to, on short notice, request additional space, 
additional area for activities commensurate or associated with 
this testing and other procedures, and we have had extremely 
responsive comeback from Kwajalein on all aspects of our 
testing and our programs.
    So I would stand by our earlier statements and perhaps even 
add to them as an indication about how important we think this 
is, not only for the current programs but for the future as 
well. Our department stands fully by our desire for maintaining 
the fullest possible defense relationship.
    Mr. Underwood. You would character this as a matter of 
vital national defense, that we continue to have access?
    Dr. Campbell. That is why I am here today. I know this is 
on a variety of other issues. This is a testament to our 
department's very strong goal of reaching a satisfactory 
conclusion that meets our interests and also the interests of 
the islanders, and I hope you are wrong. I hope that the 
political deliberations will be intense but short, because I 
think it is in the interests of both----
    Mr. Underwood. Well, maybe it is in his capacity of 
negotiating with the FSM that I am referring to.
    Mr. Young. Gentlemen, I am going to recognize the gentleman 
from America Samoa for about half a minute. Then I am going to 
recognize Mr. Doolittle and then Mr. Miller again.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I just want it clear for the record, I have here excerpts 
taken from a January 13-14, 1956, meeting of the U.S. Atomic 
Energy Commission Advisory Committee on Biology and Medicine, 
quotes taken regarding Utirik Atoll. Utirik is by far the most 
contaminated place in the world. Utirik is a very intriguing 
place that can be made--a study can be made for the people, 
studies to get a measure of the human uptake when people live 
in a contaminated environment.
    Quote, while it is true these people, the Utirik people, do 
not live, I would say, the way Westerners do, civilized people, 
it is nevertheless also true that these people are more like us 
than the mice, end of quote. People in Utirik were exposed to 
24,000 millirems when the Bravo test was taken in 1954. The 
Environmental Protection Agency standard regulates a maximum 
limit of 15 millirems per year as a maximum dose limit for 
human beings.
    Thank you, Mr. Chairman.
    The gentleman from California, Mr. Doolittle.
    Mr. Doolittle. Thank you, Mr. Chairman.
    Dr. Seligman, or actually maybe it is Mr. Boyce that I 
would wish to address this question to first: The issue of the 
compact renegotiations, that will commence in earnest this 
fall; is that right?
    Mr. Boyce. Yes, sir.
    Mr. Doolittle. And could you describe the process of the 
compact renegotiations? I mean, that extends over a certain 
number of months, I guess, and is expected to be completed by 
what time?
    Mr. Boyce. The scheduled duration is 2 years, Congressman, 
and as Al Stayman here to my left who will be the special 
negotiator has indicated, we will try to do it in a way that 
minimizes the enormous travel requirements and, you know, 
budgetary resources on both sides. So we are trying to meet 
halfway as much as possible and, of course, working in the FSM 
or in the FAS states and in Washington as well.
    Mr. Doolittle. So the FAS, their compact is going to be up 
at the same time; is that right?
    Mr. Boyce. There are actually two separate compacts as a 
part of this. Maybe I could ask Al to answer it specifically.
    Mr. Doolittle. Okay.
    Mr. Stayman. Congressman, there was one Compact, the 
Compact of Free Association, which was nested in the Compact 
Act, which Congress passed with a number of additions. That 
covers both the Republic of the Marshall Islands and the 
Federated States of Micronesia. Many of the provisions are due 
to expire at the end of the 15th year. The renegotiations will 
be focused only on those due to expire. We will begin in the 
13th year. If we are not finished by the 15th year, there is an 
automatic 2-year extension if negotiations are ongoing.
    Mr. Doolittle. And you are the chief negotiator for both of 
those?
    Mr. Stayman. Yes, I have been elected for that position, 
and won't begin for several weeks.
    Mr. Doolittle. Okay. Could you tell us what issues you 
intend to include in the compact negotiations?
    Mr. Stayman. Well, you have put me in a very awkward 
position. I not only don't have the job, I don't have 
negotiating instructions. But I think just from discussions 
today, health care certainly has to be a primary issue of 
concern, certainly to the people of the FAS. And I imagine the 
Committee, too, would share my concern about making sure that 
the level of health care, particularly in the Marshall Islands, 
where there is the nuclear legacy, is substantially improved.
    Mr. Doolittle. Will these negotiations include additional 
money beyond the initial $150 million for the settlement of the 
nuclear-related claims?
    Mr. Stayman. As far as money in connection with nuclear 
claims settlement, the procedure set forth in the Compact is 
the so-called changed circumstances provisions of Article 9 of 
the 177 Subsidiary Agreement. We expect the Marshall Islands 
will be submitting a petition for further compensation under 
those provisions. So at this time we expect, because the 
procedures laid forth in the law are different, that specific 
compensation for nuclear claims would be handled, you know, 
through the Article 9 changed circumstances petition.
    I would just note, however, that there is a generic blanket 
authorization for Congress to provide additional money at any 
time, section 105(c) of the Compact, and it has been exercised 
from time to time by Congress.
    Mr. Doolittle. It was my privilege to visit the Marshall 
Islands with the congressional delegation that went there a few 
months ago, and that has never been exactly clear to me, how 
they--once the people of Bikini were sent back, went there to 
live, and then they sent them away again after they reversed 
their position that had previously been determined that it was 
safe to live there. And I guess they are now asking for, which 
is reasonable in light of their history, I think, for some sort 
of a guarantee from the administration that it is safe for the 
people to resettle there. Could you tell us what the 
administration's position might be on that?
    Mr. Stayman. Yes. In fact, the leadership of Bikini met 
with the Secretary of the Interior several months ago asking 
for such a guarantee. The Secretary's response was really two 
part. The first is that, in light of the mistake, if we can 
call it that, in the earlier resettlement--that is, the U.S. 
Government said it was safe to go back, they went back, data 
showed that because of their consumption of local food, their 
dose was going above what had been predicted and they had to be 
moved off--when Congress did the Compact, there was a great 
awareness of the problem in having the islanders rely upon 
assurances from the Federal Government.
    That is why the resettlement agreements, if you look at the 
legislative history there, empower the locals to hire their own 
experts and exercise their own judgment with respect to going 
back, and that doesn't mean that the U.S. is not going to be 
there. The Department of Energy has an aggressive program in 
monitoring.
    It is really more a question of are we going to be a 
partner in this process or are we going to be directing this 
process. Our concern was that having the U.S. direct 
resettlement had not been a successful policy and that this 
policy of partnership, which is now working, I think, much 
better, or certainly it is working very well in the case of 
Rongelap, and Bikini not far behind.
    A second point that the Secretary made was that you really 
couldn't say very much about resettlement until the remediation 
recommendations had actually taken place. Now, what is 
happening in Rongelap is they have signed a contract, and they 
are implementing these remediation recommendations that, you 
know, DOE, the International Atomic Energy Agency, and their 
own experts all agree on. So, when they complete that process 
and are able to verify that scientifically, then it is time, I 
think, for individuals to make a decision as to whether or not 
they are reassured personally enough to go home.
    Mr. Young. Mr. Stayman, I love your dissertation, but that 
is enough right now.
    Mr. Stayman. Okay.
    Mr. Young. Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. Many of my 
questions have been answered, but I was champing at the bit on 
the health issues. So I just wanted to sort of make a comment, 
and maybe I can get a response if you feel one is indicated.
    But I am concerned about the scope of the health care that 
is provided, and we heard some comments like criteria may be 
manipulated or that the people who are covered, the numbers 
have been inflated, and maybe some doubt about what changed 
circumstances could be brought to bear on the negotiations. And 
I realize that the Department of Energy has provided care for 
those who are directly exposed in this funding, although not 
enough for those who have been relocated.
    But as a family physician for more than 20 years, I cannot 
discount what Congressman Underwood talked about in terms of 
the anxiety and the effects that that has on the health of the 
people of the Marshall Islands, and it extends beyond those who 
were exposed or the families of those who were--the progeny of 
those who were exposed. That has a terrific effect on a broad 
number of health issues.
    And in addition to that, there was some discussion prior on 
the loss of the vegetation and the normal and traditional diet, 
and there have been many studies that have demonstrated how 
that affects the health of people adversely and produces many 
chronic illnesses.
    So when we talk about providing health care and as we look 
to negotiating a new compact, we can't draw a line with those 
who were directly affected or those who are related to those 
affected because it is really far-reaching. And since it sounds 
as though we knew that the wind had shifted, that there might 
have been time to not have that nuclear testing take place, we 
have a serious responsibility here. And it sounds like all of 
the health care needs of the people, you know, may be related 
to this event because it sets off a series of health events, 
and it is very difficult to distinguish where it ends.
    Mr. Stayman. I think you raised an excellent point, 
Congresswoman. The Compact structured health care in a way that 
there are essentially three layers of programs, and what we are 
seeing is certainly a desire by people to get themselves into a 
more sophisticated program. We have to go back in the context 
of renegotiation and look very carefully at these concerns you 
talk about, the health concerns of changes in diet and also the 
need to reassure people and deal with the anxiety caused by 
living in an environment in which there has been testing.
    Mrs. Christensen. Thank you, Mr. Chairman.
    Mr. Young. All right. I thank the lady.
    Mr. Miller, you had a couple more questions.
    Mr. Miller. Just to follow up. Let me state, and I just 
want to put this on the record at this time because I may not 
be here when they testify, but the testimony of John Mauro is 
that the criteria used in resettlement, the criteria differ 
markedly from the cleanup criteria of 170 millirems for the 
average individual cited by Lawrence Livermore Lab:

          ``The results of our analyses revealed that if the 
        Marshall Islands were a State in the United States, 
        resettlement of the northern island of Enewetak Atoll 
        would not be permitted under EPA criteria without 
        extensive remediation and/or institutional controls.''
    And I just put that in the record because apparently that 
is where this concern has been raised about the analysis of the 
data, and I want to raise that point here so hopefully the 
other panels can respond to it.
    I also want to--you mentioned in response to Mr.--I think 
to Mr. Faleomavaega, that if the Marshallese knew about 
additional classified documents you would be happy to know 
about it. The burden is not on them. The burden is whether the 
department knows about additional classified--have all the 
documents been declassified and disseminated?
    Mr. Seligman. I doubt that all of the documents have been 
declassified. No, they have not.
    Mr. Miller. So the answer isn't whether or not you have 
given 170 boxes. The question is, has all the relevant data put 
out into the public as was promised? Where are we in that 
process?
    Mr. Seligman. I will have to get an answer for you. I don't 
know.
    Mr. Miller. Mr. Stayman, do you know where we are in the 
declassification of all this information?
    Mr. Stayman. I know that the DOE did an extensive review in 
response to their annual meetings with the communities. I don't 
know if that review has been concluded.
    Mr. Miller. So we haven't had a summation done of what has 
been released, what hasn't been released or anything to date, 
do you know?
    Mr. Stayman. Well, I am sure there is a record of what has 
been released. Your question of what is left, I don't know 
whether it is an ongoing process or----
    Mr. Seligman. We have a summation and inventory of 
everything that has been released.
    Mr. Miller. Can you make--do you have a summation of what 
is yet to be released?
    Mr. Seligman. Yes, we do.
    Mr. Miller. Can you provide that for the Committee?
    Mr. Seligman. Absolutely.
    Mr. Miller. That might be helpful. If I might, just one 
quick question, Mr. Chairman. The status of the $150 million 
trust fund is what today?
    Mr. Stayman. It is paying out, you know, the health, the 
payments to the four communities, the tribunal administration, 
and then the remainder is paid out for individual and community 
claims which are filed and adjudicated by the tribunal. So I 
don't know what the balance is now, but it is continuing its 
work.
    Mr. Miller. Is that a trust fund where the core can be--the 
principal can be invaded?
    Mr. Stayman. Yes.
    Mr. Miller. So it is not just a question of what the trust 
fund spins off, it is a declining balance in the trust fund?
    Mr. Stayman. Right. In fact, at the end of year 15, the 
Compact requires that any residual be transferred to the United 
States Treasury.
    Mr. Miller. So it is sort of a trust fund. It is a trust 
fund that can be invaded, and the expectation is that at the 
end of 15 years it will be exhausted or there will be some 
small residual there to be returned.
    Mr. Stayman. Right. The provisions require that the 
payments be made out essentially on a pro rata basis, and if 
more money is available, then you would pay more.
    Mr. Miller. So it is not just out of earnings, so to speak?
    Mr. Stayman. Right. There is a schedule to make sure that 
earnings cover key programs but not necessarily cover all the 
claims.
    Mr. Miller. Is that happening?
    Mr. Stayman. Yes, that is happening. They have only paid--
they can tell you--it is about 60 percent or 50 percent on 
claims so far, and that number may decrease.
    Mr. Miller. Thank you.
    Mr. Young. I want to thank the panel for your testimony. 
There will probably be some written questions. Mr. Stayman, I 
want to congratulate you, and we will be watching you very 
carefully in these negotiations.
    Mr. Stayman. Thank you.
    Mr. Young. And I would also suggest that one other thing, 
this is not off the record, but it concerns me, we are talking 
about $150 million, a very small amount of money for a great 
many people that were displaced, and when this disaster, if it 
ever comes to an end in Europe, it will be $200 billion 
rebuilding a country that we tore down.
    I think we ought to put this in perspective and say we also 
have done some things that we ought to be willing to bite the 
bullet for. Under the guise of humanitarian principles and 
defense, we ought to really address the issues that affect 
these people, and I want to thank the panel.
    Mr. Stayman. Thank you.
    Mr. Young. You are excused.
    The gentleman from Guam.
    Mr. Underwood. Mr. Chairman, I remember that Mr. Stayman 
said he had no instructions for negotiations. Perhaps we can 
have a hearing and help him get some.
    Mr. Young. I am confident before Mr. Stayman is through 
with these negotiations there will be a lot of input from 
individuals on this Committee.
    Mr. Underwood. Okay. Thank you.
    Mr. Young. The next panel will be the Honorable Philip 
Muller, Minister of Foreign Affairs and Trade, Republic of the 
Marshall Islands, Majuro, Marshall Islands; the Honorable Marie 
L. Maddison, Secretary of Foreign Affairs and Trade, Republic 
of the Marshall Islands, Majuro, Marshall Islands; H.E. Tony A. 
deBrum, Minister of Finance, Republic of the Marshall Islands, 
Majuro, Marshall Islands.
    And I would like at this time, all the honorable people, to 
extend my thanks to yourselves, and of course the president, 
and our reception we had and the exposure that we had to your 
fine people and your parliament. So, again, you are welcome.
    Mr. Muller, you are first up.

  STATEMENT OF PHILIP MULLER, MINISTER OF FOREIGN AFFAIRS AND 
            TRADE, REPUBLIC OF THE MARSHALL ISLANDS

    Mr. Muller. Thank you, Mr. Chairman. Mr. Chairman, before I 
get to the serious issues in front of the Committee, I would 
just like to let you know I am still feeding your marlin.
    Mr. Young. Thank you, sir. The one I didn't catch and you 
did.
    Mr. Muller. Mr. Chairman, distinguished members of the 
House Committee on Resources, it is an honor for me and my 
colleagues to appear before you today on behalf of the Republic 
of the Marshall Islands Government. In addition to those of us 
seated in the front, I have with me the speaker and the vice-
speaker of Nitijela, as well as representatives from the four 
atolls, including Minister Johnsay Riklon, Minister Hiroshi 
Yamamura, Senator Henchi Balos--Senator Ishmael John and 
Senator Henchi Balos from Kwajalein.
    First of all, allow me to convey the greetings of President 
Kabua and the people of the Marshall Islands, as well as our 
sincere appreciation to you, Mr. Chairman, members and staff, 
who joined this Committee's CODEL to the Marshall Islands. We 
also thank you for convening this important hearing to consider 
the complex radiological conditions in the Republic of the 
Marshall Islands.
    Before I begin, I want to extend our congratulations to Mr. 
Allen Stayman as the U.S. Government's compact negotiator. Mr. 
Stayman is well respected in the Marshall Islands and 
knowledgeable about our bilateral relationship. We look forward 
to working with him. However, because the prices of this 
upcoming renegotiation is still unclear to the Marshall 
Islands, we hope to receive assurances that the position has 
full authorization to negotiate on behalf of the U.S. 
Government.
    My testimony today focuses on the unique and important 
bilateral relationship between the U.S. and the Republic of the 
Marshall Islands. Secretary Maddison will summarize where the 
four atolls are in terms of their progress in addressing 
various radiology issues. Mr. deBrum will shed light on the 
national impacts of the testing program, as well as the 
successes and failures of the section 177.
    Mr. Chairman, it is gratifying for the RMI government to 
know that the U.S. and the RMI Governments share the same 
commitment to our bilateral relationship, as this Committee has 
demonstrated both in the Compact of Free Association and in the 
corresponding resolutions recently forwarded by the House of 
Representatives and the Nitijela.
    As you know, the Marshall Islands provide the U.S. with a 
buffer zone between the U.S. and potential threats from Asia. 
The Compact also provides the U.S. with sole military access to 
approximately 1 million square miles of the Pacific Ocean where 
no other foreign military can enter. The Marshall Islands 
supports U.S. activities in relation to the testing of its 
missile defense programs at the Ronald Reagan Strategic Defense 
Initiative Test Site at Kwajalein Atoll.
    On many occasions, the RMI Government has promptly 
accommodated the Department of Defense requests to utilize 
additional islands in Kwajalein, as well as islands in the 
northern parts of the Marshall Islands to expand these 
activities. The RMI Government is pleased to support the 
strategic needs of the United States. We are all familiar with 
the nuclear legacy in the Marshall Islands and the Marshallese 
people's contribution to the end of the Cold War.
    My main point today is that it is imperative to assist the 
communities adversely affected by the testing program. In 
addition to being a moral and legal obligation, raising the 
needs of the nuclear-affected communities is essential to 
maintaining the strategic partnership.
    While the RMI Government is committed to its bilateral 
relationship with the U.S., we believe that the U.S. Government 
must address the lingering needs of communities affected by the 
U.S. military objectives, including communities displaced by 
the missile testing program.
    Communities in the Marshall Islands suffer from the 
hardships of displacement, radiation-related health and 
environmental problems, and a variety of social and economic 
problems that my two colleagues at this table will expand upon. 
The RMI Government knows that the assistance provided in 
Section 177 of the Compact is manifestly inadequate to respond 
to our complex radiological needs in the Marshall Islands. We 
request that this Committee address the inadequacies of section 
177.
    Fortunately, Congress provides a mechanism in the Compact 
for our nations to consider the need for additional assistance 
to address the consequences of the U.S. nuclear weapons testing 
program. This mechanism is Article 9 of section 177 of the 
Compact, the changed circumstances provision. The RMI 
Government will submit a changed circumstances petition for 
Congress to consider in the very near future. This petition 
demonstrates that injuries resulting from the U.S. nuclear 
testing program have arisen and been discovered in the RMI 
since the Compact took effect, that could not reasonably have 
been discovered in the RMI prior to the effective date of the 
Compact.
    The RMI Government looks forward to working with Congress 
in consideration of the RMI's petition on changed 
circumstances. As strategic partners, we will continue to 
extend into the future the RMI Government hopes to gain the 
cooperation of this community in considering this petition.
    Mr. Chairman, the RMI Government also requests this 
Committee's assistance to address the difficulties the RMI 
Government is having in implementing the economic provisions of 
the Compact. One of the fundamental tenets of the Compact is 
the notion of mutual security. This principal is expressly 
stated in the mutual security agreement, and I will quote:

          ``The Government of the United States and the 
        Government of the Marshall Islands recognize that 
        sustained economic advancement is a necessary 
        contributing element to the mutual security goals 
        expressed in this agreement.''
    The concept of mutual security is premised on the shared 
security resulting from the Compact. The U.S. gains military 
security and the Marshall Islands gain economic security. 
Specific provisions in the Compact are intended to foster 
economic development in the Marshall Islands, a condition 
necessary to support the security requirements of the United 
States.
    Although there are many provisions of the Compact intended 
to boost the RMI security and economic development, the RMI 
Government is having great difficulty implementing these 
provisions. Unfortunately, these provisions provide some of the 
most basic services to the Marshallese people. These 
provisions, which I detail in my written statement, include 
economic benefits to offset large economic incentives, 
essential air services, and the rights of Marshallese to seek 
employment benefits.
    Regrettably, the RMI notes that the U.S. has locked in 
security rights under the Compact, and it enjoys those on an 
ongoing basis, some in perpetuity, and yet when it comes to 
performing U.S. corresponding obligations to support economic 
development, the RMI Government encounters stalling and excuses 
from the administration.
    With regard to the RMI's economic development, I am pleased 
to report that although the RMI receives very one-sided 
criticism of the RMI's economic initiatives by the Department 
of State, we have made tremendous strides in the last year. 
Some of our progress includes lowering taxes, adopting 
legislation to establish an intergenerational trust fund and to 
attract foreign investment, unprecedented cooperation with the 
business community, and increased transparency in the 
government.
    Mr. Chairman, I find it outrageous that we would hear from 
the State Department without recognizing some of the positive 
efforts that we have taken to make our economy more viable and 
more vibrant. We will have a chance to respond to some others.
    I thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Muller follows:]
    [GRAPHIC] [TIFF OMITTED] T6305.011
    
    [GRAPHIC] [TIFF OMITTED] T6305.012
    
    [GRAPHIC] [TIFF OMITTED] T6305.013
    
    [GRAPHIC] [TIFF OMITTED] T6305.014
    
    [GRAPHIC] [TIFF OMITTED] T6305.015
    
    [GRAPHIC] [TIFF OMITTED] T6305.016
    
    [GRAPHIC] [TIFF OMITTED] T6305.017
    
    [GRAPHIC] [TIFF OMITTED] T6305.018
    
    [GRAPHIC] [TIFF OMITTED] T6305.019
    
    [GRAPHIC] [TIFF OMITTED] T6305.020
    
    [GRAPHIC] [TIFF OMITTED] T6305.021
    
    [GRAPHIC] [TIFF OMITTED] T6305.022
    
    [GRAPHIC] [TIFF OMITTED] T6305.023
    
    [GRAPHIC] [TIFF OMITTED] T6305.024
    
    [GRAPHIC] [TIFF OMITTED] T6305.025
    
    [GRAPHIC] [TIFF OMITTED] T6305.026
    
    [GRAPHIC] [TIFF OMITTED] T6305.027
    
    Mr. Young. Thank you, Mr. Muller, excellent testimony.
    The Honorable Marie Maddison.

 STATEMENT OF MARIE L. MADDISON, SECRETARY OF FOREIGN AFFAIRS 
          AND TRADE, REPUBLIC OF THE MARSHALL ISLANDS

    Ms. Maddison. Thank you, Mr. Chairman. Before I make my 
statement, I would like to note for the record the written 
statement submitted by the four atoll delegations, and I also 
have a summary of the written statement for detail.
    Mr. Young. It will go in, without objection.
    Ms. Maddison. Chairman Young, distinguished members of the 
House Resources Committee, representatives of the U.S. 
Government, ladies and gentlemen, I am honored today to relate 
to you a story, a story of four unique Marshallese communities 
who, more than forty years after the United States concluded 
its nuclear testing program in the Marshall Islands, continue 
to live with a nuclear legacy that shapes their daily 
existence.
    It is important to understand the valuable relationship 
that exists between land and community, community and the 
ecosystem, the ecosystem and the sustainability in the Marshall 
Islands. It is very important because we are talking about 
communities that were uprooted, torn apart, scattered and 
contaminated.
    To address the road to recovery, therefore, government 
measures should help the affected communities to grow roots, 
mend and cement the tears, bring together the segments and 
clean up or get rid of the contaminants. The Governor of the 
Republic of the Marshall Islands supports each of the four most 
affected communities, Enewetak, Rongelap, Utirik and Bikini, in 
their respective efforts to recover themselves and rebuild the 
lives of not only their communities but also individual members 
of their communities.
    The price of reconstruction requires accessibility to 
noncontaminated land. Thus, land and contamination are two 
long-standing issues that are yet to be fully or properly 
resolved.
    I recognize congressional outreach in supporting 
radiological efforts of Enewetak, Bikini and Rongelap. However, 
additional support is sorely needed in the following areas.
    Moneys generated by trust funds for cleanup are an 
essential element to the recovery price of these atolls. While 
trust funds cannot replace the lasting value of land, it can be 
the next best thing, as we have seen demonstrated by existing 
trust funds. Enewetak's claims are minimal, $160 million, 
minimally sufficient to clean and rehabilitate its northern 
islands, while Rongelap requires the full $45 million, and 
Bikini finds its $90 million resettlement trust fund barely 
adequate. Contamination of Utirik is yet to be assessed.
    These figures may sound large, but please compare them to 
the $147 billion estimate for the DOE program of cleanup in the 
United States. Compared to these billions, RMI figures are 
modest and reasonable.
    The availability of trusted scientific expertise to guide 
cleanup and recovery steps is just as important. While the 
collection of scientific data may not be an issue, the 
interpretation of data is a major concern. We do not want to 
repeat the mistake of a premature resettlement. Chronic 
exposure to radiation, the related health problems, and the 
psychological and social stress of repeated removals is the 
legacy left to the Enewetak, Rongelap and Bikini communities 
that were prematurely resettled.
    Recognition of an agreed-upon cleanup standard is essential 
to ensure safety in an affected environment. The EPA standard 
of 15 millirems has been adopted by the Nuclear Claims 
Tribunal. We believe that RMI citizens deserve to be protected 
to the same standard as U.S. citizens, the collaboration of 
expertise among those in fields related to nuclear radiation, 
health, agriculture, ecoculture. The food chain and the human 
body are complex systems that require a coordinated range of 
services. The communities will continue to need the 
availability of the USDA food programs and related technical 
support at this stage of recovery.
    The recovery process also requires accessibility of the 
people to quality education and health care services. Again, 
earnings from the trust fund mechanism have supported the 
education of the members of these respective communities in the 
form of additional teachers, better school facilities and 
scholarships.
    One aspect of the recovery, an additional need that is yet 
to be addressed, is the advancement of the people in radiation-
related fields. Additional assistance should be provided toward 
the promotion of such a knowledge in these communities.
    The availability of the 177 health care program and the DOE 
medical monitoring program has not been appropriately 
established and linked to make quality health care accessible 
to the community members. It is thus important that additional 
support should be provided to the 177 health care program, and 
that the medical team in the DOE program treat all members of 
the community it serves.
    Availability of needed support infrastructure in the areas 
of transportation, power generation and communication are 
needed to fully access recovery and sustainability of these 
communities. The cost expended by the communities to address 
transportation needs such as shipment of USDA food commodities, 
transport of drivers, et cetera, are major drains in the budget 
of these communities. While Utirik had experimented with solar 
powered community lighting systems, much is yet to be done to 
improve such technology and other energy-related areas to 
support the efforts of the communities.
    As it is with the transportation and power generation, 
communication is necessary to bring persons and communities 
together, and it is a priority area of need, particularly for 
all the outer islands of the Republic.
    In conclusion, Mr. Chairman, the needs of the people of 
Enewetak, Rongelap, Utirik and Bikini should be truly and 
adequately assessed and addressed in a coordinated and 
comprehensive manner.
    It is quite obvious that, one, cleanup is still an issue 
and should be addressed properly. Cleanup efforts should 
complement and supplement the development of knowledge and 
expertise in nuclear exposure related fields within the 
Republic, particularly in the affected communities. In 
addition, a cleanup standard must be agreed upon.
    Two, equitable fund adjustments are needed under the trust 
fund mechanism for all the communities to improve their 
resource base and address community needs.
    Three, USDA food programs and technical expertise from the 
U.S. Government need to be extended to complement, supplement, 
enhance the efforts, the recovery efforts of the communities.
    Four, expansion of the scope of the DOE medical monitoring 
program to include all residents of the affected communities 
will lead to a better collaboration with the existing 177 
health care and other national health care programs.
    Five, provision of additional assistance toward 
transportation, power generation and communication are just as 
needed to fully implement and enhance the recovery and 
development of strategies of these communities.
    I thank you for your attention and support.
    [The prepared statement of Ms. Maddison follows:]
    [GRAPHIC] [TIFF OMITTED] T6305.028
    
    [GRAPHIC] [TIFF OMITTED] T6305.029
    
    [GRAPHIC] [TIFF OMITTED] T6305.030
    
    [GRAPHIC] [TIFF OMITTED] T6305.031
    
    [GRAPHIC] [TIFF OMITTED] T6305.032
    
    [GRAPHIC] [TIFF OMITTED] T6305.033
    
    [GRAPHIC] [TIFF OMITTED] T6305.034
    
    [GRAPHIC] [TIFF OMITTED] T6305.035
    
    [GRAPHIC] [TIFF OMITTED] T6305.036
    
    [GRAPHIC] [TIFF OMITTED] T6305.037
    
    [GRAPHIC] [TIFF OMITTED] T6305.038
    
    Mr. Young. I thank you, Marie, and you do notice that I 
have been letting you go over time, because anybody flies as 
far as you, you can have half the day if you want to.
    Ms. Maddison. Thank you, Mr. Chairman.
    Mr. Young. I am going to listen to Mr. Tony deBrum, 
Minister of Finance, Republic of Marshall Islands, and I am 
going to have to excuse myself. Mr. Doolittle will take over 
the Chair after I listen to your testimony, and then there will 
be some questions, as I have to go to another meeting. You are 
up.

 STATEMENT OF TONY A. deBRUM, MINISTER OF FINANCE, REPUBLIC OF 
                      THE MARSHALL ISLANDS

    Mr. Tony A. deBrum. Thank you, Mr. Chairman.
    Mr. Chairman, I join the Foreign Minister in thanking you 
and the Committee for visiting with us. We thoroughly enjoyed 
the visit, and we hope you will be doing another one very, very 
soon.
    I am going to concentrate my remarks on the inadequacies of 
the 177 program and probably some of the reasons why it is 
inadequate.
    As you know, the Compact provisions for the nuclear 
problems, the 177 agreement was based on a study done by the 
Department of Energy called the 1978 Radiological Survey of the 
Northern Marshalls, which was presented to us as the definitive 
study on the full extent of damages in the Marshalls. Based on 
that, we agreed on the Compact and the subsidy agreement. Had 
we known what we know now about the full extent of the damages, 
I do not think we would have approved the Compact. I think for 
sure we would have had to have a radically different 177 
agreement.
    Since the 1994 hearings and since the Department of Energy 
released additional information previously classified, we have 
discovered to our satisfaction and we now conclude that 
information was withheld not only from us, from the Marshallese 
negotiators, but perhaps from the American negotiators as well, 
and certainly from Congress, because Congress would not have 
approved of this arrangement had it known the full extent of 
the damage. We are convinced of that now.
    The definition of legally exposed people, that 174 people 
that were actually on island during the Bravo test, is also a 
very erroneous basis upon which to program the medical care. 
The reason for that is that people were exposed all over the 
Marshalls through 67 shots, not just to Bravo. The cumulative 
doses that can be calculated now backwards demonstrate that all 
the people of the Marshall Islands were exposed.
    What happens is that you have a multimillion dollar program 
sponsored by Congress to deal with the so-called legally 
exposed 174 people, while the people surrounding those people 
are not eligible for the same care. They are tendered the 177 
health program, which is much more poorly subsidized. The 
remaining population on the Marshalls must be taken care of by 
our government, which has even less resources to deal with the 
program--with the problems of medical and other monetary 
requirements. These all need to be expanded.
    It has been alluded that all the classified information 
that we need to make even better judgments on what happened to 
us have been released. They have not. And you are right, Mr. 
Chairman, the onus is on the Department of Energy to present us 
with what really needs to be known. We don't know what is 
classified and what is not. They are the ones who know it, but 
what has been released has been most helpful and we continue to 
study them.
    In fact, attached to my statement, which I hope will be in 
the record, if I didn't ask for it already, one of the 
attachments is a document we recently discovered that indicates 
that DOE was aware that there were a lot more problems, medical 
problems, including iodine-related thyroid problems in the rest 
of the Marshall Islands, and they were quite prepared to set up 
surgery arrangements for these people once the requirement was 
made by someone or once the administration agreed to include 
these people. When this was not included in the Compact, that 
plan was abandoned.
    Included in that document is a very clear statement that 
shows that, that betrays really the research as opposed to the 
medical nature of the program that DOE conducted over these 
years. We are hopeful that more information can be provided so 
that we can be more informed as to what the true exposure 
levels of the Marshalls might be.
    Included in my statement are the following requests to the 
Committee: One, that an ex gratia payment to supplement the 
Nuclear Claims Tribunal payments be made as soon as possible; 
that there be institutional and infrastructure support for the 
Republic of the Marshall Islands public health sector; that we 
seriously consider the expansion of eligibility for the DOE 
medical program to include more people, people that really, 
truly deserve it in the Marshalls; that there be an inflation 
adjustment for the four atoll health care programs; and that a 
directive be sent to the U.S. Public Health Service to provide 
resources, doctors, to the Marshall Islands. We are eligible 
for another Compact, but which we have found impossible to 
implement because of monetary requirements.
    Six, we should begin training and education programs for 
Marshallese in the fields of environmental science and 
radiation health, in order to transfer this technology to 
people who need it most. We cannot continue to depend on 
outside doctors and outside expertise to take care of our own. 
We want to learn how to take care of our own. I think we can 
learn, too, if you can help us.
    A directive to DOE should be sent to conclude an agreement 
on cleanup standards and worker safety standards that more 
closely match those standards that you set for American 
citizens. I think we deserve the same standard.
    There should be a nationwide cancer registry program in the 
Marshalls. Right now, there are bits of information being put 
together from different studies conducted by different agencies 
over many years, but no one has actually put one of these 
registries together that would show the true extent of the 
cancer problem in the Marshalls.
    We should also enjoy continued committee--your Committee, 
Mr. Chairman--representation at our annual DOE-RMI 
consultation. We think that is very important and is very 
helpful.
    Finally and most importantly, prompt consideration of the 
RMI's changed circumstances petition which, as the Foreign 
Minister indicated, we will be submitting shortly.
    I will be happy to answer questions. Thank you.
    [The prepared statement of Mr. deBrum follows:]
    [GRAPHIC] [TIFF OMITTED] T6305.039
    
    [GRAPHIC] [TIFF OMITTED] T6305.040
    
    [GRAPHIC] [TIFF OMITTED] T6305.041
    
    [GRAPHIC] [TIFF OMITTED] T6305.042
    
    [GRAPHIC] [TIFF OMITTED] T6305.043
    
    [GRAPHIC] [TIFF OMITTED] T6305.044
    
    [GRAPHIC] [TIFF OMITTED] T6305.045
    
    [GRAPHIC] [TIFF OMITTED] T6305.046
    
    [GRAPHIC] [TIFF OMITTED] T6305.047
    
    [GRAPHIC] [TIFF OMITTED] T6305.048
    
    [GRAPHIC] [TIFF OMITTED] T6305.049
    
    [GRAPHIC] [TIFF OMITTED] T6305.050
    
    [GRAPHIC] [TIFF OMITTED] T6305.051
    
    [GRAPHIC] [TIFF OMITTED] T6305.052
    
    [GRAPHIC] [TIFF OMITTED] T6305.053
    
    [GRAPHIC] [TIFF OMITTED] T6305.054
    
    [GRAPHIC] [TIFF OMITTED] T6305.055
    
    [GRAPHIC] [TIFF OMITTED] T6305.056
    
    Mr. Young. I thank you. I have one. Who is going to be in 
the negotiating team on your behalf? Do you have any idea who 
is going to be set up?
    Mr. Muller. I will be, Mr. Chairman.
    Mr. Young. You will be. Very good.
    Mr. Muller. And a couple other members of our cabinet.
    Mr. Young. Mr. Muller, especially, and Marie, you made some 
suggestions which I deeply appreciate, because we are going to 
be directly involved with you in these negotiations or at least 
watching to see what happens as time goes by.
    I happen to agree with you, Mr. Muller. I don't believe--
because I was here when that Compact was signed. We did not 
have the information ourselves, and I am going to officially 
request that information be made available, because I can't 
figure out what in the world it is classified for now other 
than to protect someone's behind. There is certainly no 
military significance to what those tests did. That is pretty 
common knowledge that is being advanced by other countries now, 
so that information should be made available to you so you can 
analyze it.
    But I am very much interested in your presentation and what 
we can apply it with, and as time goes by, Mr. Mansur has been 
directed and I am sure this young lady has also been on site, 
we will be watching this very closely.
    With that, Mr. Doolittle, I hope you will conduct this 
meeting, and I thank you very much for your testimony. I will 
try to get back for the third panel.
    Mr. Doolittle. [presiding] Maybe I will just continue with 
and take my time now, serving as the acting chairman.
    I understand that the RMI has passed laws affecting the 
awarding of nuclear claims by the Nuclear Claims Tribunal. 
Would one of you be able to identify those laws and describe 
their purpose and impact on the Nuclear Claims Tribunal?
    Mr. Tony A. deBrum. Mr. Chairman, there is a Nuclear Claims 
Tribunal Act which was enacted by our parliament establishing 
the Nuclear Claims Tribunal, giving it the authority to do all 
those things that we agreed in the 177 Agreement with the 
United States that it must do in order to function. There are 
also cases where at the direction of cabinet, the parliament 
would also pass the necessary legislation to include certain 
conditions, for example, that the Veterans--United States 
Veterans Administration holds for their own people, photogenic 
diseases, conditions that are considered compensable, et 
cetera. I would hope that some of this more detailed 
information about those can be given when our tribunal chairman 
joins the next panel and gives you more information on that.
    Mr. Doolittle. That would be fine. Thank you.
    Can you tell us what is the status of the nationwide 
radiological study, and could a copy be provided to the 
Committee?
    Mr. Muller. Mr. Chairman, we would be more than delighted 
to provide a copy of the study. We in the Marshall Islands had 
some concerns in the way that the study was done and the way 
that the information and data were collected, and we still 
continue to question some of the conclusions that the study had 
come up with, and we certainly will provide all of that to your 
Committee.
    Mr. Doolittle. Okay. Thank you.
    For Secretary Maddison, you indicated that the Marshall 
Islands support the Bikini Island's request for 3 percent 
distribution from the trust fund. Has this request been raised 
to the administration, and do you know what is preventing the 
distribution?
    Ms. Maddison. Yes. According to the information that we 
have received, these arrangements have been made.
    Mr. Doolittle. I am sorry, the disbursement has been made?
    Ms. Maddison. The arrangement.
    Mr. Doolittle. The arrangement----
    Ms. Maddison. Yes.
    Mr. Doolittle. [continuing] to disburse the 3 percent has 
been made? Okay.
    If I had had time, I would have asked the previous panel 
this question, but maybe one of you can tell me the answer. 
They were talking about how to get a commercial airline ticket 
into the Marshall Islands is like a 2- or 3-month waiting 
period. Is that what I heard?
    Mr. Tony A. deBrum. That is right.
    Mr. Doolittle. And is that because airline service has been 
scaled back, or because there is some increased demand to go 
into the Marshall Islands or out of the Marshall Islands?
    Mr. Tony A. deBrum. If I may answer that, Mr. Chairman, the 
service--the level of air service into the Marshalls now is 
half of what it was prior to the effective date of the Compact, 
1986. We used to have four flights a week in from Guam and four 
flights in and out to Honolulu. It is now two. We have tried to 
get Aloha Airlines in Hawaii to provide a supplemental service 
and have agreed with them for this service, but had some 
difficulties with approval that Dr. Campbell indicated earlier 
this morning have all been granted, and would expect that 
service to start soon.
    Mr. Doolittle. Oh, good. Thank you.
    The Chair recognizes the gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I would like to say my welcome and thank you, and if I 
could repeat it in a very nice way, iakwe, kommol tata. To Mr. 
Muller and Mr. deBrum and Ms. Maddison, we are very happy that 
you are able to come and testify before this Committee, for 
which I am also happy that the chairman and the Ranking Member 
on this side of the aisle is very much interested in the 
problems affecting the people of the Marshall Islands.
    Minister Muller, you had indicated in your testimony that 
there are basically two aspects of the whole negotiations 
process when your people negotiated this Compact with the U.S. 
Government. One, basically, our interest was strategic. It was 
not for the love of the Marshallese people. It was basically 
strategic, and the reason why the U.S. unilaterally declared 
the whole Micronesian area as a strategic trust, without even 
consulting the Trusteeship Council or anybody in the United 
Nations, we just went ahead and grabbed you guys and said you 
are now a part of the strategic trust of the United States.
    You indicated you have some very serious problems in this 
equation. You have given the U.S. somewhat of a free hand in 
terms of maintaining or sustaining our strategic interests. 
What about your economic development? What seems to be the 
biggest problem that you have? Is it lack of money? Is it lack 
of guidance? What seems to be the problem that you have 
encountered the last 13 years?
    Mr. Muller. Let me, Congressman, try to answer that 
question by saying first of all that the Compact agreement was 
entered into to benefit both of our countries, and as I say 
that in my testimony, we have lived up to all of our 
obligations under the Compact. At the same time, we feel that 
as the Compact comes to a close, the 15 years, there are a 
number of issues and provisions that have not been developed 
the way the administration expected.
    Specifically, we are looking at section 111(b), which is a 
provision that was put in to replace the tax incentives that 
were originally agreed to, and this is the authorization of $20 
million that would have helped in our economic development and 
economic programs. That has not materialized, only $2 million 
of that.
    Essentially, health services has been allowed to lapse 
since September of 1998. We continue to ask that your Committee 
look into ways to reinstate the essential air services because, 
after all, air transportation is very important to the economic 
development of our country.
    At the same time, we have got our own effort to move our 
economy forward. As I say in my testimony, we have introduced 
legislation to provide incentives to our local businesses to 
grow. We have lowered taxes. We have provided more transparent 
legislation that would allow for easier foreign investment to 
come into the Marshall Islands.
    So, despite all of this, I think it is very important that 
before we commence negotiations on a new economic package, that 
some of these outstanding issues must be taken care of.
    Mr. Faleomavaega. As you know, Mr. Muller, at the height of 
the Cold War we, or the government, the U.S. Government, 
decided as part of the negotiations in approving the Compact 
that the U.S. Government was to provide approximately $2 
billion for a 15-year period, not just to the Marshall Islands 
but also for the Palau as well as for the Federated States of 
Micronesia.
    It was about a year or two years ago, former U.S. 
Ambassador to the Marshalls, William Bodie, made a statement 
that we have failed to the extent that we have given to the 
Marshalls, I gather, too much money; that we have not done a 
good job in providing assistance, for whatever that assistance 
might be. Do you agree with Ambassador Bodie's observation 
about this?
    Mr. Muller. I totally do not agree with that, Congressman. 
First of all, let us remember that the bulk of that money that 
comes under the Compact is earmarked for radiation compensation 
to the four atolls and to land leases for Kwajalein Atoll. Only 
a certain percentage of that fund comes to the operation of 
government and for projects.
    Second, when the government came into being, we entered an 
infrastructure that was really not there. There was no power, 
there was no road, there was no good health care system, no 
education system, and we needed to spend funding on some of 
those projects to bring up the level of infrastructure 
requirements for the people.
    So I do not agree with that assessment.
    Mr. Faleomavaega. Mr. Chairman, my time is up. I will wait 
for the next round.
    Mr. Doolittle. The Chair recognizes Dr. Christensen for her 
questions.
    Mrs. Christensen. Thank you, Mr. Chairman. I have two 
questions. I guess I would direct it to Mr. deBrum.
    The first one, how much additional money is being requested 
to complete the compensation program, the $22.9 mllion?
    Mr. Tony A. deBrum. Mr. Chairman, the $22.9 million cited 
in the petition filed by the Nuclear Claims Tribunal will only 
enable it to pay for current unpaid personal injury claims. It 
does not include any claims that are stemming from land damage 
or other damages that may be filed. We don't have that figure 
yet, and I think the government's position is that we all 
remain open to a later determination as to what that figure 
might be. But the immediate requirement, as I understand it, 
and the next tribunal will be here, the next panel, I 
understand that to be the figure, yes.
    Mrs. Christensen. Okay. I had a two-part question and you 
answered both parts.
    Mr. Tony A. deBrum. Thanks.
    Mrs. Christensen. Thank you. Secretary Maddison, you talked 
about the types of difficulties that displacement causes, and 
in your statement, in your presentation you said that land is a 
lifeblood, and I suspect that you mean more than just that it 
provides food, that it must have some spiritual context, and 
could you elaborate on that for the record? What does the land 
have--what relationship is there between the land and the 
people?
    Ms. Maddison. Thank you, Congresswoman. We are trying to 
explain how important land is in the Marshall Islands. Land is 
very scarce, and yet it is the foundation where you pass on to 
your children your inheritance. But when I talk about 
difficulties, I am talking about everything that they have, the 
communities have to do, like for example the communities that 
were displaced, they have to relearn the land.
    If the children do not know their land rights, they don't 
know their clans, it is very difficult for them to have 
identity, root, which is really very important. Unless they 
have their identity and they are well-rooted, they are self-
confident, it is very difficult for them to move in any way, 
whether it is health, education. So they have to relearn the 
land.
    They have to rebuild their homes, and homes and land are 
also very synonymous. Skills have to be taught because you are 
living in a different environment than when you were displaced. 
For example, you go from Rongelap to Najap. Well, Najap is a 
very far island within Kwajalein and it is very difficult to go 
to, very isolated in a way. Same as with the Bikinians when 
they were moved from an atoll to a small island which was 
surrounded by harsh conditions, big waves. So they have to 
learn new skills and how to fish, for example.
    They also have to reform their schools. Building schools, 
that is another thing, and they are doing very well, for 
example, as I cited that--the example from Enewetak where they 
are spending their money to bring in teachers, to build 
schools, and the others are also setting aside money for 
scholarships.
    But before they can even think of education, they have to 
think of basic needs. So, unless they have been able to manage 
their basic needs, then they can spend time on education, and 
they have to restore their community life. You have communities 
that are in different places. As I said, they are scattered in 
different parts of the Marshall Islands, even in parts of the 
United States. So how can you bring all these communities 
together? You have a saying that is, ``out of sight, out of 
mind,'' which is very, very classic in this kind of example.
    Mrs. Christensen. I thank you, and I just wanted to thank 
you also for the kind hospitality that was extended to me and 
my husband when we visited, and it was really a pleasure to be 
there. I am glad I had an opportunity to come and visit and see 
the Marshall Islands firsthand. Thank you.
    Thank you, Mr. Chairman.
    Mr. Doolittle. Thank you.
    Mr. Jones is recognized.
    Mr. Jones. Thank you, Mr. Chairman. I regret that I have 
only been here for about 10 minutes and have to leave in about 
5 minutes, but I wanted to say to the panelists that are here 
today that I, as one Member of Congress, appreciate your being 
here.
    Recently I had the pleasure of meeting with the Ambassador 
from the Marshall Islands, and we had quite an extensive 
discussion regarding these issues, and I look forward to 
reading your testimony also. But I wanted to say, Mr. Chairman, 
that I think that this is a sad chapter in America's history, 
the way that we have not met our commitment and obligation to 
these people who have been exposed to our nuclear testing 
during the Cold War.
    And I want to say to the citizens of the Marshall Islands 
that as one Member of Congress, I look forward to working with 
members on this Committee on both sides of the political aisle 
to do what needs to be done to make sure that we as an 
honorable Nation keep our commitment that we have made in the 
past and do everything that we can to enhance the lives of the 
citizens of the Marshall Islands, and particularly those who 
have developed a disease from the exposure to this nuclear 
testing.
    So, Mr. Chairman, with that I want to thank you, Chairman 
Young, for bringing this hearing to the Committee and letting 
us work together in a bipartisan way to help the citizens of 
Marshall Islands. Thank you.
    Mr. Doolittle. I thank the gentleman. Let me inquire of my 
Members, is there the desire for Members to have a second round 
of questioning? The Chair recognizes Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I do have a 
couple of more questions that I would like to ask the 
panelists, if I may.
    Mr. Muller, as you know, one of the most hotly debated 
issues right now before the Congress is the issue of theater 
missile defense. Do you consider the Kwajalein missile range an 
important aspect of our strategic interests as far as the 
theater missile defense in the Pacific, as well as in other 
regions of the world?
    Mr. Muller. I think it is one of the most important sites 
to the strategic defense. As I have stated in our statement, we 
continue to make the commitment to make that available to the 
United States. At the same time we must look at some of the 
negative effects that have resulted from the presence of the 
military there.
    Mr. Faleomavaega. These missiles when they are fired from 
the United States, are they from California, Vandenberg as I 
recall?
    Mr. Muller. Vandenberg.
    Mr. Faleomavaega. These are ICBM's, right, and they are 
fired from California; and they get to Kwajalein in about one 
hour's time period?
    Mr. Muller. In seconds.
    Mr. Faleomavaega. In seconds? I see. We have been doing 
this for what, almost 50 years?
    Mr. Muller. Forty.
    Mr. Faleomavaega. I would like to ask Minister deBrum, as 
you know, we have had a very interesting dialogue with Dr. 
Seligman of the Department of Energy. It is his considered 
opinion that as far as he is concerned the Department of Energy 
is doing a real fine job in providing proper and medical 
examination, not only to the environment in these atolls, but 
as well to the people. Do you take--do you agree, Minister 
deBrum, with that assessment?
    Mr. Oscar deBrum. Congressman, we do not agree with that 
assessment. As our statements will show you, we are indeed at 
odds on that. We hope that the testimony that some of the 
individual atollees and nuclear tribunal and some of the 
scientists that have been hired by Enewetak and Utirik will 
shed more light on that.
    On that note, also, Congressman, if I may at this time 
enter into the record our intention to provide written answers 
to some of the remarkable concerns raised by the State--
Department of State representative earlier. We think that that 
record ought to be settled.
    Mr. Faleomavaega. Mr. Chairman, I would like unanimous 
consent that the members of the panel do offer statements for 
the record in response to some of the comments made earlier by 
the officials of the State Department as well as the other 
agencies represented.
    Mr. Doolittle. Without objection so ordered.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. deBrum, I 
noticed also in your statement that there was a legal 
classification. I assume the Department of Energy--they said 
that the least amount of radioactive atoms--in other words, 
people who shouldn't even be examined among the Marshallese 
people, and yet looking into this portion of the whole 
examination process, these so-called--the least amount of 
radioactive people exposed to radiation, actually when they 
were examined, they were 250 times more exposure than if I were 
a U.S. citizen being exposed to the same contamination.
    This is in reference to your earlier statement that as far 
as you are concerned all of the Marshallese people have been 
exposed because of this.
    Mr. Oscar deBrum.  That is correct, sir. We consider all of 
the Marshallese people to be exposed. There are cases also 
where American citizens who lived in the Marshalls during this 
period have come down with radiogenic diseases but have nowhere 
to go for claims because they fall between the cracks. They 
were not in Utah. They were in the Marshalls. They cannot claim 
for radiogenic diseases because they are American citizens. 
That has to be looked at as well.
    Mr. Faleomavaega. I know there was a national association 
of veterans. There was some 24,000 members nationwide, veterans 
who were exposed to our nuclear testing program, not only in 
the Pacific but also in New Mexico.
    Believe it or not, we didn't do a very good job in 
conducting medical examinations for these sailors and soldiers 
who were also exposed to nuclear contamination as part of this 
test.
    I notice my time is up, Mr. Chairman. I would like to thank 
members of the panel for their fine statements. Again, as our 
good friend Congresswoman Christensen said earlier about the 
hospitality, please extend our fondest aloha to President Imata 
Kabua and the members of the good people of the Marshalls for 
their hospitality and the beautiful reception we received when 
we visited these beautiful islands. Thank you, Mr. Chairman, 
and thank you.
    Mr. Doolittle. Thank you. And I thank the members of the 
panel for appearing today. I would join in the comments of the 
others. The gracious hospitality that was extended to us was 
very much appreciated. The opportunity to visit the Marshall 
Islands and actually see some of the places mentioned and to 
understand better, it was a great opportunity. It certainly 
aided me as a member of the Committee. We will now excuse this 
panel and ask you to go-- oh, yes. Sorry, Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman. And I know that 
many of the issues have already been discussed, and I won't 
take the Committee's time to do that except again to express my 
most sincere Komol tata for the hospitality and the good 
relationships I know that we have with the people of the 
Marshalls and also trying to attempt to bring some resolution 
to the issues that are surrounding this.
    I certainly appreciate all of your commentary and I 
appreciate the idea of trying to develop the expertise locally 
within the RMI. That is an excellent suggestion. It is a shame 
that no one ever thought of that before. I am sure it has been 
thought of before. I mean, I have never heard it framed that 
way.
    This is a matter of great concern because I still think 
that the anxiety caused by this and the way that it affects the 
lives of people every day cannot be measured in the millirems. 
It takes an enormous cost in terms of the human experience and 
the human condition and it is most regrettable that our country 
is responsible for that and I would like to also acknowledge 
that there are many people both in the Department of Energy and 
the Department of Interior, as well as Members of Congress that 
are obviously interested in seeing a resolution of this issue 
once and for all.
    I certainly want to maintain my lines of communication open 
and to try to make as many documents or all the documents, not 
as many, all of the documents available to you in a 
comprehensible way so that you don't have to get a Ph.D. in 
engineering in order to understand them. We will have to wait 
for a few years for that, but I wanted to take the opportunity 
to express my thanks for the hospitality and the courtesies 
that was extended during the recent CODEL. Thank you, Mr. 
Chairman.
    Mr. Oscar deBrum.  Thank you very much.
    Mr. Doolittle. We will have, no doubt, further questions 
and we will hold the record open and ask for your timely 
response. With that we will excuse this panel and call up the 
final panel, panel number three.
    While the members of this panel are assembling themselves, 
I would just announce that we have certain statements submitted 
for the record, the first being by Senator Ismael John, Mayor 
Neptali Peter, and Davor Z. Pevec. So that is one statement. 
Those three have joined in that.
    [The prepared statement of Messrs. John, Peter, and Pevec, 
and the prepared statement of Jonathan M. Weisgall follows:]
[GRAPHIC] [TIFF OMITTED] T6305.057

[GRAPHIC] [TIFF OMITTED] T6305.058

[GRAPHIC] [TIFF OMITTED] T6305.059

[GRAPHIC] [TIFF OMITTED] T6305.060

[GRAPHIC] [TIFF OMITTED] T6305.061

[GRAPHIC] [TIFF OMITTED] T6305.062

[GRAPHIC] [TIFF OMITTED] T6305.063

[GRAPHIC] [TIFF OMITTED] T6305.064

[GRAPHIC] [TIFF OMITTED] T6305.065

[GRAPHIC] [TIFF OMITTED] T6305.066

[GRAPHIC] [TIFF OMITTED] T6305.067

[GRAPHIC] [TIFF OMITTED] T6305.068

[GRAPHIC] [TIFF OMITTED] T6305.069

[GRAPHIC] [TIFF OMITTED] T6305.070

[GRAPHIC] [TIFF OMITTED] T6305.071

[GRAPHIC] [TIFF OMITTED] T6305.072

[GRAPHIC] [TIFF OMITTED] T6305.073

[GRAPHIC] [TIFF OMITTED] T6305.074

[GRAPHIC] [TIFF OMITTED] T6305.075

[GRAPHIC] [TIFF OMITTED] T6305.076

[GRAPHIC] [TIFF OMITTED] T6305.077

[GRAPHIC] [TIFF OMITTED] T6305.078

[GRAPHIC] [TIFF OMITTED] T6305.080

    Mr. Doolittle. And the statement by Howard L. Hills.
    [The prepared statement of Mr. Hills follows:]

                     Statement of Howard L. Hills*

    In 1982 President Reagan's Ambassador for Micronesian 
political status negotiations was instructed, as a result of a 
National Security Council interagency policy review, to seek 
the earliest possible termination of the U.N. trusteeship under 
which the U.S. had administered vast island territories in the 
mid-Pacific since 1947. This was for reasons the most important 
of which included the increasingly significant role of the U.S. 
Army's missile testing range at Kwajalein Atoll in the Marshall 
Islands in U.S. national security planning and programs.
    While the international trusteeship regime gave the U.S. 
the legal authority to continue its strategic programs in the 
islands, it also gave the Soviet Union a platform in the 
Security Council and Trusteeship Council for propagandizing 
against and attempting to meddle in U.S. national security 
affairs, including what came to be known as the Strategic 
Defense Initiative. These considerations reinforced Reagan 
Administration determination to end the trusteeship in favor of 
a treaty-based relationship with a self-governing Republic of 
the Marshall Islands (RMI).
    The single greatest obstacle to termination of the 
trusteeship with respect to the Marshall Islands was the 
difficult legacy of U.S. nuclear testing program carried out at 
Bikini and Enewetak from 1946 to 1958, and the unresolved 
question of U.S. responsibility for measures to address 
resulting injuries to persons and damage to lands. Following 
the establishment of constitutional government in the Marshall 
Islands, difficult negotiations regarding political status and 
the nuclear claims issues ensued. Although the final agreements 
reached in this process were imperfect and faced criticism in 
the RMI as well as in the United States, the RMI national 
government ultimately adopted a clear and unequivocal policy in 
support of the U.S. with respect to trusteeship termination and 
establishment of a bilateral strategic military alliance under 
the Compact of Free Association.
    This enabled the U.S. to continue its strategic programs in 
the RMI, and the RMI achieved national sovereignty while 
preserving a close economic, social and political relationship 
with the United States. Rather than allowing the nuclear claims 
issue to persist in a state of legal and political controversy 
preventing succession of the RMI to separate sovereignty, the 
RMI entered into a settlement under Section 177 of the Compact 
under which legal proceedings in U.S. courts were terminated 
and mechanisms to address the testing claims in the future 
through bilateral political measures were instituted. The legal 
effects of this settlement and the intentions of the parties 
regarding such future measures are discussed below.
    After approval of the Compact of Free Association by the 
U.S. Congress, including the nuclear claims settlement reached 
under Section 177 of that treaty, the RMI acted in concert with 
the U.S. in the Security Council, the Trusteeship Council and 
the General Assembly of the United Nations to sustain and win 
international acceptance of the measures taken by the U.S. in 
those bodies terminating the trusteeship. In the face of 
aggressive and high-visibility efforts led by the Soviet Union 
to prevent U.N. recognition of the legitimacy of the new status 
of the RMI and the bilateral relationship between our nations 
under the Compact, the RMI leadership and their diplomatic 
representatives stood boldly by the U.S. without wavering in a 
complex but successful effort to win international acceptance 
of this new American and RMI strategic alliance.
    With RMI support and leadership in this effort a factor 
critical to U.S. success, the international community soon 
moved to recognize the relationship defined by the Compact, 
including the nuclear claims settlement. The U.S. goal of a 
successful transition from the U.N. trusteeship to a treaty-
based bilateral relationship was achieved, and the SDI program 
activities at Kwajalein were vital to the success of U.S. 
global strategic policy in the 80's and 90's.
----------
* From February of 1982 until April of 1986, Howard Hills 
served as Legal Counsel and Department of Defense Advisor to 
the President's Personal Representative for Micronesian Status 
Negotiations. During this period he was assigned to the Office 
for Micronesian Status Negotiations (OMSN), an interagency 
office within the National Security Council system responsible 
for negotiating the Compact of Free Association and 
representing the Executive Branch before Congress with respect 
to its ratification.
    Subsequent to approval of the Compact, Hills served as 
Counsel for Interagency Affairs in the U.S. State Department's 
Office for Free Associated State Affairs. That office was 
responsible for establishment of government-to-government 
relations under the Compact.

Understanding the Nuclear Claims Settlement

    At the time the Reagan Administration undertook its policy 
review of unresolved issues preventing the termination of the 
trusteeship, there were strongly held views by some in Congress 
and the Federal agencies concerned that a settlement of claims 
arising from the testing program was untenable if not 
impossible. This was due to the fact that the full extent of 
injuries to persons and damage to property was either not yet 
known or not public due to national security classification 
policies at the time. However, it had become obvious that the 
measures that had been taken by the U.S. to address the effects 
of the testing up to that point, including ex gratia assistance 
to the affected peoples as authorized by Congress, were 
manifestly inadequate.
    For example, Congress limited compensation to individuals 
from four atolls and provided such measures as $25,000 
``compassionate payments'' for individuals who developed 
thyroid tumors and had to have these organs removed. Medical 
treatment was provided by Federal agencies and contractors, but 
there were dual treatment and scientific research purposes 
behind much of these services, and much of the available 
information about the medical condition of individuals, as well 
as radiological conditions and related health risks in the 
islands, remained either classified or unavailable to the 
islanders in a form they could comprehend.
    In the face of these and other troubling circumstances, the 
Carter Administration had agreed in principle that the U.S. 
should accept responsibility for the nuclear testing claims and 
terminate legal claims based on a negotiated political 
settlement. But an early draft of the Compact initialed by 
negotiators in 1980 left unanswered the question of how a 
settlement of claims arising from the testing program was to be 
structured. The Reagan Administration's policy review confirmed 
the need to negotiate a nuclear claims settlement based on 
recognition that the Marshall Islands could not emerge from 
trusteeship to self-government without first replacing the 
somewhat ad hoc measures that had been taken unilaterally by 
the U.S. up to that point with a more comprehensive program 
implemented bilaterally.
    However, the legal position of the U.S. as represented in 
court submissions by the Department of Justice was that 
sovereign immunity, statute of limitations, political question 
doctrine and other legal defenses precluded U.S. courts from 
exercising jurisdiction or adjudicating liability in the 
nuclear claims. Since Congress had never extended the 
constitutional rights of U.S. citizens to the trusteeship 
territories in any form binding upon the United States, the 
U.S. did not acquire sovereignty under the trusteeship, and 
Congress did not choose to legislatively waive U.S. legal 
defenses so the cases could be adjudicated in the Federal 
courts, a negotiated bilateral settlement that provided other 
means to address the claims presented itself as the only 
available alternative to the somewhat random scheme of ex 
gratia payments previously authorized by Congress in the 
exercise of its political discretion.
    The Carter Administration efforts to come up with a 
solution were stymied by strong and very explicit Congressional 
opposition to any settlement that expanded the compensation 
program beyond the four atolls identified as eligible for ex 
gratia assistance in Federal statutes (e.g. Public Law 95-134 
and Public Law 96-205). At the same time, leadership of 
Congressional committees with jurisdiction made it clear that 
any settlement which ended Congressional authority to determine 
the adequacy of past, present or future compensation would face 
committed opposition in the ratification process. To address 
these concerns, the Reagan Administration proposed to structure 
the settlement in a manner consistent with existing statutes to 
the extent practical. In addition, to preserve the residual 
authority of Congress over these claims a changed circumstances 
provision was included under which at the request of the RMI 
the Congress is to consider information and injuries discovered 
after the settlement enters into force to determine the 
adequacy of measures implemented under the settlement.
    The settlement reached attempted to accommodate the 
competing forces described above, and was then included in the 
Compact of Free Association signed by the United States, the 
Republic of the Marshall Islands, the Federated States of 
Micronesia and Palau in the 1982-1983 period. The Compact was 
approved by the U.S. Congress in 1985 and took effect in 1986 
(Public Law 99-239). The nuclear claims settlement concluded 
pursuant to Section 177 of the Compact was expressly 
incorporated into the Compact, as approved by Congress in the 
form of a treaty and Federal statute law. As reflected in 
Section 177(b) of U.S. Public Law 99-239, under the final 
Compact the U.S. agreed to make ``provisions for the just and 
adequate settlement of all claims which have arisen . . . or 
which in the future may arise'' from the nuclear testing 
program.
    Thus, one way to understand the Section 177 Agreement is as 
a substitute mechanism to replace the programs instituted by 
Congress acting unilaterally with a structured process for 
continuing on a bilateral basis a program of political measures 
to compensate and address the legacy of the nuclear tests. In 
accordance with the end of trusteeship status and the 
termination of U.S. authority over the nationals of the new 
republic, under this bilateral mechanism the RMI would act as 
sovereign on behalf of its citizens in carrying out the 
settlement.
    In addition, the settlement provided for a 300 percent 
increase over the funding which Congress had previously 
established for making ex gratia payments under a series of 
statutes cited in Appendix A of the settlement agreement. 
Specifically, from 1946 to 1980 the ex gratia payments Congress 
had authorized totaled approximately $50 million for support to 
dislocated communities, scientific and medical programs, and 
cash payments to individuals. Under the Section 177 Agreement, 
$150 million was paid to the RMI to finance further 
compensation and measures through a trust fund established for 
that purpose.
    However, it is imperative to a legally and politically 
correct understanding of the settlement to recognize that the 
amount of funding provided under the Section 177 Agreement was 
a political determination by the parties and was not based in 
whole or in part on an effort to assess or compute actual 
damages or just compensation for specific injuries or damage to 
property. Indeed, the amount provided was based on a U.S. 
political judgment as to the level of resources the U.S. should 
offer to establish and sustain the settlement politically in 
the RMI and Congress.
    If the U.S. Congress or Executive Branch believed that 
litigation in the Federal courts would have resolved the legacy 
of the nuclear testing program in a satisfactory way, allowing 
the claimants their ``day in court'' to seek damages would have 
been one way to end, as opposed to fulfill, U.S. responsibility 
for the claims. But the U.S. believed litigation brought by 
Marshallese citizens in the U.S. courts would not result in a 
remedy, or might produce remedies unsatisfactory to the 
claimants and the RMI. At the same time, this would have 
reduced or eliminated political support in Congress and the 
Executive Branch for funding to establish a bilateral program 
to address the claims based on a continued U.S. role agreed to 
by the RMI under the Compact.
    This, however, meant that the RMI and U.S. would have a 
continuing responsibility to evaluate and determine the 
adequacy of the political measures being taken to address the 
effects of the nuclear testing program based on all available 
knowledge and information, and on the results of the measures 
taken under the settlement. Thus, it would be wrong to conclude 
that the purpose of the Section 177 was to make the nuclear 
testing claims ``go away'' so that the Federal Government would 
never have to revisit the question of the adequacy of the 
measures implemented under the initial terms of the settlement.
    To the contrary, the termination of legal process was 
predicated on continuation of the political determination of 
the adequacy of the settlement by both the RMI and the U.S. 
Congress. Indeed, the Preamble of the settlement states that 
the purpose of the agreement is to ``create and maintain, in 
perpetuity, a means to address past, present and future 
consequences of the nuclear testing program.''
    I personally addressed these issues in statements submitted 
to Congress on behalf of the Reagan Administration during 
Congressional hearings on the Section 177 Agreement. For 
example, my statement for the record of the Hearing on S.J. 
Res. 286, Committee on Energy and Natural Resources, U.S. 
Senate, May 24, 1984, included the following explanation:

        ``. . . the Marshall Islands Government may seek further 
        assistance from Congress should changed circumstances render 
        the terms of the agreement clearly inadequate . . . In brief, 
        the Section 177 Agreement does not foreclose further measures 
        for the benefit of the claimants, and they will have access in 
        the future to an impartial claims tribunal for the purposes of 
        obtaining payments in addition to those provided under the 
        agreement. The only requirement is that they be able to prove 
        their claims in accordance with the procedures and standards 
        promulgated by the tribunal in accordance with the Section 177 
        Agreement.''
    Thus, the RMI and Congress are faced in 1999 with the same 
questions they faced in 1982. Are the politically determined measures 
carried out in lieu of a legal process to adjudicate claims arising 
from the nuclear testing program adequate legally and morally to 
sustain the political, economic, and social relationship that exists 
between the U.S. and the Marshall Islands? Will the existing measures 
sustain the relationship between our peoples in the future, or do 
additional measures need to be taken as a result of the information and 
knowledge gained as a result of our experience under the Section 177 
Agreement?
    Currently, Mr. Hills has a law practice in Washington D.C. that 
includes representation of the people of Rongelap regarding the program 
to resettle their islands in the RMI. Rongelap resettlement is not 
funded or governed under the terms of the Section 177 Agreement.

    Mr. Doolittle. And then finally here the statement of the 
people of Utirik to the House Resources Committee. So without 
objection those statements will be admitted into the record.
    [The prepared statement of the People of Utirik follows:]
    [GRAPHIC] [TIFF OMITTED] T6305.079
    
    [GRAPHIC] [TIFF OMITTED] T6305.081
    
    [GRAPHIC] [TIFF OMITTED] T6305.082
    
    [GRAPHIC] [TIFF OMITTED] T6305.083
    
    [GRAPHIC] [TIFF OMITTED] T6305.084
    
    [GRAPHIC] [TIFF OMITTED] T6305.085
    
    [GRAPHIC] [TIFF OMITTED] T6305.086
    
    [GRAPHIC] [TIFF OMITTED] T6305.087
    
    Mr. Doolittle. I also understand that we have a statement 
submitted by Mr. William Robison, who, I guess, was invited to 
be present but could not be. Anyway, without objection his 
statement will be submitted for the record.
    [The prepared statement of Mr. Robison follows:]
    [GRAPHIC] [TIFF OMITTED] T6305.088
    
    [GRAPHIC] [TIFF OMITTED] T6305.089
    
    [GRAPHIC] [TIFF OMITTED] T6305.090
    
    [GRAPHIC] [TIFF OMITTED] T6305.091
    
    [GRAPHIC] [TIFF OMITTED] T6305.092
    
    [GRAPHIC] [TIFF OMITTED] T6305.093
    
    [GRAPHIC] [TIFF OMITTED] T6305.094
    
    [GRAPHIC] [TIFF OMITTED] T6305.095
    
    [GRAPHIC] [TIFF OMITTED] T6305.096
    
    [GRAPHIC] [TIFF OMITTED] T6305.097
    
    [GRAPHIC] [TIFF OMITTED] T6305.098
    
    [GRAPHIC] [TIFF OMITTED] T6305.099
    
    [GRAPHIC] [TIFF OMITTED] T6305.100
    
    [GRAPHIC] [TIFF OMITTED] T6305.101
    
    [GRAPHIC] [TIFF OMITTED] T6305.102
    
    [GRAPHIC] [TIFF OMITTED] T6305.103
    
    [GRAPHIC] [TIFF OMITTED] T6305.104
    
    [GRAPHIC] [TIFF OMITTED] T6305.105
    
    [GRAPHIC] [TIFF OMITTED] T6305.106
    
    Mr. Doolittle. We have three witnesses on this panel. The 
Honorable Oscar deBrum, chairman of the Nuclear Claims 
Tribunal, Majuro, Marshall Islands; Dr. John Mauro from Sanford 
Cohen and Associates, McLean, Virginia; and Mr. Allan C. B. 
Richardson, scientific consultant to the people of Enewetak in 
Bethesda, Maryland.
    Gentlemen, we welcome you and Mr. deBrum, you are 
recognized for your statement.

   STATEMENT OF HON. OSCAR deBRUM, CHAIRMAN, NUCLEAR CLAIMS 
                            TRIBUNAL

    Mr. Oscar deBrum. Thank you, Mr. Chairman, and good morning 
members of the Committee. On behalf of my fellow judges and 
officers and staff of the Nuclear Claim tribunal, I would like 
to express our gratitude to you for conducting this oversight 
hearing on the status of nuclear issues in the Marshall 
Islands.
    I am honored to have been asked to testify before this 
Committee and its predecessor for many years, but I am now 
among the rapidly dwindling group of men and women whose 
experience with Americans spans the entirety of our people's 
association with you.
    I was a young man, young boy, 15 years of age, attending 
Japanese school in Jaluit in 1944 when I beheld the sight which 
I will never forget as long as I live. The arrival of an 
enormous fleet of new American warships the size of which I 
could never have imagined in my wildest dreams.
    With the American administration which followed the defeat 
of the Japanese forces in the Marshall Islands, I quickly came 
to learn firsthand of the American spirit of generosity and 
kindness as well as the courage of American servicemen who came 
from all walks of life, from all parts of your country, great 
country, to fight the distant war to preserve your democracy 
and expand your democratic principles to the world.
    It has been my profound conviction since your countrymen 
came to our shore over a century ago that America's intentions 
are honorable and its motives are noble. But to us, a phrase 
used frequently in this setting and I quote, ``mistakes were 
made.'' And as a result of that most notorious law, the law of 
unintended consequences, our people became the victim of 
American policies which were meant only to develop a deterrent 
to and to prevent future wars.
    Mr. Chairman, if you were chairing a hearing of our 
tribunal instead of chairing this hearing today, you would find 
it as difficult as I do to explain unintended consequences, a 
policy to a family which has experienced real suffering as a 
result of those policies. These real human stories are what I 
am here today and I hear also every day, day after day, as the 
tribunal is charged with the responsibility of making final 
determination of Marshallese claims related to the nuclear 
testing program.
    The challenge has been to address these claims in a manner 
which is both fair to the claimants and rational and 
justifiable in view of the evidence available. Throughout its 
existence, the tribunal has sought information and expert 
advise about the testing program and its effect on human health 
from a wide variety of sources.
    In late 1990 the tribunal became aware of U.S. legislation 
known as the Downwinders' Act, which had been passed into law 
by the Congress earlier that year. In that Act the Congress 
established a program of compensation on a presumptive basis 
for specified diseases to U.S. civilians who were physically 
present in any affected area during the period of nuclear 
testing in Nevada.
    The tribunal saw that such a presumptive approach reflected 
both the needs for an efficient, simple, and cost-effective 
program and a recognition of the difficulties of individual 
proof of causation associated with the injuries due to the 
exposure to ionizing radiation.
    Between 1946 and 1958, the United States conducted 67 
nuclear tests in the Marshall Islands, all of which were 
atmospheric. The most powerful of these tests was the BRAVO 
shot, a 15-megaton device detonated on March 1, 1954, at Bikini 
atoll. That test alone was the equivalent to 1,000 Hiroshima 
bombs that ended the second world war.
    While the BRAVO shot is well known, 17 other tests in the 
Marshall Islands were in the megaton range and total yield of 
which was--of the 67 tests was 108 megatons, the equivalent of 
more than 7,000 Hiroshima bombs and 93 times the total of 
Nevada atmospheric tests.
    Further, the U.S. Center for Disease Control in July 1998 
estimated that 6.3 billion curies of radioactive iodine-131 was 
released to the atmosphere as a result of the testing in the 
Marshall Islands. That amount is 42 times the 150 million 
curies released as a result of the testing in Nevada.
    The tribunal's Personal Injury Compensation Program was 
established by regulation in 1991 and includes the diseases 
identified in the Downwinders programs and additional diseases 
for which there was credible evidence from the research 
findings of the studies of the Japanese atom bomb survivors 
conducted by the Radiation Effects Research Foundation and from 
the conclusion contained in the 1990 report of the National 
Academy of Science Committee on Biological Affects of Ionizing 
Radiation.
    Also pending before the tribunal are many claims for damage 
to property. A major category of damage in the class-action 
property claim is for cleanup of these areas. In December, the 
December--the tribunal issued a written decision in which it 
adopted the policies and criteria set out by the U.S. 
Environmental Protection Agency for dealing with certain sites 
with radioactive contamination.
    In 1997 the EPA directed that if a dose assessment is 
conducted at the site, then 15 millirems per year effective 
dose equivalent should generally be the maximum dose limit for 
humans. To date, no compensation has been awarded for property 
damage, but the first such award should be made within the next 
few months.
    One of the main issues that I wanted to address in my 
testimony today is the immediate shortfall of funds for payment 
of personal injury award. As of April 30, 1999, a total of 
$67.7 million has been awarded on behalf of 1,613 individuals 
for personal injuries. This compares to a common total 
agreement--total agreement--excuse me, sir--1,509 award 
totaling $75.4 million that had been made under the 
Downwinders' program.
    But the tribunal is now nearly $23 million short of being 
able to fully compensate all of the justified claims of 
physical effects of the test. It particularly pains me that our 
tribunal continues to fall short of its ability to ease our 
people's suffering from financial compensation because our fund 
is manifestly inadequate for this purpose because we are 
obliged to make payment in installments rather than make full 
payment on award.
    Six hundred and thirty two people have already died without 
receiving full compensation for their personal injuries. The 
situation makes it necessary to make this appeal to you 
personally on behalf of the awardees who believe that the best 
solution is to request a lump sum payment from the U.S. so that 
the award to the deceased people and others who are suffering 
from terminal medical conditions may be paid in full quickly as 
possible.
    As detailed in my written submission, the amount clearly 
needed is approximately $22.9 million. In short, Mr. Chairman, 
we need your help, and I hope that the Committee will provide 
guidance in how to formally request for this amount and how we 
can best pursue it effectively and efficiently.
    In conclusion, there was much that was proper and 
appropriate in the 177 agreement, but time and experience have 
demonstrated that the funding of the activities and the program 
specifically provided for in the agreement was inadequate.
    Thank you, Mr. Chairman for hearing our testimony. We will 
be very happy to answer any questions you might have. Thank 
you, sir.
    Mr. Doolittle. Thank you, sir.
    [The prepared statement of Mr. deBrum follows:]
    [GRAPHIC] [TIFF OMITTED] T6305.107
    
    [GRAPHIC] [TIFF OMITTED] T6305.108
    
    [GRAPHIC] [TIFF OMITTED] T6305.109
    
    [GRAPHIC] [TIFF OMITTED] T6305.110
    
    [GRAPHIC] [TIFF OMITTED] T6305.111
    
    [GRAPHIC] [TIFF OMITTED] T6305.112
    
    [GRAPHIC] [TIFF OMITTED] T6305.113
    
    [GRAPHIC] [TIFF OMITTED] T6305.114
    
    [GRAPHIC] [TIFF OMITTED] T6305.115
    
    [GRAPHIC] [TIFF OMITTED] T6305.116
    
    [GRAPHIC] [TIFF OMITTED] T6305.117
    
    [GRAPHIC] [TIFF OMITTED] T6305.118
    
    [GRAPHIC] [TIFF OMITTED] T6305.119
    
    [GRAPHIC] [TIFF OMITTED] T6305.120
    
    Mr. Doolittle. Dr. Mauro, you are recognized for your 
testimony.
    Mr. Mauro. I would like to suggest that Mr. Richardson 
proceed first. The information that he will be covering sort of 
precurse the information that I will be covering.
    Mr. Doolittle. All right. That will be fine. Mr. 
Richardson, you are recognized, sir

 STATEMENT OF ALLAN C.B. RICHARDSON, SCIENTIFIC CONSULTANT TO 
                     THE PEOPLE OF ENEWETAK

    Mr. Richardson. Thank you, Representative Doolittle and 
other members of the Committee. Thank you for the opportunity 
to provide testimony today. My name is Allan Richardson. I am a 
consultant to the people of Enewetak and Bikini. I have 
submitted a written statement for the record. I will just 
summarize that statement here.
    By way of introduction, I would like to point out that I 
spent almost 30 years at EPA establishing standards for 
radiation before retiring a little over a year ago, as well as 
many years as the U.S. representative on various matters to the 
International Atomic Energy Agency and to the International 
Commission on Radiation Protection.
    This morning I would like to address a narrow topic: what 
standard should apply to the cleanup of the Marshall Islands, a 
standard that would define what is needed to adequately protect 
future health of the Marshallese. This question obviously must 
be answered before one can address what needs to be done and 
what the cost will be.
    I will address three points: The first is What standard 
applies to similar cleanups in the United States, a question 
that Congressman Miller asked earlier. Second, should this same 
standard apply in the Marshall Islands; and then, third, I will 
touch briefly on what the key provisions of the recommended 
standard are.
    First, to the question of what standard applies in the 
United States. The Marshall Islands testing was the final 
element of a massive U.S. weapons development program, as we 
all know. Almost all of the rest of that program was conducted 
at sites in the United States that are now under jurisdicion of 
the DOE. Those sites provide the appropriate model for similar 
cleanup situations in the United States because they involve 
the same kinds of materials, manmade radioactive materials.
    This nuclear weapons complex in the United States is now 
undergoing a massive cleanup. Just to give you some idea of the 
size of that cleanup, 99 percent of all soil contaminated with 
manmade radiation in the United States is located on sites that 
are involved in the U.S. nuclear weapons program.
    In my written testimony there is a chart that details 
radioactively contaminated U.S. sites and associated volumes of 
soil. By comparison, the amount of contaminated soil in the 
Marshall Islands is much less than 1 percent of that total 
amount.
    The applicable law for the cleanup of the Department of 
Energy sites is CERCLA, the Comprehensive Environmental 
Response, Compensation and Liability Act, otherwise known as 
Superfund. It applies to all of the DOE sites involved here. 
And as you probably know, the exercise of the Superfund 
authority involves a cooperative relationship between the 
contaminater, the Environmental Protection Agency, and the 
State in which the site is located.
    EPA sets the rules, the States are involved in the 
selection of the remedy, and in this case the Department of 
Energy is responsible for the cleanup. There have been 
established, by regulation, general rules for the level of 
cleanup that is required.
    The relevant rule in this case is that the residual risk to 
the most exposed individuals that are expected to be on the 
site in the future should be less than 1 in 10,000 over their 
lifetimes. That standard was set in 1990. It applies to all 
kinds of hazardous contaminants, not just to radiation.
    In 1997, the agency established a standard specific to 
radiation, based on that general criterion. That standard is 
the number that you have heard several times today, 15 
millirems per year. Clearly, this is the standard that is 
applied in the United States to situations like that in the 
Marshall Islands. It applies to well over 99 percent of all 
such contamination in the United States.
    The second question was: Should the U.S. standard apply in 
the Marshall Islands? The relevant international authority on 
radiation matters is the International Atomic Energy Agency. It 
was established in 1957 at the urging of President Eisenhower, 
and the United States has strongly supported it ever since.
    The IAEA enunciated the applicable principle for this case 
in 1985, many years ago. What they said--and I will quote them 
here--is that: ``As a basic principle, policies and criteria 
for radiation protection of populations outside national 
borders . . . should be at least as stringent as those for the 
population within the country of release.''
    The U.S. has consistently followed this position in the 
Marshall Islands over the years, although sometimes hesitantly 
and in a changing way, as standards in the U.S. have evolved.
    The U.S. also observes this principle in more general ways. 
An example is the Basel Convention, which forbids the disposal 
of domestic toxic and hazardous materials in foreign countries 
unless the standards of the country of origin are met. There is 
a similar provision for radioactive waste by the International 
Atomic Energy Agency that we also espouse.
For this case the important point is that if the Marshall 
Islands were in the United States, the standard that applies to 
all of the DOE complex, 99 percent of U.S. manmade 
contamination, would apply.
    I think the conclusion, therefore, is inescapable that, 
under both international and U.S. precedents and practice, the 
Marshall Islands are entitled to the same level of protection 
from the radiation contamination caused by U.S. weapons 
programs that we provide our own citizens.
    The Nuclear Claims Tribunal, as Mr. deBrum just mentioned, 
came to the same conclusion and adopted the U.S. standard as 
the basis for adjudicating claims on December 31 of 1998.
    Finally, a few brief observations about the standards 
themselves. The risk under the standard is 1 in 3,000. This 
risk lies at the extreme upper end of the acceptable risk range 
under Superfund. The risk of 1 in 3,000 is approximately the 
risk that you would project for an atoll in the Marshall 
Islands, because the rough size of the population that you 
expect to see on a single atoll is about 3,000.
    The standard is not without burdens. There is regulatory 
flexibility in the application of the standard that allows the 
use of ``institutional controls'' to reduce environmental 
damage and costs--if the affected population agrees to this.
    Institutional controls are measures that do not remove the 
contamination, but instead reduce exposure through methods that 
require continuing intervention by man. A good example for the 
Marshall Islands is the proposal to use potassium to suppress 
the uptake of radioactive cesium in foodstuffs.
    The benefit of using this measure is that much less soil 
needs to be removed and much less environmental damage and cost 
is incurred. The cost of using the measure--the burden--is the 
burden of maintenance of the control measures for many, many 
decades and, of course, the risks that accrue if the control 
measure fails to be maintained.
    That concludes my testimony. I would be pleased to answer 
any questions.
    [The prepared statement of Mr. Richardson follows:]
    [GRAPHIC] [TIFF OMITTED] T6305.121
    
    [GRAPHIC] [TIFF OMITTED] T6305.122
    
    [GRAPHIC] [TIFF OMITTED] T6305.123
    
    [GRAPHIC] [TIFF OMITTED] T6305.124
    
    [GRAPHIC] [TIFF OMITTED] T6305.125
    
    [GRAPHIC] [TIFF OMITTED] T6305.126
    
    Mr. Doolittle. Thank you. Dr. Mauro, you are recognized.

   STATEMENT OF DR. JOHN MAURO, SANFORD COHEN AND ASSOCIATES

    Dr. Mauro. Thank you for inviting me here today and thank 
you to the people of Enewetak for asking me to come. I work for 
Sanford Cohen and Associates. This is a small company in 
McLean, Virginia, that specializes in risk assessment.
    My background is specifically in the area of health, 
physics, and radioecology. This is the study of radioactivity 
in the environment and its effects on people. I have been 
performing analyses of the type that I will be summarizing here 
for about the past 25 years at hundreds of different sites 
throughout the United States.
    This past September the people of Enewetak retained SC&A to 
peform an independent evaluation of the radiological conditions 
on Enewetak atoll, specifically, and to assess what needs to be 
done to remediate the atoll so that it would comply with the 
clearance criteria, or the acceptance criteria, for cleanup 
that was summarized by Mr. Richardson.
    We started our investigations in October, and we completed 
them in April. In April we appeared before the tribunal 
presenting testimony on our findings. The 12-page summary that 
I provided you with there summarizes this, but I also have a 
full copy of our report that I would like to leave with the 
Committee. It details our findings.
    What we basically did was collect all of the data that the 
Department of Energy has collected since the 1970s, literally 
tens of thousands of measurements. We did not perform any 
measurements of our own. We used that data to perform 
mathematical modeling of if the people of Enewetak were to 
return to the northern islands--by the way, some of the 
questions that were raised earlier, as I proceed I would like 
to respond to some of those questions because I think they are 
important.
    The people of Enewetak are currently living on the southern 
islands, Enewetak island. But the northern islands such as 
Enjebi, homeland for many of the Enewetak people, are currently 
not being occupied because of radiologic concerns.
    What we did--what I did as part of a team of people at SC&A 
was to gather all of the data and evaluate the radiation doses 
that might occur to people who would relocate to the northern 
islands tomorrow and assess what kind of radiation doses they 
would receive and what needs to be done to correct the problem.
    What we found out is that the radiation doses, if the 
people of Enewetak should return to Enjebi, for example, one of 
the many islands north, in the year 2000, the doses would be 10 
to 100 to 500 times higher than the current radiation 
protection standards we are using in the United States, an 
unacceptable situation.
    We then proceeded to ask what could be done about that. We 
evaluated a broad range of alternative remediation strategies. 
We actually costed out 30 different approaches to remediate the 
problem. And in doing so, we used five criteria to sort of 
score or evaluate the merits of all of the alternatives to fix 
the problem.
    First, whatever the remedy, it should allow the people of 
Enewetak to return to their homes in the northern islands as 
soon as possible. If you were to wait for the radioactivity to 
decay, it turns out the important radionuclide, the cesium 137 
with a 30 year half life, it would take over 100 years to decay 
down to levels that were acceptable.
    Second, the cleanup has to be protective. That means 
achieve the cleanup criteria of 15 millirem per year. Third and 
very important, whatever strategies that are adopted it 
minimizes the ecological damage and incorporates measures that 
restores the ecosystem to a self-sustaining condition.
    Fourth, cost effective; and finally, permanent, that is, 
whatever solution or remedy strategy is selected, it should be 
a permanent solution. Based on our investigations, we 
identified a strategy to recommend, and it consists of five 
elements.
    First, scrape away the soil that is contaminated at the 
elevated, the higher levels. That represents an area of about 
550 acres and 223,000 cubic meters of soil. We considered a lot 
of different ways of getting rid of that soil, disposing of it 
as low-level waste, shipping it to the United States and 
disposing of it in one of the low-level waste facilities. 
Extremely expensive.
    We feel that the most prudent and cost-effective use of 
that soil is to use it as a causeway, to construct a causeway 
between Enewetak island and its neighboring Medren island. The 
reason we believe this to be acceptable is the problem with 
cesium in the soil on the northern islands is that if plants 
are grown, coconuts, pandanus and other locally grown foods, it 
accumulates in the food.
    So it is the food pathway that is the problem. If it is 
used as a fill material for a causeway, that problem goes away. 
In about 100 years, the radioactivity itself will go away. We 
feel that is the most cost-effective and productive use of that 
material.
    By the way, that aspect of our analysis is where we differ 
significantly from DOE. We think a lot more scraping needs to 
be done to achieve the cleanup criteria. The second thing where 
we do agree with DOE is that, yes, on areas where the 
contamination is at a lower level and after you have scraped 
away the higher levels, the use of potassium to suppress the 
uptake of cesium in the coconut and pandanus, et cetera, will 
be very effective in controlling exposures; but under a 
carefully monitored program, this is a type of institutional 
control that Mr. Richardson mentioned, the areas that are 
scraped will need to be rehabilitated and the agriculture 
properties will have to be restored when you scrape away soil.
    There is another element that makes up the program. There 
is also a special unique problem in one of the northern islands 
called the Runit island that has an area called the Fig/Quince 
Area where there are some elevated levels of plutonium.
    This is the only area that our review of the data reveals 
that has a problem in addition to cesium and that requires a 
special cleanup. That is part of our proposed strategy. Based 
on that recommendation, we have estimated the cost. Including a 
15 percent contingency, the cost of that program, the 
combination program, would be $115 million. That concludes my 
statement.
    [The prepared statement of Mr. Mauro follows:]
    [GRAPHIC] [TIFF OMITTED] T6305.127
    
    [GRAPHIC] [TIFF OMITTED] T6305.128
    
    [GRAPHIC] [TIFF OMITTED] T6305.129
    
    [GRAPHIC] [TIFF OMITTED] T6305.130
    
    [GRAPHIC] [TIFF OMITTED] T6305.131
    
    [GRAPHIC] [TIFF OMITTED] T6305.132
    
    [GRAPHIC] [TIFF OMITTED] T6305.133
    
    [GRAPHIC] [TIFF OMITTED] T6305.134
    
    [GRAPHIC] [TIFF OMITTED] T6305.135
    
    [GRAPHIC] [TIFF OMITTED] T6305.136
    
    [GRAPHIC] [TIFF OMITTED] T6305.137
    
    [GRAPHIC] [TIFF OMITTED] T6305.138
    
    Mr. Doolittle. Thank you very much. Mr. deBrum, did I 
understand you to say that the fund is going to be $23 million 
short in order to compensate the people the law provides for?
    Mr. Oscar deBrum. I think it was $29 million. Yes, sir.
    Mr. Doolittle. But there is some discussion now, isn't 
there, about whether it should be--the law should be changed 
and applied to anyone affected, not just to people in those 
four northern atolls? Is that correct?
    Mr. Oscar deBrum. Well, yes, Mr. Chairman. We consider that 
all of the people of the Marshall Islands got affected by the 
radiation. But those directly affected by the four atoll--
people--essentially have been people who are dying without 
receiving full compensation. This is the reason why we are 
asking for the additional $29 million so that we----
    Mr. Doolittle. Just to deal with the ones with the 
initial--the standard that is in the law now, the four atolls?
    Mr. Oscar deBrum. Right.
    Mr. Doolittle. Just out of curiosity, since you grew up in 
the Marshall Islands, do you remember seeing any of these 
experiments?
    Mr. Oscar deBrum. What was the question, sir?
    Mr. Doolittle. Were you able to visually see any of these 
bombs exploding?
    Mr. Oscar deBrum. From a distance, yes. I was in Kwajalein 
when BRAVO shot was----
    Mr. Doolittle. So you could see the----
    Mr. Oscar deBrum. Oh, yes. No one could have missed it. It 
turned night--early morning into daylight. That is how bright 
it was.
    Mr. Faleomavaega. Mr. Chairman, do you yield?
    Mr. Doolittle. Yes.
    Mr. Faleomavaega. I just want to note the gentleman from 
Hawaii, Mr. Abercrombie, testified earlier in a subcommittee 
meeting that even those living in Hawaii literally saw the 
whole sky light just like noonday when one of our nuclear 
detonations took place in the Marshalls.
    So to the extent of he being exposed--even those of us in 
Samoa also saw this. You are talking about 6,000 or 7,000 miles 
away from the detonation point. Thank you, Mr. Chairman.
    Mr. Doolittle. Remarkable.
    Mr. Oscar deBrum. Mr. Chairman, we stand corrected on that. 
The figure was $22.9 million.
    Mr. Doolittle. Thank you.
    Mr. Oscar deBrum. Thank you.
    Mr. Doolittle. Are you going to raise during these 
negotiations with the United States government--are you going 
to raise this issue of whether the area deemed to be affected 
should be broadened from what it presently is in the law?
    Mr. Oscar deBrum. Mr. Chairman, I brought an attorney from 
my office for a question such as this. With your permission, I 
would like to have his opinion.
    Mr. Doolittle. Certainly.
    Mr. Oscar deBrum. Mr. Jim Plasman.
    Mr. Plasman. Mr. Chairman, James Plasman. I am also a 
member of the tribunal.
    Mr. Doolittle. You can take a seat right down there at the 
end, if you would like.
    Mr. Plasman. To the extent that that question involves 
negotiations between the U.S. and the government of the 
Marshall Islands, the tribunal will not be formally involved in 
that matter; and I think that question you should probably be 
addressing to the government itself.
    Mr. Doolittle. Well, let us see. I think that the panel has 
passed us by already. We will submit it in writing. How is 
that? I would be interested in the opinion.
    There is still a lot of cleanup left to do. Do we sprinkle 
potassium on places in Nevada and Utah to be able to grow food, 
or is that something that we just do in the Marshall Islands?
    Dr. Mauro. There is no plan to occupy the contaminated 
areas at the Nevada test sites. However, the use of potassium 
has been demonstrated to be effective. If, in fact, you plan to 
grow material in soil that contains slightly elevated levels of 
cesium, it will get the levels down in the plants that grow 
there. The work that we performed, it is safe and effective to 
the limited extent that it can achieve what you are trying to 
achieve.
    Mr. Doolittle. I have heard about the deaths from cancer. 
Is there any problem with passing on the problems to the babies 
that are born, or is it just pretty much limited to cancer and 
those kinds of things to the affected individuals?
    Dr. Mauro. What we did in terms of looking at this problem 
was, in addition to calculating the radiation dose that would 
occur to people if they were to return without any additional 
remediation, we also estimated the collective health impact on 
the population that would live there in the future for the next 
several hundred years would also bear a potential health burden 
of adverse health effects which includes primarily cancer but 
also some genetic effects.
    We estimated that the collective health burden on the 
population would probably be about 10 additional serious 
illnesses, including cancer and birth defects if there is no 
additional cleanup.
    Mr. Doolittle. I realize my time is up. Indulge me in one 
further question here. I guess Nevada and the Marshall Islands 
and the only other place that these weapons have actually been 
used is in Japan; is that right?
    Dr. Mauro. I believe so.
    Mr. Doolittle. What does the data show about there in 
Hiroshima and Nagasaki where similar weapons were used? Do they 
continue to have problems until this day?
    Mr. Richardson. Practically all of our risk estimates for 
radiation damage are based on the follow-up of the people that 
were exposed in Hiroshima and Nagasaki. That is the world's 
largest and most long-continuing epidemiological study.
    It still continues today and involves many hundreds of 
thousands of people. It provides one of the best-documented 
bases for risk estimates of a carcinogen that we have--the most 
recent review by the National Academy of Sciences of the risks 
that were demonstrated in Hiroshima and Nagasaki places a 
factor of only two or three--uncertainty at the 95 confidence 
level. These are the risk estimates generally used in radiation 
protection today.
    Mr. Doolittle. Actually, there are more places. The French 
have done some testing and the Soviet Union. I guess there are 
others, aren't there?
    Mr. Richardson. Yes, but there are not good records on the 
exposures in most of those places.
    Mr. Doolittle. Okay. Thank you. Mr. Faleomavaega is 
recognized.
    Mr. Faleomavaega. I thank you, Mr. Chairman. Mr. deBrum, I 
just wanted to follow up on your statement. You mentioned in 
reference that Congress enacted the Downwinders' Act of 1990. 
And the fact that those who were affected during the Nevada 
testing program that the total--you are talking about kiloton 
or megaton levels was about 1.16 megatons, compared to what the 
Marshallese were exposed to is 93 megatons.
    I didn't get the gist of your statement, Mr. deBrum, how 
much compensation that Congress gave to those that were exposed 
to the Nevada test sites. What was the total appropriation? Was 
that--well, anyway, we will get that for the record, as my time 
is running out.
    You also indicated, Mr. deBrum, that on a comparative 
basis, those who were exposed to iodine-131 in measurement in 
curies, the Marshalls, 6.36 billion curies; the Nevada test 
site 153 million curies; Chernoble disaster was 40 million 
curies; and the Hanford operation was only 739,000 curies.
    Dr. Richardson, can you explain what this iodine-131 does 
to human beings in a comparative analysis made of Mr. deBrum's 
statement?
    Mr. Richardson. The effect of iodine exposure is thyroid 
cancer as well as thyroid nodules. The current estimates on the 
rate of lethality for thyroid cancer, in portions of the world 
where there is good hospital care immediately available, easily 
available, is about one tenth. In areas where good medical care 
is not nearly as well available, the prognosis is not so good.
    Mr. Faleomavaega. Dr. Richardson, I had raised an earlier 
question with Secretary Seligman, and I am still not satisfied 
with his response. If I were a nuclear victim being duly 
exposed seriously to nuclear contamination as a Marshallese 
citizen would be and if I wanted to get the best medical advice 
for examination, where would I go today?
    Mr. Richardson. I would hesitate to answer that question. 
There are many experts in this country. It would depend on the 
type of radiation damage or sickness or cancer that was 
involved.
    Mr. Faleomavaega. Let us say iodine-131 exposure.
    Mr. Richardson. The interesting thing about cancer that is 
caused by radiation is that it is no different from cancers 
that are caused by other agents. It is cancer. And so the best 
places to go if you have radiogenic cancer are places that are 
well known generally for cancer treatment in this country. 
There is no special place to go for a radiation-induced cancer.
    Mr. Faleomavaega. So cancer I get from nuclear detonation 
is no different than the cancer that I get from other sources?
    Mr. Richardson. That is correct.
    Mr. Faleomavaega. What about if the frequency of the cancer 
happens to be from nuclear contamination?
    Mr. Richardson. I am not sure I follow the question.
    Mr. Faleomavaega. Let us say that the whole community in 
Rongelap were exposed seriously to nuclear contamination and 
that the frequency of thyroid gland cancer, leukemia and all of 
these things simply because they have more direct exposure than 
any other people, if I really wanted to seriously take care of 
these people as best can--this is why I get very upset because 
I didn't get the answer. I didn't get the answer. Where would I 
go today?
    The reason I raise Japan was they seem to be the only ones 
that are very serious about taking care of the human beings 
that were subjected to Hiroshima and Nagasaki.
    Mr. Richardson. What I would suggest is a very careful 
monitoring program be established in the population for early 
detection of any possible cancer which should then be treated 
in the normal way.
    Mr. Faleomavaega. Which we didn't do a very good job. Would 
you agree or disagree?
    Mr. Richardson. I would agree.
    Mr. Mauro. I want to put a pitch in for New York University 
Medical Center where I received my doctorate. They had an 
extensive program and had the world's best epidemiologist and 
radiobiologist. That is where I would go.
    If I received an elevated dose of radiation, I would go to 
NYU Medical center, and I would consult with Dr. Arthur Upton 
and Dr. Roy Shore. And Dr. Roy Shore deals with epidemiological 
issues, and Dr. Upton deals with medical issues.
    Mr. Faleomavaega. Dr. Mauro, the problem we have--we had a 
hearing in 1994. We had nuclear scientists disagree even among 
themselves, one holding up the facts and information simply 
because he wasn't going to get paid. That to me is just absurd, 
and I just could not believe that this happens. Mr. Chairman, I 
would really like some more time.
    Mr. Doolittle. Go ahead and take it.
    Mr. Faleomavaega. Dr. Richardson, I am glad you mentioned 
the fact that you were formerly involved with the international 
agency--is it the IAEA?
    Mr. Richardson. Yes, the International Atomic Energy 
Agency.
    Mr. Faleomavaega. You were directly involved with that 
agency?
    Mr. Richardson. I served on a series of consultant groups 
that wrote many of their safety standards.
    Mr. Faleomavaega. I am totally confused at this point in 
time, Dr. Richardson, in terms of the standards that we apply 
for those who are exposed to nuclear contamination. You seem to 
suggest here that EPA has a different standard from DOE as far 
as U.S. standards are concerned?
    Mr. Richardson. DOE doesn't actually have a standard that 
applies to CERCLA sites. DOE cites other authorities' 
standards. The standard that is applied in the United States--
in the vast majority of cases--is the standard that I 
mentioned, the 15 millirems per year.
    Mr. Faleomavaega. You mentioned also that we should apply 
the international standard to the Marshallese?
    Mr. Richardson. No. What I said was that when you ask the 
question what standard should apply to the Marshallese, given 
that 15 millirems applies in the United States, the IAEA has 
provided the answer in the form of a principle which says that 
when a country exposes foreign nationals, it should apply to 
that situation the same standard that it would apply to its own 
people.
    Mr. Faleomavaega. Unbeknown to many Americans, the French 
Government conducted over 200 nuclear tests in the South 
Pacific in French Polynesia. You know what happened when Chirac 
broke the moratorium and continued the testing.
    Now, after all of these years of concerns, they literally 
made Swiss cheese out of this one atoll that they kept putting 
3,000 meters in depth of these nuclear detonation devices. Now 
the latest admission by the French Government just came out 
this week, I believe, that there begins now to be cracks or 
fissures within this atoll where these nuclear explosions took 
place.
    Do you have an opinion in terms of what might be happening 
if this fissure, or these cracks, of these 200 nuclear bombs 
that were exploded in this atoll, what might happen to the 
environment of the Pacific region?
    Mr. Richardson. That is really not a question that I am 
prepared to answer. That is a question for a geologist or an 
oceanographer.
    Mr. Faleomavaega. Well, let us say that if you were a 
closer advisor to the IAEA, what would be your recommendation 
for IAEA to do at this point in time because of this admission?
    Mr. Richardson. Quite frankly, I am not sure the IAEA would 
have any idea of what to do.
    Mr. Faleomavaega. Thank you, Dr. Richardson. My question 
this time is for Dr. Mauro. You mentioned that you made a study 
of Enewetak. Is this strictly an environmental study, or did 
you also do anything in terms of the people?
    Of the 67 nuclear bombs that we exploded in the Marshalls, 
44 were conducted in Enewetak. Are you aware of that, Dr. 
Mauro?
    Dr. Mauro. Yes, I am.
    Mr. Faleomavaega. How many people were exposed to this?
    Dr. Mauro. I didn't look into that. To answer your 
question, strictly environmental, our mandate was very narrow: 
collect the data, characterize the radiological conditions, and 
evaluate what the radiation doses and health risks would be if 
people were to return to those islands and what are some 
plausible ways of remediating that problem. No, I could not 
answer your question.
    Mr. Faleomavaega. Your recommendation as a result of this 
study that you conducted from October to April?
    Dr. Mauro. My recommendation is what I call a combined 
approach where you scrape away the contaminated soil that is 
above a given level, specifically 1.7 pico curies per gram and 
areas where the contamination that is remaining is above .37 
pico curies per gram use potassium.
    Mr. Faleomavaega. Your company doesn't do anything about 
conducting feasibility studies of nuclear storage programs, do 
you?
    Dr. Mauro. No. Most of our work we do for EPA and the 
organizations that regulate to the Department of Energy, as 
opposed to the Department of Energy.
    Mr. Faleomavaega. We did a nuclear storage thing in the 
Marshalls in this one atoll. Forgive me, Mr. deBrum. What was 
the name of the atoll?
    Mr. Oscar deBrum. Runit.
    Mr. Faleomavaega. About the size of three football fields. 
It is my understanding now there begins to be leakages 
underneath this beautiful storage facility that we provided.
    Dr. Mauro. Yes, I am familiar with that.
    Mr. Faleomavaega. Do you think your company might be 
contracted to go down there to find out if this thing is 
leaking?
    Dr. Mauro. There is no doubt that it is leaking. The 
question is is it substantially changing the inventory of 
radioactivity that is already in the sediments in the lagoon? 
We reviewed a lot of work that was done on that subject to see 
if, in fact, that could result in a significant public health 
issue.
    Part of our recommendation is that from the data that we 
looked at it appears that, yes, there is a very good likelihood 
that the material that is contained in the dome is continuing 
to leach and find its way into the lagoon.
    However, the additional curies that would be added is small 
compared to the curies that are there already. Based on the 
data that we are looking at, it appears that the fish are not 
accumulating the radioactivity. For all intents and purposes, 
the fish that have been sampled in the lagoon and in the nearby 
ocean contain levels of radionuclide that are well below the 
criteria.
    So on that basis, we consider the limiting pathway by far 
is cesium 137 in the soil and not the marine environment. 
Nevertheless, part of our recommendation is to include a 
comprehensive environmental measurements program around the 
Runit dome to confirm these findings.
    Mr. Faleomavaega. I don't know, Dr. Mauro, if you are aware 
that that sigitary poisoning, which is a very deadly toxin as 
it comes out of the reefs in the Pacific not only in the areas 
where these nuclear tests were conducted in French Polynesia, 
but this same level of toxin, sigitary poisoning, is also true 
in the Marshalls. Are you aware of that?
    Dr. Mauro. No, I am not.
    Mr. Faleomavaega. Mr. Chairman, I submit that--all I can 
say, Mr. Chairman, is the Marshallese people are good people. 
They are not here for handouts. They are just simply asking us, 
as they have been trying for how many years now, Mr. Chairman, 
for our government to meet and to measure up to what we have 
committed honorably to do for these people, and we have failed 
miserably.
    I sincerely hope, Mr. Chairman, that in the course of the 
coming months that we will give the Marshallese people their 
due. They are not asking for handouts. Thank you, Mr. Chairman, 
and I want to thank the members of the panel.
    Mr. Doolittle. Thank you. I too thank the members of the 
panel. I would ask you to respond expeditiously to any 
supplementary questions that we may tender to you. With that, 
we will excuse the members of this panel and the hearing is 
adjourned.
    [Whereupon, at 2 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
    Statement of Senator Henchi Balos, Bikini Atoll Representative, 
                       Marshall Islands Nitijela

    Thank you for the opportunity to appear before you today. 
With me are Mayor Tomaki Juda, Speaker Kessai Note, Councilman 
Lucky Juda, Council advisor Johnny Johnson, Trust Liaison Jack 
Niedenthal and legal counsel Jonathan Weisgall
    As you know, the U.S. Government moved us off our atoll in 
1946 and conducted 23 atomic and hydrogen bomb tests there over 
the next 12 years, including the largest bomb tests in U.S. 
history. Meanwhile, our people were moved first to Rongerik 
Atoll, where we nearly starved to death, then briefly to 
Kwajalein, and then finally to Kili in 1948.
    Sadly, Kili remains home to most Bikinians more than 53 
years after the testing began, and life there remains 
difficult. Kili is a single island. It has no lagoon. Bikini, 
with its 23 islands and 243-square mile lagoon, is thousands of 
times bigger. Kili has no sheltered fishing grounds, so the 
skills we developed for lagoon and ocean life are useless on 
Kili. This drastic change from life centered around fishing and 
canoeing to life on an isolated island with no fishing area 
continues to take a severe toll on our people.
    Let me briefly review the issues facing our people today:

    Radiological cleanup: We are using a Nuclear Claims 
Tribunal proceeding to get an accurate cost estimate for the 
radiological cleanup and resettlement of Bikini. We do not yet 
know the exact price tag, but it will greatly exceed the money 
in the Bikinians' Resettlement Trust Fund.
    You will be hearing today from the other atolls about the 
huge costs of the legacy of the U.S. nuclear testing program in 
the Marshall Islands, ranging from health care costs to 
property damages. These costs add up. In considering whether--
and how--to pay for them, I would like to make three points. 
First, the money appropriated by Congress for Bikini cleanup 
took into account only the cleanup of Bikini and Eneu, just two 
of Bikini Atoll's 23 islands. Second, permit me to quote 
Representative John Seiberling of Ohio, a former member of this 
Committee, who in 1984 said that ``there will be a question as 
to whether we should go as far as some of us think we need to 
go, including the restoration of Bikini.'' His answer: ``I 
would only say that the costs of this program are a tiny 
fraction of the costs of that nuclear testing program.''
    Third, I believe that the additional funding needed to 
complete the cleanup of Bikini should come not from the 
Interior Department budget, but rather from the budget of the 
Department of Energy's Environmental Management, which is 
earmarked for cleanups in 23 states that were involved in the 
U.S. nuclear weapons testing program. That program is estimated 
to cost $147 billion, and for the last three years Congress has 
appropriated an average of $5.75 billion for the program, This 
is where the cleanup costs for Bikini should come from. And 
while the $90 million already appropriated sounds like a lot of 
money, more than double that will be needed to complete the 
job. But let me remind you that the U.S. Government has spent 
more than $10 billion--billion--at just one U.S. nuclear 
weapons site--Hanford--without removing any contaminated soil.
    Worker safety: As the cleanup of Bikini occurs, we have 
asked our experts to design a radiation protection plan that is 
at least as low as occupational radiation exposure limits. The 
cost estimates for Bikini cleanup will include a separate 
number for worker radiation safety.
    Guarantee of Bikini Atoll's safety: In 1968, President 
Lyndon Johnson, relying on a report from the Atomic Energy 
Commission, announced that Bikini Atoll was safe and that our 
people could return home. That report proved to be wrong. 
Thirty years later, scientists from around the world, including 
the United States, are telling our people once again that it is 
safe to go back home under certain circumstances. The Bikini 
people, for reasons I am sure you can understand, do not trust 
U.S. Government scientists, and there is no one in our 
community with the expertise to tell us whether or not Bikini 
can be safely resettled. lf we return home we want the U.S. 
Government to guarantee Bikini's safety.
    When our leaders raised this issue last year with Secretary 
Babbitt, he said the decision was up to us, not the United 
States, and he urged them to turn to our own experts for 
advice. He also said that a written guarantee went against the 
spirit of trust that is assumed by the Compact. Our response is 
the same as President Reagan's to the Russians in the 1980s: 
Trust, but verify. We still want a guarantee of Bikini's safety 
if we return home.
    Health care: The 177 health care program, which is 
supported by a $2 million annual grant under the Section 177 
agreement has proven to be inadequate, due in large part to the 
huge and unexpected enrollment of individuals in the four-attol 
health care program. For example, in just 13 years, from 1983 
to 19996, the number of people in the program rose from 2,300 
to nearly 11,500. Moreover, this funding has not been adjusted 
for inflation, so the value of the $2 million annual payment, 
which began in 1988, is now less than half that.
    As a result of the failure of this program, the Bikini 
community has been forced to spend more and more of its 
resources on health care. Health care costs have, risen from 
$350,000 in 1994 to $850,000 for this fiscal year. After Bikini 
cleanup, it's the largest expenditure in the Resettlement Trust 
Fund.
      U.S.D.A. food: We thank the Congress for extending the 
U.S.D.A. food program for another five years. This program will 
be needed for Bikini people until we are living safely at 
Bikini Atoll, its soil has been restored and the people are 
able to eat safely a local diet. We urge that this be included 
in the extension of the Compact, but without a five-year 
limitation and with directions to reflect the changes in the 
population.
    Continuation of the Compact of Free Association: Although 
this is a government-to-government question, I want to remind 
you that the radiation at Bikini will last well after 2001. The 
United States has a legal responsibility and moral obligation 
to assist the people of Bikini until they are living safely 
back on all their islands. That responsibility should not be 
shifted, to the Government of the Marshall Islands. It did not 
create the nuclear problem and it lacks the resources and 
expertise to care for our needs. We hope this Committee will 
echo the words of Interior Secretary Babbitt, who told us just 
one year ago that ``the United States won't walk away from you 
or from this obligation, I feel very deeply that we have a 
moral commitment to you.''
    Changed circumstances: This hearing may not be the place to 
debate this issue, but let me leave you with one black and 
white example. For years we thought the only islands at Bikini 
that were vaporized were the ones near the 1954 Bravo shot. We 
now know from a 1968 AEC document that the area of one island 
in the Aerokoj-Eneman group was reduced from 67.1 acres to 25 
acres. Forty-two acres were vaporized, nearly two-thirds of the 
entire island. The destruction to this island was more than 
twice as much as the destruction caused by the Bravo shot, but 
this document was not made public until last year. If it been 
made public during the original Compact negotiations, it would 
have had an impact on those negotiations.
    3 percent Distribution From Resettlement Trust Fund: 
Lastly, we seek your support for a 3 percent distribution from 
the Resettlement Trust Fund. Congress appropriated funds in 
1982 and then again in 1988 to establish this trust fund, which 
is used both for the cleanup of Bikini and for the ongoing 
needs of the Bikini people. Thanks to our excellent money 
managers and our voluntary restraint on the use of these funds, 
the corpus is still there and the fund has grown by almost 14 
percent annually. While the income is not enough for our needs, 
I am proud to report that for 17 years, every dollar has been 
accounted for, annual audits are prepared, and monthly 
financial statements are sent to the Interior Department.
    We now know that the cost of cleaning up Bikini will 
greatly exceed the amount of money in the trust. As a result, 
it is certain that many Bikini elders, who have not been back 
on their home islands for more than 53 years, will probably die 
on Kili without returning home. In light of the strength of the 
trust and regular audits, the lengthy time a cleanup and 
restoration will take, and the special circumstances of the 
elders, we urge you to support a one-time 3 percent 
distribution from this trust fund, It will not require an 
appropriation of funds by Congress and it will not diminish the 
original corpus of the trust.
    Thank you. I would be pleased to answer any questions you 
may have.
[GRAPHIC] [TIFF OMITTED] T6305.139

[GRAPHIC] [TIFF OMITTED] T6305.140

[GRAPHIC] [TIFF OMITTED] T6305.141

[GRAPHIC] [TIFF OMITTED] T6305.142

[GRAPHIC] [TIFF OMITTED] T6305.143

[GRAPHIC] [TIFF OMITTED] T6305.144

[GRAPHIC] [TIFF OMITTED] T6305.145

[GRAPHIC] [TIFF OMITTED] T6305.146

[GRAPHIC] [TIFF OMITTED] T6305.147

[GRAPHIC] [TIFF OMITTED] T6305.148

[GRAPHIC] [TIFF OMITTED] T6305.149

[GRAPHIC] [TIFF OMITTED] T6305.150

[GRAPHIC] [TIFF OMITTED] T6305.151

[GRAPHIC] [TIFF OMITTED] T6305.152

[GRAPHIC] [TIFF OMITTED] T6305.153

[GRAPHIC] [TIFF OMITTED] T6305.154

[GRAPHIC] [TIFF OMITTED] T6305.155

[GRAPHIC] [TIFF OMITTED] T6305.156


</pre></body></html>
